<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                          TUESDAY, MAY 7, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Leahy, Tester, Udall, 
Merkley, Murkowski, Cochran, Alexander, Blunt, Hoeven, and 
Johanns.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. SALLY JEWELL, SECRETARY
ACCOMPANIED BY:
        DAVID HAYES, DEPUTY SECRETARY
        RHEA SUH, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND BUDGET
        PAMELA HAZE, DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, 
            PERFORMANCE AND ACQUISITION

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order. Good 
morning. On behalf of the Interior, Environment, and Related 
Agencies Appropriations Subcommittee, I'd like to convene this 
hearing on the fiscal year 2014 budget request for the 
Department of the Interior.
    Before we begin, I'd like to take a moment to welcome our 
new Secretary, Sally Jewell, who was sworn in as the 51st 
Secretary of the Interior on April 12. We are all fortunate 
that she brings to her new position three decades of very 
distinguished experience as a corporate executive, a banker, 
petroleum engineer, and most recently, serving as the Chief 
Executive Officer of Recreational Equipment Incorporated. And 
just as importantly, I think, she also brings to the job her 
personal experience as an avid outdoorswoman and advocate for 
public lands.
    So, thank you, Madam Secretary, for your commitment to 
service.
    I congratulate you, obviously, on behalf of the entire 
subcommittee, and we are very, very pleased that we are able to 
host your very first congressional hearing as Secretary. I 
think, knowing Senator Murkowski, we promise to behave. So, 
good luck. And I also look forward to hosting you up in Rhode 
Island to see one of America's great natural treasures.
    Let me also recognize Deputy Secretary David Hayes, who is 
here for us in his final appearance before he departs for his 
new position at Stanford Law School and the Hewlett Foundation 
in June. David, thank you for your extraordinary experience in 
both the Obama administration and the Clinton administration. 
You have performed extraordinary service for the country. 
You've been very helpful to us in terms of offshore development 
of wind power off Rhode Island. And I want to thank you 
particularly for joining Senator Murkowski and me, and then 
Secretary Salazar, on our tour of Alaska, including the North 
Slope.
    Now, subject to being corrected by Senator Murkowski, I 
don't think you'll find another restaurant quite as unique as 
Pepe's North of the Border in Barrow. If you do find such a 
restaurant in Stanford, please let us know, because we will go 
there.
    But good luck in all you do. Thank you.
    And let me also recognize Ms. Rhea Suh, Assistant Secretary 
for Policy, Management and Budget, and Pam Haze, her deputy. 
They provide extraordinary assistance, and they are the 
continuity and the expertise. Madam Secretary, I think you 
already recognize that, since David is leaving.
    I also want to congratulate Ms. Haze because she has been 
recently awarded the Presidential Distinguished Rank Award to 
honor her exemplary service to the Department. So, Pam, well 
done. Thank you--an honor richly deserved.

                              2014 BUDGET

    As we turn to the budget, it's worth noting that the 
President's request for fiscal year 2014 provides the Interior 
Department with substantial increases for energy development, 
land acquisition, science programs, and operations of our 
Nation's public lands. And, Secretary Jewell, it's good to see 
such a strong budget request for conservation programs at a 
time when the Department has been challenged by the effects of 
sequestration and other pressures on the budget.
    Let me suggest a few details that we can discuss as the 
hearing proceeds. All told, Interior Department programs funded 
by this subcommittee increased by almost 4 percent compared to 
fiscal year 2013, for a total of $10.7 billion. The request 
includes $2.6 billion to the National Park Service (NPS), which 
is a 4-percent increase more than fiscal year 2013. While the 
budget provides a significant increase for the operation of the 
national parks, however, I'm concerned that the budget again 
proposes to cut funding in half in National Heritage Areas, 
like the John H. Chafee Blackstone River Valley National 
Heritage Corridor in Rhode Island, and I look forward to 
discussing this issue with you.
    Funding for the Bureau of Land Management (BLM) is also up 
4 percent more than the fiscal year 2013 level, for a total of 
$1.1 billion. That amount again includes a proposal for a $48 
million fee to strengthen the onshore oil and gas inspection 
program. The request also proposes to increase funding for the 
U.S. Fish and Wildlife Service budget by 7 percent, for a total 
of $1.55 billion. That amount includes increases for the 
National Wildlife Refuge operations and science programs. 
Additional investments in science and research are also made in 
the budget for the U.S. Geological Survey (USGS), which is 
slated to receive a 9-percent increase more than fiscal year 
2013.
    In this atmosphere, these increases are significant and 
notable, as you, I think, recognize, Madam Secretary.
    Funding to the Department's offshore energy programs, which 
have long been an item of interest to the subcommittee, also 
increased by 9 percent, for a total of $392 million. That 
amount includes $169 million for the Bureau of Ocean Energy 
Management to fund new investments for permitting renewable 
energy projects like the ones we're pursuing off the coast of 
Rhode Island.
    It also includes $222 million to the Bureau of Safety and 
Environmental Enforcement, which handles inspections and 
enforcement related to offshore oil and gas production, and 
that is an increase of $22 million more than fiscal year 2013 
levels. The request includes $777 million for Wildland Fire 
Management programs within the Department, a decrease of $60 
million below fiscal year 2013. But that amount fully funds the 
10-year rolling average for fire suppression, but does not 
include offsetting cuts to the Hazardous Fuels Reduction 
program.
    Finally, the budget request includes a major initiative to 
Land and Water Conservation Fund (LWCF), which I expect we'll 
discuss this morning. Specifically, the budget provides a total 
of $600 million for the LWCF programs at the Interior 
Department and the U.S. Forest Service, including $400 million 
in appropriations funded by this subcommittee. For the first 
time ever, the budget proposes to fund part of the land 
acquisition and conservation budget with mandatory, rather than 
discretionary, funding.
    Obviously, I support this increased funding, but we have a 
long-term role in the allocation of these funds, and I think 
it's something that we should discuss with respect to this 
proposal. I indeed look forward to hearing from you.
    With that, let me now turn to the ranking member and 
colleague, Senator Murkowski, for any comments she would make.
    Senator.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. And welcome and 
good morning, Madam Secretary. It's good to have you before the 
subcommittee. This will be, of course, the first of many 
opportunities to sit down and work together on issues that are 
clearly important to our Nation, the public lands, clearly 
important to my State as the host of so many of those 
treasures. So again, welcome and congratulations.
    I also want to acknowledge the good work of Deputy 
Secretary David Hayes, and I share the chairman's appreciation 
for the work that you have provided for the Department of the 
Interior under former Secretary Salazar. We all know that, we 
both know that there were some very difficult issues that you 
worked on, particularly the issues related to the Arctic Outer 
Continental Shelf (OCS). We didn't always agree on everything, 
but you were always very honest, very open with me and my 
staff. I appreciate that, and I appreciate your leadership 
within the Department.
    I am sorry to see you leave, but good luck to you as you go 
off to Stanford. And anytime you want to come fishing up north, 
you know that we're there to welcome you.
    I also want to acknowledge today both Rhea Suh, the 
Assistant Secretary for Policy, Management and Budget, and of 
course, Pam Haze. Again, a great individual within the 
Department there, I appreciate your good work. Madam Secretary, 
I know that you're new to this position. But you truly do have 
a seasoned budget team with you today that I think will serve 
you well during your tenure.
    Like your predecessor, who visited our State frequently, I 
hope, Madam Secretary, that you will come to Alaska soon. This 
is a critical time for our State. And I would certainly 
appreciate the opportunity to show you personally some of the 
things that are a priority for me and for Alaskans, not the 
least of which, we'll have an opportunity, hopefully in August, 
to go out to King Cove. But there's so much to see. So I look 
forward to those opportunities.
    As you start your new position, I will say the same thing 
that I said, too, to my friend Ken Salazar, when he assumed the 
position as Secretary of the Interior. You are Alaska's 
landlord, effectively. We've got more than 220 million acres 
under the Department's jurisdiction, and that does not include 
the millions of acres of OCS waters. We have the Nation's 
largest National Wildlife Refuge, which is fully 85 percent of 
the entire refuge system. We have the Nation's largest national 
park and nearly one-third of all BLM lands, more than 75 
million acres.
    We also have one-half of all federally recognized tribes. 
And the trust responsibility that the Federal Government owes 
to our first peoples is very important to me. And at times, I 
don't think it has been given the attention that it deserves by 
either the Department of the Interior or BIA's sister agency, 
the Indian Health Service. So I hope that you would take a 
fresh look at improving the Department's relationship with 
Native Americans and Alaska Natives.
    Now, turning to your budget, I know that most of it was 
largely developed prior to your assuming this position as 
Secretary. That's got to be a tough, tough situation to walk 
into. But I must tell you that there are two proposals in this 
request that are, frankly, an insult to the people of Alaska, 
and I'm speaking particularly of the legislative proposals 
concerning future funding for the cleanup of legacy wells in 
the National Petroleum Reserve--Alaska (NPRA) and the 
completion of surveys that are necessary to convey final 
patents to the State of Alaska and to Alaska Natives.
    More than 100 wells were drilled by the Federal Government 
within the NPRA and then simply abandoned. The Government 
simply walked away. The annual budget for BLM has for many 
years contained base funding of only about $1 million for 
cleaning up these wells. The last two sites that were addressed 
cost the agency $2 million each to remediate to acceptable 
standards. So at this pace, it's going to take over 100 years 
to clean up this mess.
    Interestingly, if the Federal Government were a private 
company operating on State lands, the fines, the fines alone 
would exceed $8 billion. But we all know that the Federal 
Government is exempt from State regulation on its own lands.
    While the current situation is bad enough, the budget now 
proposes to take the State's share of future revenues that are 
generated from the NPRA to pay for the cost of the cleanup. In 
other words, Mr. Chairman, what is proposed here, the budget 
proposes to charge the State of Alaska for the Federal 
Government's own mess. For what they failed to clean up, they 
are now asking the State to step in and pick it up.
    And I just need to be very, very plain today. This 
proposal, in my view, is dead on arrival. It's just not going 
to happen. So we need to be working together to address the way 
that we will move forward with that, and I look forward to that 
opportunity.
    Likewise, the notion that the State must pay for the final 
lands entitled to it under the statehood act is equally 
wrongheaded. This has been a problem for decades. So again, you 
are walking into a situation that has been out there 
unaddressed, and how you will deal with it is difficult. In 
2004, the Congress passed the Alaska Land Transfer Acceleration 
Act that was intended to nearly finish conveyances by the 50th 
anniversary of statehood; that was back in 2009. That, of 
course, didn't happen. But at least the Department has made an 
attempt to increase the pace of conveyances, and I do 
appreciate that.
    For the last several years, the Department annually slashes 
the budget request for this program, even though the State is 
still waiting for title to more than 37 million acres of its 
lands. Alaska Natives are awaiting final transfer of 11.4 
million acres, fully one-quarter of their lands. Some 40 years 
after the fact, they're still waiting.
    My staff has searched; they can find no other State in the 
Union that was ever asked to effectively pay to gain the lands 
that were promised them when they joined this Union. Not 
Arizona, not New Mexico, not Florida, not California--no one, 
not one State has been asked to foot the bill to pay for the 
lands. We're not going to start with Alaska.
    I would ask, Mr. Chairman, I've received a letter from the 
Alaska Native Village CEO Association that speaks to the issue 
of the land conveyances, and I would ask that that be included 
as well, for the record.
    Senator Reed. Without objection.
    [The letter follows:]
         Letter From the Alaska Native Village CEO Association
                              Alaska Native Village
                                           CEO Association,
                                     Anchorage, AK, April 19, 2013.
    Re: Funding for BLM Alaska Conveyance Budget.

Hon. Don Young,
House of Representatives,
Rayburn House Office Building, Washington, DC.
Hon. Lisa Murkowski,
U.S. Senate, Hart Senate Office Building,
Washington, DC.
Hon. Mark Begich,
U.S. Senate, Russell Senate Office Building,
Washington, DC.
Sally Jewell,
Secretary of the Interior, Department of the Interior,
C St. NW, Washington, DC.
    Dear Congressman Young, Senator Murkowski, Senator Begich, and 
Director Jewell: I am writing on behalf of the Alaska Native Village 
CEO Association (ANVCA). ANVCA is the largest statewide Village' 
Association representing more than 80 Alaska Native Village 
Corporations. ANVCA's mission is to provide services that will improve 
the efficiency, profitability and stability to its member corporations 
and to advocate for policies that will benefit and protect interests of 
Alaska Native Village Corporations with local, State and Federal 
governments.
    Due to the President's budget and the 8 percent sequestration which 
is in effect until the end of September, there is no funding for 
cadastral surveys of ANCSA Corporation exterior boundaries, 14(c) or 
pending Native Allotments this year, and possibly next year. This is 
unacceptable. BLM cannot follow through on its Federal mandate in ANCSA 
13(a) which states: ``The Secretary shall survey the areas selected or 
designated for conveyance to Village Corporations pursuant to the 
provisions of this act.''
    A number of ANCSA Village and Regional Corporations had remaining 
entitlements and 14(c) surveys that were ready for survey this summer; 
however BLM had funds to perform only one cadastral survey this year.
    Many of these survey projects were to be contracted out to Public 
Law 638 Indian Self Determination and Education Act Contractors who 
perform the surveys on behalf of their own communities and on 
traditional lands. 638 Contracting promotes local hires, more funding 
is pumped directly into the local economy and the 638 contractors gain 
valuable Federal contracting experience.
    This setback will have profound consequences on our community and 
our entire State, both economically and socially. Dozens of our Alaskan 
village lands need surveys on the ground so vested 14(c) claimants can 
receive title to their homes, businesses, subsistence campsites and 
land for community expansion. Without survey of home lots, local people 
have difficulty getting a loan from the bank. Municipal governments 
need site control to get State and Federal funding for pressing 
community needs. ANCSA Corporations have a liability issue that comes 
from owning land that the public uses. The lack of survey also means 
that title to our remaining Corporation land is clouded until the 14(c) 
obligation is done and surveyed lands are conveyed to individuals, 
organizations and the City. Lack of survey is not only an ANCSA 
Corporation problem; it is a State of Alaska problem as well.
    Therefore. we urge you to make it a priority to restore. or even 
increase, funding for Alaska Native, and State of Alaska, lands through 
the Bureau of Land Management Alaska Conveyance Program for the survey 
of ANCSA and State lands.
    Please feel free to contact me regarding this matter at any time by 
contacting ANVCA.
    Thank you for your consideration.
                                             Nichola Ruedy,
                                          ANVCA Operations Manager.

    Senator Murkowski. So, Madam Secretary, you have a very 
unique background. We had an opportunity to discuss this during 
your confirmation hearings, a unique background in both the oil 
and gas industry in the private sector, as well as the 
conservation community. I know that some have perhaps been 
critical about your lack of experience in the public policy 
realm.
    But I'm hopeful that, as a fresh set of eyes and new 
perspective like you bring can help us move beyond some of the 
traditional stalemates that we have faced that pit one interest 
against another. I honestly believe it's possible for you to 
set a policy agenda at the department that is beneficial to all 
parties.
    My State and our country have so much potential to provide 
the help needed to address our Nation's energy, security, high 
unemployment, the sluggish economy. And I think that, working 
together, we can set this on the right course. So I appreciate 
your willingness to work with me on that.
    Mr. Chairman, I thank you and all of our witnesses for 
appearing before this subcommittee today and look forward to 
the opportunity for questions.
    Senator Reed. Thank you, Senator Murkowski.
    Let me just sort of give an overview of where we are. We 
have a 12 o'clock vote. It's now 10:45 a.m. We'll do 6-minute 
rounds, order of arrival, and we'll go by side to side.
    At this point, if any of my other colleagues would like to 
make a very brief, in the order of 1-minute statement, I'd be 
happy to entertain it.
    Very good. Thank you. In that case, Madam Secretary, your 
testimony is going to be made part of the record in its 
entirety. So feel free to summarize. Madam Secretary.

                   SUMMARY STATEMENT OF SALLY JEWELL

    Secretary Jewell. Thank you very much, Mr. Chairman, 
Ranking Member Murkowski, members of the subcommittee. It is an 
honor to present the fiscal year 2014 budget. I look forward to 
future years when I actually will have a hand in creating it. 
But I'm now in my fourth week on the job and certainly enjoying 
it so far.
    I do want to recognize my colleagues up here at the table, 
and in particular thank David Hayes for his guidance and his 
leadership, and his willingness to stay through the end of 
June, because I am doing as much as I can to tap his wisdom. 
Rhea Suh and Pam Haze have been incredibly helpful to me, as 
well, and continue to be.

                             SEQUESTRATION

    It's helpful to have a business background right now at 
this time in Government. I will do a glancing blow at 
sequestration. I can't not express that it is very, very 
difficult to walk into a Department that's just had an $881 
million cut to the budget for fiscal year 2013. Five percent in 
a year, but applied over the remaining months has been very, 
very difficult, and hard on employees, who are hardworking, who 
are committed to our mission, to all the things that you care 
about as well.
    They're really taking it on the chin, from furloughs of 
U.S. Park Police, 14 days that they're not going to be getting 
paid, to a 25-percent reduction across the board in our 
seasonal hires. So wildlife biologists, law enforcement 
rangers, interpretive rangers, maintenance folks, it's just 
very, very difficult for us to carry out the mission in the way 
it's expected.
    Just a couple of examples: Our public lands in all of your 
States have welcomed 435 million visitors a year, and they're 
going to see reductions in services and programs. Some of the 
parks won't be open to the extent that we would like them to be 
because you've got to protect the people and protect the 
resources.
    On the energy side, we just announced that we would not be 
able to do a few lease sales in California through BLM, because 
we have to prioritize those activities that are already in 
flight, from an environmental safety and protection standpoint, 
to authorizing permits to drill. This is going to impact our 
ability on both the conventional energy side and the renewable 
energy side to complete the environmental impact statement 
work, the permits and so on.
    I know it's not where you want us to go; it's certainly not 
where we want to go. This budget we're dealing with in fiscal 
year 2013 is roughly equivalent to where we were in 2006, not 
accounting for inflation. So it's very, very difficult. I have 
to say that I have been doing what I can to boost the spirit 
and encourage the people that work at Interior and devote so 
much of their time to this. But it's a rough year.

                              2014 BUDGET

    So fiscal year 2014 is a better choice for all of us. I 
know you all agree with that. The $10.9 billion budget for 
fiscal year 2014 supports energy and conservation. It supports 
upholding our trust responsibilities, as Ranking Member 
Murkowski referenced, to Native Americans and Alaska Natives, 
and sound science to drive our decisionmaking.
    The investments are focused on our economy, jobs, and our 
country's future. Of the $513 million increase requested over 
the fiscal year 2012 enacted budget, about 40 percent of it is 
strictly for the fire program. So there's a lot of puts and 
takes.

                    LAND AND WATER CONSERVATION FUND

    You referenced, Mr. Chairman, the LWCF and our request that 
over a 2-year period of time the funding be moved into the 
mandatory funding category. It fulfills, really, a 50-year 
promise to the American people to take offshore oil and gas 
revenues and mitigate those impacts by putting a portion of the 
revenues into conservation programs onshore. The LWCF has 
touched every single county across the United States. We think, 
given the environment that we're in, mandatory funding makes 
sense, and we could certainly get into more of that in the 
questioning.

                                SCIENCE

    On the science side, we have a $946 million investment in 
both basic and applied science to support the mission-essential 
programs. It's about a $138 million increase from fiscal year 
2012. What do we use this for? USGS and the FWS address 
invasive species threats. One big one is the Asian carp as it 
potentially moves into the Great Lakes. If we let that get out 
of control, we're in real trouble. This provides the science 
and the support to try and nip that in the bud before it 
becomes a problem.
    The white-nose syndrome in bats, a big issue for the 
agricultural community, particularly in the Northeast, but 
actually throughout the country as well, again bringing the 
resources to bear from science to address things like that. The 
use of geographic information system mapping to get a lot 
smarter about how we manage our lands overall. These are all 
investments in science I think will help us carry out our 
mission and fulfill the interests of your States.

                            INDIAN PROGRAMS

    On the Indian programs side, our fiscal year 2014 budget 
requests $2.6 billion for Bureau of Indian Affairs programs 
overall. That is upholding our trust management 
responsibilities in Indian education, law enforcement, and 
social service programs. We have increases in this budget for 
contract support costs for tribes around their self-
determination, to help combat domestic violence in Indian 
communities, help tribes manage their natural resources, and 
prepare for threats from climate change.

                              2014 BUDGET

    This is a balanced budget, from the standpoint of 
supporting the administration's priorities without adding a 
dime to the deficit. One thing that is beneficial about 
Interior is we generate revenue. This budget proposes to 
generate $3.7 billion in additional revenue over 10 years. 
We've cut administrative costs by $217 million by reducing 
travel and being strategic in purchasing since 2010. My 
colleagues here on my left have orchestrated the largest IT 
consolidation, perhaps across the Federal Government, which is 
saving hundreds of millions of dollars by being smarter and 
more efficient in how we deliver services.
    And the budget reflects what a businessperson would do, 
which is pick your priorities, scale back in other areas so you 
can fund the areas important to you and that align with the 
missions of Interior. We have about $600 million in reductions, 
which include $476 million under the jurisdiction of this 
subcommittee, freeing up that money to fund the priorities you 
referenced in your opening statements.
    We want to manage this Department, and I will bring my 
business expertise to the table to deliver on our missions 
effectively and support the American taxpayer.
    Final note on Hurricane Sandy. I want to thank all of you 
for your efforts to pass the Hurricane Sandy supplemental 
appropriations act, and a little later on today, we'll be 
issuing a press release on $475 million to be released to 
support Hurricane Sandy relief efforts. Mr. Chairman, it is 
$1.5 million for refuges in Rhode Island. It is reopening the 
Statue of Liberty for the Fourth of July, and many other 
programs identified in that press release that will repair the 
damage and also create more resilience for the future, as we 
have additional storm events that are impactful.

                           PREPARED STATEMENT

    So, I thank you very much for the opportunity and privilege 
to be here. And we all look forward to your questions. Thank 
you.
    [The statement follows:]
                   Prepared Statement of Sally Jewell
    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today. I am glad to have an opportunity to talk with you about my 
priorities, the Department's continuing role in job creation and the 
economy, and how we are practicing good Government.
    We share very deep connections in our roles as stewards of the 
Nation's parks, forests, deserts, rivers, and seashores and as the 
keeper of the history of this country. We share responsibilities to 
protect and advance the role of public lands and Indian lands as huge 
economic engines for the Nation. From energy development, to grazing, 
to logging, tourism and outdoor recreation, our lands and waters power 
our economy and create jobs. In many of your States, the revenues we 
share from energy production and other activities are a critical 
component of the local economy.
    I believe our partnership efforts and ability to resolve challenges 
and take advantage of opportunities will advance our goals and shape 
our country for years to come.
                          2013 appropriations
    Before I talk about the 2014 President's budget, I would like to 
paint the contrast created by the 2013 budget situation. For the 
programs that this subcommittee oversees, the Department's operating 
level for 2013 is $9.9 billion, including a sequester cut of $523 
million.
    The cuts to our budget push us back in time to funding levels we 
last saw in 2006. The cuts reverse much of the progress made by 
Secretary Salazar, who worked in partnership with this subcommittee to 
build capacity to advance the President's all-of-the above energy 
strategy; conserve our lands, waters and wildlife; advance youth 
engagement in the outdoors; and honor commitments to Indian Nations. I 
will admit we were disappointed by the outcome of the 2013 budget. It 
has resulted in dispirited agencies and demoralized employees and it 
undermines the work we need to do on so many fronts.
    I look at the Bureau of Land Management, an agency that has a 
diverse and challenging set of responsibilities, and I feel a sense of 
loss about the impacts to their budget. BLM balances its dual missions 
to protect and conserve natural and cultural resources, oversee and 
manage the development of energy and minerals, and responsibly manage 
historic uses of public lands for grazing and timber production, while 
meeting public demands for wilderness designation and recreation. This 
agency of nearly 11,000 employees has the enormous responsibility of 
managing 245 million acres of land and a mineral estate of 700 million 
acres. BLM oversees 6,000 miles of trails in 14 States, hosts 59 
million visitors annually, and oversees the production of 41 percent of 
the coal produced in this country. BLM's vast estate and complex 
mission requires a balancing of work and stretches resources across 17 
western States.
    BLM strives to be a good neighbor. The BLM's operating budget is 
reduced from last year's operating level by $70 million or 6 percent. 
This reduction comes now, halfway through the fiscal year and at the 
start of field season. The outcome of the 2013 appropriation process 
will slow BLM's efforts to strengthen the management and permitting 
processes for oil and gas, minerals and coal on public lands; reduce 
efforts underway to protect and restore sage grouse habitat; reduce our 
partnerships that help to maintain trails and recreation opportunities; 
and slow the issuance of grazing permits and timber leases. This will 
impact BLM's ability to be a good neighbor because it will be necessary 
to reduce invasive species control, the protection of archeological 
sites, and limit access for camping, hunting and fishing, and other 
recreation.
    In the coming months you will see these types of impacts across the 
country in all of our bureaus and offices. You will also see the 
impacts on your constituents because of cutbacks in programs and 
services and because of reduced revenue sharing, grants and contracts. 
We recently notified State treasurers that they can expect to receive 
reduced mineral payments for the balance of the fiscal year and we 
notified county commissioners that Payments in Lieu of Taxes payments 
will be reduced.
    This discussion is important--we are at a watershed moment for our 
Nation. We can't continue to mortgage our future by cutting back on 
programs that fulfill commitments to the Nation for natural and 
cultural resource stewardship, energy independence, and upholding our 
commitments to Indian Tribes. Interior's budget is 1 percent of 
discretionary spending--a small slice of the pie. However, cuts to our 
programs have disproportionate impacts that we cannot continue to 
erode.
    Our Department collects nearly $13 billion annually through mineral 
extraction, grazing and timber activities on public lands, and 
recreation fees. We share nearly $5 billion of these revenues annually 
with States, tribes, counties and others in the form of grants and 
direct payments. An additional $2 billion of our budget is used in 
local communities across the Nation through contracts for goods and 
services.
    We will survive these cuts in 2013 by freezing hiring, eliminating 
seasonal positions, and cutting back on our programs and services. 
These steps are essential in order to maintain our core mission to 
serve the public. However, they are not sustainable, as these actions 
which are eroding our workforce, shrinking our summer field season, and 
deferring important work cannot be continued in future years without 
further severe consequences to our mission.
                              2014 budget
    The 2013 situation is in stark contrast to our 2014 budget. 
Interior's 2014 budget represents the needs of this Department in 
balance with the constrained fiscal situation. The budget will help us 
to operate effectively and fulfill our mission requirements and 
authorized purposes as prescribed by the Congress.
    The 2014 budget request includes $10.9 billion for programs under 
the jurisdiction of the Interior, Environment and Related Agencies 
Subcommittee. The budget for current appropriations is $513.2 million 
or 5 percent above the 2012 level.
    Including the Bureau of Reclamation and the Central Utah Completion 
Act, which is under the jurisdiction of the Energy and Water 
Development Subcommittee, the 2014 President's budget includes $11.9 
billion, an increase of $486.4 million. Interior's budget request 
includes reductions and savings of over $600 million. These reductions 
reflect the outcome of difficult choices, sacrificing in many areas, 
deferring projects, and programming savings for efficiencies in order 
to maintain funding for highest priorities.
    It is important to put this budget in context. The context is the 
complex mission the Department of the Interior has and how the mission 
affects the lives of all Americans. Nearly every American lives within 
an hour's drive of lands or waters managed by the Interior Department. 
In 2012, there were 483 million visits to Interior-managed lands. 
Recreational visits to Interior's lands had an economic benefit to 
local communities, particularly in rural areas, contributing an 
estimated $48.7 billion in economic activity in 2011. The Department 
oversees the responsible development of 23 percent of U.S. energy 
supplies, is the largest supplier and manager of water in the 17 
western States, maintains relationships with 566 federally recognized 
Tribes, and provides services to more than 1.7 million American Indian 
and Alaska Native peoples.
    Achieving success in all of these important responsibilities on 
behalf of the American people is the Department's primary focus. The 
American people deserve nothing less.
                          investing in america
    Through the America's Great Outdoors initiative, the administration 
is working to expand opportunities for recreation and conservation, 
through partnerships with States and others, and the promotion of 
America's parks, refuges, and public lands. The benefits extend beyond 
the conservation of natural resources and engagement of Americans with 
the outdoors. According to the Outdoor Industry Association, the 
American outdoor recreation economy provides an estimated 6.1 million 
jobs, spurs $646 billion in spending, and brings $39.9 billion in 
Federal tax revenue and $39.7 billion in State and local tax revenue.
    I am very excited the 2014 budget request includes increased 
funding for the Land and Water Conservation Fund and a legislative 
proposal to establish dedicated mandatory funding for LWCF programs, 
with full funding at $900 million beginning in 2015. Enactment of a 
mandatory LWCF program would ensure continued funding for this program 
that was designed to make investments in conservation and recreation as 
compensation to the American people for the development of oil and gas 
resources. In 2014, the budget includes $600 million for LWCF, 
including $200 million in mandatory funding to supplement discretionary 
funds and provide an additional $141 million for Interior programs, 
including $88 million for Federal land acquisition, and $53 million for 
recreational and conservation grants. The budget includes $59 million 
in mandatory funding for U.S. Department of Agriculture's Forest 
Service.
    The AGO initiative is encouraging innovative partnerships in 
communities across the Nation, expanding access to rivers and trails, 
creating wildlife corridors, and promoting conservation while working 
to protect historic uses of the land including ranching, farming, and 
forestry. These efforts are based on donations reflecting the support 
of local communities to protect these areas and create more open space. 
For example, in 2012, the Department established the Swan Valley 
Conservation Area which connects the Canadian Rockies with the central 
Rockies of Idaho and Wyoming. The FWS established the area in 
partnership with landowners who voluntarily entered their lands into 
easements. The new area will protect one of the last low-elevation, 
coniferous forest ecosystems in western Montana that remains 
undeveloped and provide habitat for species such as grizzly bears, gray 
wolves, wolverines, and Canada lynx.
    The 2014 budget includes $5.3 billion in current authority for AGO 
activities, an increase of $179.8 million above 2012. Funding is 
focused on land acquisition programs supported through the Land and 
Water Conservation Fund as well as land management operations, and 
other grant and technical assistance programs to promote conservation 
and improve recreational access. This includes $120.2 million for river 
restoration activities by the Bureau of Reclamation, a new addition to 
our AGO portfolio in 2014.
    The AGO request includes $10 million for a revitalized and 
refocused Urban Parks and Recreation Resource grant program, and $3 
million for a Historic Preservation Fund competitive grant program to 
support projects that help to tell the broader and diverse aspects of 
America's story.
    The 2014 budget continues a collaborative effort begun last year 
with the U.S. Department of Agriculture's Forest Service in the to 
focus on the conservation and restoration of landscapes and working 
lands, protecting ecosystems and the communities that depend on them. 
This approach works with partners at the local level to identify 
landscape areas or ecosystems for collaborative and leveraged 
conservation investments. Working jointly with the Forest Service, 
Interior has identified four focal landscape areas for targeted 
investment of $169.3 million in 2014.
                        a stronger energy future
    Interior enables the safe and environmentally responsible 
development of conventional and renewable energy on public lands and 
the Outer Continental Shelf. The Department's oil and gas development 
activities accounted for nearly $9.7 billion of the receipts generated 
by Interior's activities in 2012. For the past several years, Interior 
has targeted investments in America's energy future, particularly to 
encourage the development of renewable energy on the Nation's public 
lands and offshore areas where it makes sense. In 2009, there were no 
commercial solar energy projects on or under development on the public 
lands. From 2009 through March 2013, Interior authorized 37 renewable 
energy projects on or through the public lands which, if constructed, 
will have the potential to produce enough electricity to power more 
than 3.8 million homes. The Department also plays a key role in efforts 
to strengthen the Nation's electric transmission grid. In 2012, 
Interior approved permits enabling more than 350 miles of transmission 
lines in seven States across Federal lands.
    A stronger America depends on a growing economy that creates jobs. 
No area holds more promise than investments in American energy, with 
the potential to provide clean, low cost, reliable, and secure energy 
supplies. Success depends on the country's ability to pursue an all-of-
the-above energy strategy. Interior's energy resource programs are at 
the forefront of this objective. The 2014 budget includes $771.6 
million for renewable and conventional energy programs, an increase of 
$97.5 million above 2012. This includes $1.1 million for the Bureau of 
Reclamation to better integrate renewable energy technology into their 
projects, building on significant investments to date. Reclamation's 58 
hydroelectric power plants generate more than 40 billion kilowatt hours 
of electricity to meet the needs of over 3.5 million households and 
generate over $1 billion in gross revenues for the Federal Government.
    Renewable energy, particularly solar and wind power, is a crucial 
and growing component of the administration's all-of-the-above energy 
strategy. Among the significant results achieved for renewable power, 
since 2009, BLM has authorized more than 11,500 megawatts of energy on 
public lands and waters, established a road map for responsible solar 
development in the West designating energy zones, and flipped the 
switch on the first solar energy project to deliver power to the grid. 
The BLM also released the Final Environmental Impact Statement for a 
proposed 750 megawatt facility in Riverside County that would be one of 
the largest solar energy projects on public lands in the California 
desert. The BLM is also moving forward on wind energy, with a proposed 
complex in Wyoming that would generate up to 3,000 megawatts of power, 
making it the largest wind farm facility in the United States and one 
of the largest in the world. The 2014 budget includes $29.1 million in 
BLM for onshore renewable energy programs.
    Significant progress has been made to advance offshore wind energy. 
In 2012, BOEM issued the second non-competitive commercial wind lease 
off the coast of Delaware, and moved forward with first-ever 
competitive lease sales for wind energy areas off Virginia and Rhode 
Island/Massachusetts. These sales involve nearly 278,000 acres proposed 
for development of wind generation to produce electricity to power as 
many as 1.4 million homes. The 2014 budget includes $34.4 million in 
BOEM for offshore Renewable Energy development.
    Interior oversees onshore production of oil, gas, and coal on over 
700 million acres of subsurface mineral estate and continues efforts to 
expand safe and responsible onshore energy development. In calendar 
year 2012, the Bureau of Land Management held 31 onshore oil and gas 
sales. Although we planned to conduct 33 sales in 2013, the sequester 
is anticipated to result in fewer and smaller lease sales. The BLM 
sales resulted in 1,707 parcels of land receiving bids in 2012, 30 
percent more than in 2009. Onshore oil and gas leasing reforms put in 
place in 2010 resulted in fewer protests; less than 18 percent of 2,064 
parcels offered in fiscal year 2012 were protested, the lowest since 
fiscal year 2003, reducing costs and speeding development. In 2014, the 
Department proposes a total of $127.1 million in current appropriations 
and offsetting fees for BLM's oil and gas program, representing an 
increase of $23 million in program capacity. This includes $48 million 
in proposed inspection fees, allowing for an increase of $10 million in 
BLM inspection and enforcement resources, along with a reduction of $38 
million in requested appropriations for the program. The proposed 
onshore inspection fee is similar to the fee now charged to inspect 
offshore rigs and platforms.
    Interior has been similarly active in supporting offshore 
production of oil and gas, while continuing to stress management and 
oversight reforms identified as a result of the Deepwater Horizon 
incident. At the end of 2012, more rigs were operating in the gulf than 
in the previous 2\1/2\ years, equaling the number of rigs in the gulf 
before the Deepwater Horizon oil spill. In 2012 alone, BSEE approved 
112 new deepwater well permits, higher than in either of the 2 years 
preceding the Deepwater Horizon oil spill. At the same time, the 
Department has implemented safety and environmental management systems 
regulations; issued a new drilling safety rule to refine safety reforms 
and strengthen requirements; took steps to hold contractors accountable 
for their actions offshore; conducted the first full-scale capping 
stack deployment exercise to respond to a potential future well blowout 
scenario; and provided new guidance on oil spill response plans.
    Interior released a new 5-year program for offshore leasing last 
year, making areas containing an estimated 75 percent of the 
technically recoverable offshore oil and gas resources available for 
exploration and development. In March 2013, BOEM held the second Gulf 
of Mexico sale under the new OCS Plan, drawing 407 bids on 320 tracts 
covering more than 1.7 million acres offshore Alabama, Louisiana, and 
Mississippi, with high bids totaling $1.2 billion. In 2012, BOEM began 
to assess energy resource potential off the coast of the Mid and South 
Atlantic. In 2012, Interior also oversaw the first new exploratory 
activity in the Alaskan arctic in a decade, with Shell Oil Company 
beginning limited preparatory drilling activities in the Chukchi and 
Beaufort Seas under strict safety and environmental oversight. The 2014 
budget includes a legislative proposal to implement an agreement 
reached in 2012 with the Government of Mexico to open up previously off 
limits transboundary oil and natural gas reservoirs in the Gulf of 
Mexico. The 2014 budget includes $478.2 million for conventional 
offshore oil and gas activities. The Department estimates the 
exploration and production of oil, gas, coal, hydropower, and minerals 
on Federal lands contributed nearly $275 billion to the U.S. economy in 
2011.
                          fulfilling the trust
    This administration has made it a top priority to help bring real 
and lasting change in Indian Country and to open a new constructive 
chapter of relations with Native Americans. The administration has a 
comprehensive agenda to reform, repair, and rebuild Federal relations 
with Indian Country to ensure American Indians and Alaska Natives are 
offered the opportunities they deserve. This means respecting the 
inherent sovereignty of tribal nations and making sure the Federal 
Government is honoring its commitments, fulfilling its trust 
responsibilities to tribal nations and individuals, providing 
resources, working cooperatively to build stronger economies and safer 
communities, and providing high quality education opportunities for 
Indian youth at schools funded by the Bureau of Indian Education.
    Interior has worked diligently to restore tribal homelands. Since 
2009, Interior has acquired more than 190,000 acres of land into trust 
and processed over 1,000 requests for land acquisitions that will allow 
for economic development, natural resource infrastructure, and health 
and housing projects to move forward as determined by the Tribes. The 
Secretarial appointed National Commission on Indian Trust 
Administration and Reform will help further these efforts as it 
undertakes a forward-looking, comprehensive evaluation of the 
Department's trust management.
    One of the most significant recent developments regarding 
Interior's trust responsibilities was passage of the Claims Resolution 
Act of 2010, which ratified the $3.4 billion Cobell v. Salazar 
settlement agreement and four tribal water rights settlements. The 
settlement became final on November 24, 2012, following action by the 
U.S. Supreme Court and expiration of the appeal period.
    Interior has launched implementation of a $1.9 billion Indian Land 
Buy-Back Program, authorized in the legislation, to purchase 
fractionated interests in trust or restricted land from willing 
Individual Indian account holders at fair market value within a 10 year 
period. The program enables tribal governments to use consolidated 
parcels for the benefit of their communities. Interior will administer 
the program by securing the Department's extensive expertise and 
services, primarily in BIA and the Office of Special Trustee for 
American Indians, to implement the operational aspects, including 
valuations and acquisitions. As an added incentive to willing sellers, 
the Indian Land Buy-Back Program will fund up to $60 million for a 
scholarship fund for American Indian and Alaska Native students.
    The entire program will be based on consultation with and 
participation of Tribes. Building on the Cobell v. Salazar settlement, 
the administration has engaged tribes in Nation-to-Nation negotiations 
on 59 additional settlements leading to over $1.1 billion in 
settlements to resolve long standing trust accounting and trust 
management claims.
    Interior has also taken another step to give tribes and individual 
Indians greater control over their own lands with the finalization of 
the most sweeping reform of Federal surface leasing regulations in more 
than 50 years. The new regulations remove bureaucratic redtape and 
streamline the approval for homeownership, expedite economic 
development, and spur renewable energy. As a result, individuals and 
tribes will have the ability to do fundamental things on tribal lands, 
like buy a home or build a business. The 2014 budget includes increases 
in Trust Real Estate Services, including a general increase of $4.2 
million to support these efforts.
    The 2014 budget proposes an interim solution in the way in which 
funds are budgeted for contract support costs, which are important to 
the furtherance of self-governance and Indian self-determination. The 
1975 Indian Self-Determination and Education Assistance Act, as 
amended, allows tribes to implement programs previously administered by 
the Federal Government through contractual arrangements. In turn, 
tribal contractors are paid for the administration of those programs, 
known as contract support costs. Contract support costs funds are used 
by tribal contractors to pay a wide range of administrative and 
management costs, including but not limited to finance, personnel, 
maintenance, insurance, utilities, audits, and communications. These 
funds allow tribes to manage the programs for which they contract, and 
eliminate the need for tribes to use program funds to fulfill 
administrative requirements. The 2014 request for these costs is $231 
million, an increase of $9.8 million above the 2012 enacted level.
    In light of the Supreme Court's Salazar v. Ramah Navajo Chapter 
decision, the administration is proposing Congress appropriate contract 
support costs funding to tribes on a contract-by-contract basis. To 
ensure as much clarity as possible regarding the level of contract 
support costs funding, the administration will provide Congress a 
contract-by-contract funding table for incorporation into the 
appropriations act. The administration proposes this change as an 
interim step. The broader goal is to develop a longer-term solution 
through consultation with the Tribes, as well as streamline and 
simplify the contract support costs process which is considered by many 
as overly complex and cumbersome to both tribes and the Federal 
Government.
    Another area of emphasis reflected in the 2014 budget is a 
commitment to resolve tribal water rights claims and ensure Native 
American communities have access to use and manage water to meet 
domestic, economic, cultural, and ecological needs. Including funding 
for technical and legal support and for authorized settlements 
involving tribal waters, the 2014 budget request totals $159.6 million, 
which is an increase of $25.9 million over 2012. This includes a total 
of $135.3 million within the Bureaus of Reclamation and Indian Affairs 
to implement water rights settlements, an increase of $20.4 million 
above 2012. For communities benefiting from these settlements, a 
permanent water supply will vastly improve their quality of life and 
will offer greater economic security immediately as well as into the 
future.
    To strengthen the Department's capacity to meet its trust 
responsibilities and more effectively partner with tribes on water 
issues, $3.4 million in increases are provided in BIA's budget to 
support Water Management and Planning, Water Rights Litigation, and to 
conduct a comprehensive Department-wide evaluation to strengthen 
engagement, management, and analytical capabilities of the Indian Water 
Rights Office and other bureaus and offices that work on these issues. 
An increase of $766,000 in Reclamation's Native American Affairs 
Program and $1 million in the Cooperative Water Program at USGS will 
also strengthen technical analysis in support of water rights 
settlement work.
    Interior is working to improve other services in Indian Country. In 
education, Interior is working with the Department of Education to 
develop a national education reform agenda to better serve Indian 
children in BIE schools. The two agencies signed an agreement to 
bolster cooperation and coordination. The budget includes $15 million 
to fund an elementary and secondary school pilot program based on the 
successful Department of Education turnaround schools model. Grants 
will be awarded to BIE-funded schools demonstrating the greatest need 
for the funds and the strongest commitment for substantially raising 
the achievement of students.
    Interior is putting more law enforcement officers in Indian 
communities, and improving training and equipment. Interior's revamped 
recruiting process for BIA law enforcement officers has increased the 
number of applicants for those positions by 500 percent, resulting in 
the largest officer hiring increase in BIA history. A pilot program of 
intense community policing on four reservations experiencing high crime 
rates saw promising results, a combined reduction of violent crime of 
35 percent after the first 24 months. Now, 12 months later, crime 
continues to drop for a new combined reduction of 55 percent. Interior 
has expanded this successful pilot program to two additional 
reservations. The 2014 budget of $2.6 billion includes $365.3 million 
for BIA's Public Safety and Justice program, an increase of $19 
million.
             spurring growth and innovation through science
    The proposed 2014 budget provides strong support for basic and 
applied science to support sustainable stewardship of natural resources 
as part of Interior's mission. The budget requests $963.1 million for 
research and development across the Department. These investments 
promote economic growth and innovation, advance American 
competitiveness in the global market, strengthen natural hazard 
preparedness and improve the Nation's fundamental understanding of our 
natural resources and environmental capital at the heart of resource 
development, and human and environmental health issues. Program 
increases will support the application of science to address critical 
challenges in energy and mineral production, ecosystem management, 
invasive species, oil spill restoration, climate adaptation, and Earth 
observation (such as satellite and airborne land imaging and water and 
wildlife monitoring).
    Interior's mission requires a careful balance between development 
and conservation. The Department works to achieve this balance by 
working closely with its diverse stakeholders and partners to ensure 
its actions provide the greatest benefit to the American people. 
Central to this mission is the development and use of scientific 
information to inform decisionmaking. Scientific monitoring, research, 
and development play a vital role in supporting Interior's missions and 
Interior maintains a robust science capability in the natural sciences, 
primarily in the U.S. Geological Survey. An example of how this 
expertise is applied is USGS's work as part of an interagency 
collaboration on hydraulic fracturing, which is aimed at researching 
and producing decision-ready information and tools on the potential 
impacts of hydraulic fracturing on the environment, health, and safety, 
including water quality and inducement of seismic activity. The budget 
includes $18 million to continue the inter-agency collaboration to 
investigate the impacts of hydraulic fracturing.
    As the Department's premier science agency, the U.S. Geological 
Survey is funded at $1.2 billion in the proposed budget, an increase of 
$98.8 million above the 2012 enacted level, the majority of which is 
requested for increased research and development. Funding supports 
research needed for the development of domestic energy, protection of 
critical water resources, and to respond to natural disasters. The 2014 
request emphasizes investments in science unique to USGS that will 
address national impacts such as hydraulic fracturing, and research, 
monitoring and tools to make science usable by decisionmakers in 
ecosystem restoration efforts in the Chesapeake Bay, California Bay-
Delta, and the Upper Mississippi River.
    The USGS provides exceptional support to Interior bureaus, however 
USGS alone cannot provide for all of Interior's scientific needs. The 
USGS and other Interior bureaus work collaboratively to find answers 
and to translate and apply scientific information and tools to 
important natural resource management questions. Science funding at the 
bureau and office level allows bureaus and offices to collaborate to 
produce and translate science into management-ready information, 
providing required resources to purchase studies, models, and 
expertise, and to hire scientists to help managers interpret the vast 
body of knowledge generated by USGS, universities, and other scientific 
institutions. These resources help answer imminent and important 
natural resource management questions and provide near-term solutions 
to address urgent and emerging issues such as the white-nose syndrome 
in bats.
    Interior agencies work collaboratively to bridge gaps in knowledge, 
leveraging the complementary skills and capacity to advance the use of 
science to support management decisionmaking, ensure independent review 
of key decisions and science integrity, and adaptively use data to 
assist States, Tribes, and communities throughout the Nation.
                      water for a growing america
    Although the Bureau of Reclamation is within the jurisdiction of 
the Energy and Water Subcommittee, it plays a critical role in 
addressing the Nation's water challenges which are of interest the 
subcommittee. Reclamation maintains 476 dams and 337 reservoirs with 
the capacity to store 245 million acre-feet of water. The bureau 
manages water for agricultural, municipal, and industrial use, and 
provides recreation for millions of people. Reclamation's activities, 
including recreation, generate estimated economic benefits of over $55 
billion and support nearly 416,000 jobs.
    These facilities deliver water to one in every five western farmers 
to irrigate about 10 million acres of land, and provide water to over 
31 million people for municipal and industrial uses and other non-
agricultural uses. The water managed by Interior irrigates an estimated 
60 percent of the Nation's vegetables each year. Reclamation facilities 
also reduce flood damages in communities where they are located and 
thereby create an economic benefit by sparing these communities the 
cost of rebuilding or replacing property damaged or destroyed by flood 
events.
    Population growth, development, and a changing climate are creating 
growing challenges to the Nation's water supplies. In many areas of the 
country, including the arid West, dwindling water supplies, lengthening 
droughts, and rising demand for water are forcing communities, 
stakeholders, and governments to explore new ideas and find new 
solutions to ensure stable, secure water supplies for the future.
    Interior is tackling America's water challenges by providing 
leadership and assistance to States, tribes, and local communities to 
address competing demands for water. Interior's programs are helping 
communities improve conservation and increase water availability, 
restore watersheds, and resolve long standing water conflicts. Interior 
is leading a national water conservation initiative, WaterSMART. The 
acronym stands for Sustain and Manage America's Resources for Tomorrow. 
WaterSMART is finding better ways to stretch existing supplies and 
helping partners plan to meet future water demands.
    The USGS is a key partner in Interior's WaterSMART initiative, by 
contributing research as part of its WaterSMART Availability and Use 
Assessment effort. The 2014 budget for the USGS includes $22.5 million 
for WaterSMART activities.
    In 2012, USGS began a 3 year study of three focus areas in the 
Delaware River Basin, the Apalachicola-Chattahoochee-Flint River Basin, 
and the Colorado River Basin. The studies focus on water availability, 
investigating the components of a regional water budget to understand 
the amount entering and leaving each basin. This work contributed to 
The Colorado River Basin Water Supply and Demand Study released by the 
Department in December 2012, funded by the Bureau of Reclamation and 
the seven States in the Colorado River Basin. This first of a kind 
study projects an average imbalance in future water supply and demand 
greater than 3.2 million acre-feet by 2060. The study projects the 
largest increase in demand will come from municipal and industrial 
users, owing to population growth. The Colorado River Basin currently 
provides water to 40 million people. The study estimates this could 
double to nearly 76 million people by 2060, under a rapid growth 
scenario.
                         fiscal responsibility
    This budget recognizes the need for fiscal responsibility. The 
priority programs are level funded with 2012 and limited strategic 
investments proposed in 2014 are balanced by reductions in lower 
priority programs, deferrals and planning efficiencies.
    Despite increased resources needed for programs and services, 
Interior will continue to improve efficiency and reduce its workforce. 
Staffing reductions of 593 from 2012 are planned for 2014. These 
personnel reductions are focused on areas where there are funding 
reductions. Staffing reductions will be achieved through attrition, 
outplacement, and buy-outs in order to minimize the need to conduct 
reductions in force to the greatest extent possible.
    This budget is responsible, with over $600 million in program 
terminations, reductions, and savings from administrative efficiencies 
and improvements. The budget also continues efforts to shift program 
costs to industry where appropriate, and in so doing, improve program 
effectiveness. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress results in 
an additional $6.3 billion, for $18.3 billion in total budget authority 
for Interior in 2014.
                          mandatory proposals
    The 2014 budget includes 17 mandatory proposals that will be 
submitted to the Congress to collect a fair return to the American 
taxpayer for the sale of Federal resources, to reduce unnecessary 
spending, and to extend beneficial authorities of law. Revenue and 
savings proposals will generate more than $3.7 billion over the next 
decade. The 2014 budget also includes three mandatory spending 
proposals estimated at $8.1 billion in outlays over the next decade.
    Land and Water Conservation Fund.--The Department of the Interior 
will submit a legislative proposal to permanently authorize annual 
funding, without further appropriation or fiscal year limitation, for 
LWCF programs in the Departments of the Interior and Agriculture. 
During a transition to permanent funding in 2014, the budget proposes 
$600 million in total LWCF programs funding, comprised of $200 million 
permanent and $400 million current funding. Starting in 2015, the fully 
authorized level of $900 million in permanent funds will be authorized 
each year.
    Payments in Lieu of Taxes.--The authorization for permanent PILT 
payments was extended through 2013 as part of the Surface 
Transportation Extension Act of 2012. The 2014 budget proposes to 
extend authorization of the program an additional year through 2014, 
while a sustainable long-term funding solution is developed for the 
PILT Program. The PILT payments help local governments carry out vital 
services, such as firefighting and police protection, construction of 
public schools and roads, and search and rescue operations.
    Palau Compact.--On September 3, 2010, the United States and the 
Republic of Palau successfully concluded the review of the Compact of 
Free Association and signed a 15-year agreement that includes a package 
of assistance through 2024. The 2014 budget assumes authorization of 
permanent funding for the Compact occurs in 2013. The cost for this 
proposal is estimated at $189 million over the 2014 through 2023 
period.
    Federal Oil and Gas Reforms.--The budget includes a package of 
legislative reforms to bolster and backstop administrative actions 
being taken to reform the management of Interior's onshore and offshore 
oil and gas programs, with a key focus on improving the return to 
taxpayers from the sale of these Federal resources. Proposed statutory 
and administrative changes fall into three general categories: (1) 
advancing royalty reforms, (2) encouraging diligent development of oil 
and gas leases, and (3) improving revenue collection processes. 
Collectively, these reforms will generate roughly $2.5 billion in net 
revenue to the Treasury over 10 years, of which about $1.7 billion 
would result from statutory changes. Many States will also benefit from 
higher Federal revenue sharing payments.
    Helium Sales, Operations and Deposits.--The Department will submit 
a legislative proposal to authorize the Helium Fund to continue 
activities supporting the sale of helium. Under the Helium 
Privatization Act of 1996, the Helium Fund is set to expire upon 
repayment of the helium debt, anticipated to occur the first quarter of 
2014. This proposal will allow continued operation of the Helium 
program while facilitating a gradual exit from the helium market. 
Additional revenues from this proposal are estimated at $480 million 
over the decade.
    Transboundary Gulf of Mexico Agreement.--The 2014 budget includes a 
legislative proposal to implement the Agreement between the United 
States and the United Mexican States concerning Transboundary 
Hydrocarbon Reservoirs in the Gulf of Mexico, signed by representatives 
of the United States and Mexico on February 20, 2012. The Agreement 
establishes a framework for the cooperative exploration and development 
of hydrocarbon resources that cross the United States-Mexico maritime 
boundary in the Gulf of Mexico. The Agreement would also end the 
moratorium on development along the boundary in the Western Gap in the 
gulf. The budget assumes revenues from lease sales in this area will 
generate an estimated $50 million for the Treasury in 2014.
    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
Levels.--The budget proposes legislation to modify the 2006 amendments 
to the Surface Mining Control and Reclamation Act, which lowered the 
per-ton coal fee companies pay into the AML Fund. The proposal would 
return the fees to the levels companies paid prior to the 2006 fee 
reduction. The additional revenue, with estimated net savings of $54 
million over 10 years, will be used to reclaim high priority abandoned 
coal mines.
    Reallocate NPR-A Revenues to Priority BLM Alaska Activities.--The 
budget proposes to temporarily redirect revenue sharing payments to the 
State of Alaska from NPR-A oil and gas development to a new Alaska Land 
Conveyance and Remediation Fund. This fund would supplement current 
appropriations and address priority BLM program needs in Alaska, 
specifically the remediation of oil and gas legacy wells in NPR-A and 
the completion of remaining land title conveyances to the State of 
Alaska, individual Alaska Natives, and Alaska Native Corporations.
    Discontinue AML Payments to Certified States.--The budget proposes 
to discontinue the unrestricted payments to States and tribes certified 
for completing their coal reclamation work. While the Surface 
Transportation Extension Act of 2012 capped annual payments to each 
certified State and tribe at $15 million, this proposal terminates all 
such payments, with estimated savings of approximately $327 million 
over the next 10 years.
    Reclamation of Abandoned Hardrock Mines.--To address the legacy of 
abandoned hardrock mines across the United States and hold the hardrock 
mining industry accountable for past mining practices, the Department 
will propose legislation to create a parallel Abandoned Mine Lands 
Program for abandoned hardrock sites. A new AML fee on hardrock 
production on both public and private lands would be allocated to 
reclaim the highest priority hardrock abandoned sites on Federal, 
State, tribal, and private lands. Additional revenue is estimated at 
$1.8 billion for the 2014-2023 period, while outlays for reclamation 
projects, which lag behind collections, are estimated at $1.3 billion 
over the same period.
    Reform Hardrock Mining on Federal Lands.--Interior will submit a 
legislative proposal to provide a fair return to the taxpayer from 
hardrock production on Federal lands. The legislative proposal will 
institute a leasing program under the Mineral Leasing Act of 1920 for 
certain hardrock minerals including gold, silver, lead, zinc, copper, 
uranium, and molybdenum, currently covered by the General Mining Law of 
1872. The proposal is projected to generate revenues to the U.S. 
Treasury of $80 million over 10 years, with larger revenues estimated 
in following years.
    Net Receipts Sharing for Energy Minerals.--The Department proposes 
to make permanent the current arrangement for sharing the cost to 
administer energy and minerals receipts. Under current law, States 
receiving significant payments from mineral revenue development on 
Federal lands also share in the costs of administering the Federal 
mineral leases from which the revenue is generated. Permanent 
implementation of net receipts sharing is expected to result in savings 
of $44 million in 2015 and $421 million over 10 years.
    Geothermal Energy Receipts.--The Department proposes to repeal 
section 224(b) of the Energy Policy Act of 2005. The repeal of section 
224(b) will permanently discontinue payments to counties and restore 
the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
Treasury. This results in savings of $4 million in 2014 and $48 million 
over 10 years.
    Federal Land Transaction Facilitation Act.--The Department proposes 
to reauthorize this act that expired on July 25, 2011, and allow 
Federal lands identified as suitable for disposal in recent land use 
plans to be sold using this authority. The sales revenues would 
continue to fund the acquisition of environmentally sensitive lands and 
administrative costs associated with conducting the sales.
    Federal Migratory Bird Hunting and Conservation Stamps.--Federal 
Migratory Bird Hunting and Conservation Stamps, commonly known as Duck 
Stamps, were originally created in 1934 as the annual Federal license 
required for hunting migratory waterfowl. Today, 98 percent of the 
receipts generated from the sale of these $15 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The price of the Duck Stamp has not increased since 1991. 
The Department proposes legislation to increase these fees to $25 per 
stamp per year, beginning in 2014.
    Bureau of Land Management Foundation.--The budget proposes 
legislation to establish a congressionally chartered National BLM 
Foundation. This Foundation will provide an opportunity to leverage 
private funding to support public lands, achieve shared outcomes, and 
focus public support on the BLM mission.
    Recreation Fee Program.--The Department of the Interior proposes to 
permanently authorize the Federal Lands Recreation Enhancement Act, 
which expires in December 2014. The Department currently collects over 
$200 million in recreation fees annually under this authority and uses 
them to enhance the visitor experience at Interior facilities. In 
addition, the Department will propose a general provision in the 2014 
budget request to amend appropriations language to extend the authority 
through 2015.
                    offsetting collections and fees
    The budget includes the following proposals to collect or increase 
various fees, so industry shares some of the cost of Federal permitting 
and regulatory oversight.
    Fee Increase for Offshore Oil and Gas Inspections.--Through 
appropriations language, the Department proposes inspection fees 
totaling $65 million in 2014 for offshore oil and gas drilling 
facilities subject to inspection by the Bureau of Safety and 
Environmental Enforcement. These fees will support BSEE's expanded 
inspection program to increase production accountability, human safety, 
and environmental protection.
    New Fee for Onshore Oil and Gas Inspections.--Through 
appropriations language, the Department proposes to implement an 
inspection fee in 2014 for onshore oil and gas activities subject to 
inspection by BLM. The proposed inspection fee is expected to generate 
$48 million in 2014, $10 million more than the corresponding $38 
million reduction in requested appropriations for BLM, thereby 
expanding the capacity of BLM's oil and gas inspection program. The fee 
is similar to those already in place for offshore operations and will 
support Federal efforts to increase production accountability, human 
safety, and environmental protection.
    Onshore Oil and Gas Drilling Permit Fee.--The 2014 budget proposes 
to continue a fee for processing drilling permits through 
appropriations language, an approach taken by Congress in the 2009 and 
subsequent Interior Appropriations Acts. A fee of $6,500 per drilling 
permit was authorized in 2010, and if continued, will generate an 
estimated $32.5 million in offsetting collections in 2014.
    Surface Mining and Reclamation Permit Fee.--The 2014 budget 
continues an offsetting collection initiated in 2012, allowing the 
Office of Surface Mining Reclamation and Enforcement, to retain coal 
mine permit application and renewal fees for the work performed as a 
service to the coal industry. The fee will help ensure the efficient 
processing, review, and enforcement of the permits issued, while 
recovering some of the regulatory operating costs from the industry 
benefitting from this service. The fee, authorized by section 507 of 
SMCRA, will apply to mining permits on lands where regulatory 
jurisdiction has not been delegated to the States. The permit fee will 
generate $2.4 million in offsetting collections in 2014.
    Grazing Administrative Fee.--The 2014 budget proposes a new grazing 
administrative fee of $1 per animal unit month. The BLM proposes to 
implement this fee through appropriations language on a 3-year pilot 
basis. The 2014 budget estimates the fee will generate $6.5 million in 
2014, which will assist BLM in processing grazing permits. During the 
period of the pilot, BLM will work through the process of promulgating 
regulations for the continuation of the grazing fee as a cost recovery 
fee after the pilot expires.
    Marine Minerals Administrative Fee.--The 2014 budget proposes to 
establish an offsetting fee in the BOEM Marine Minerals program to 
recover costs associated with processing offshore sand and gravel 
mining permits. The fees are estimated to generate $470,000 in revenue 
in 2014, to offset the cost of the program, and would be implemented 
through existing regulatory authority under the Outer Continental Shelf 
Lands Act.
                               conclusion
    Thank you for the opportunity to testify on the President's 2014 
budget request for the Department of the Interior. This budget balances 
fiscal constraint with proposals for forward looking investments that 
will advance the stewardship of lands and resources, renewable energy, 
oil and gas development and reforms, water conservation, youth 
employment and engagement, and improvements in the quality of life in 
Indian communities. For America to be at its best, we need to be bold 
and strategic and advance the ideas and policies in this budget. I 
thank you again for your continued support of the Department's mission. 
I look forward to answering questions about this budget. This concludes 
my written statement.

                            HURRICANE SANDY

    Senator Reed. Thank you very much, Madam Secretary, for 
your testimony.
    As I said, there will be 6-minute rounds. And if our 
schedule and your schedule allow, we'd be happy to do a second 
round also to accommodate as many questions as possible. But 
let me begin on the note that you concluded with, that is, 
Hurricane Sandy. Thank you. There were $829 million to the 
Department for mitigation in the Northeast because of the 
storm. It is gratifying to hear that Rhode Island's wildlife 
refuges will receive support in this way.
    Can you give us some further indication of how you will 
make all the details accessible to the public this afternoon 
and the next few days, and also talk about the $360 million in 
mitigation funds that you have at your disposal? Have you made 
any plans, specific plans, and will you announce those?
    Secretary Jewell. I'll give you a high-level answer and 
then would invite my colleagues to provide more detail as they 
have more detail.
    The press release which will be going out this afternoon 
will actually have a link to a list of the projects that 
encompass the $475 million. That will be accessible to the 
public here relatively soon.
    On the mitigation funds, there is a lot of work done to 
look at building up sand and berms, actually using sand from 
the Outer Continental Shelf to make those habitats more 
resilient, and a number of other programs. I'd like my 
colleague, Rhea Suh, to address that further.
    Ms. Suh. Sure. Thank you, Mr. Chairman. On your first 
question, the details of the funding to be released today will 
all be contained on our website, so complete project lists 
alongside the actual amount of appropriations for each.
    In addition to that, with respect to the mitigation, we are 
working very hard to come up with the best strategy we can for 
those mitigation funds. We absolutely appreciate your 
leadership and the leadership of this subcommittee for giving 
us the opportunity to really think about mitigation, and to 
really try to maximize the impact we have to create resiliency 
on the ground. We are working with both our programs within the 
Federal Government, but also partners outside of the Federal 
Government to come up with a strategic plan that can ensure 
those funds are spent as wisely and as effectively as possible.
    Senator Reed. And you're not ready today to commit those 
funds? You're still working the plan?
    Ms. Suh. That's correct. The funds today are just the 
recovery and restoration funds.
    Senator Reed. Thank you very much.

                             HERITAGE AREAS

    Madam Secretary, among the many public services that you 
performed was in 2008 and 2009, along with our distinguished 
predecessors, Senator Howard Baker and Bennett Johnston, you 
served on a commission advancing the national park idea. And 
one of the things you recognized was these heritage areas, one 
of which we have in Rhode Island, are critical, in fact, long-
term assets to the National Park System. And you and your 
colleague went so far as recommending permanent funding and 
full program support for NPS.
    Yet the budget proposes cuts to these heritage areas. Can 
you give us some assurance that you will work with us so that 
we can avoid these cuts and fulfill the vision that you so 
eloquently and wisely laid out, along with Senator Baker and 
our colleagues?
    Secretary Jewell. Thank you, Mr. Chairman. This budget 
represents tough choices. The work of the Second Century 
Commission was very rewarding. I think the need to support our 
national parks, which have such a multiplier effect, is very 
important.
    On the heritage areas, specifically, I'm fully in support 
of heritage areas. There was a difficult decision made to scale 
back the funding in heritage areas to focus on those that are 
relatively new that need to get a boost to get themselves 
established.
    I think one of the benefits of heritage areas is they have 
broad community support. It does reflect some of the hard 
choices we made in terms of how we prioritized. We felt 
heritage areas in particular needed some support to get rolling 
and get up and operational, but we needed to look at scaling 
back some that had been around for a period of time to kind of 
walk on their own two feet, if you will. So that was how the 
priority was identified in this budget.
    Senator Reed. Well, I appreciate that. And I do point out 
they are public-private partnerships. So this is not something 
that's just Federal money going in. This generates a lot of 
economic activity. It's very critical.
    And there is, I think, a shared notion that we can 
collaborate better and be smarter about these things. But there 
are certain--it strikes me and many of my colleagues, because 
these are all over the country, that there has to be at least a 
core Federal support level because that is what pulls a lot of 
the private support. It sort of leverages a lot of activities. 
And without that, these heritage areas could in fact fail. That 
would be, as you point out in your previous report, a real 
detriment.

                       RHODE ISLAND NATIONAL PARK

    Let me quickly, as my time is running out, we've been 
trying to build on the heritage area to, in fact, create a 
national park which would not only memorialize Senator John H. 
Chafee, but also give us our first major national park. We have 
a national memorial, the Roger Williams Memorial. But it would 
give us our first national park.
    Secretary Salazar was strongly supportive. And I urge you 
to be as enthusiastic. Can you give us a sense of your 
enthusiasm level? I hope it's over the top.
    Secretary Jewell. I'm enthusiastic, Mr. Chairman. I'm fully 
enthusiastic.
    Senator Reed. Madam Secretary, the President chose wisely. 
I said that repeatedly.
    Let me suggest, I will now relinquish my time to Senator 
Murkowski. And as I said, we will try to do a second round.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                           ALASKA CONVEYANCE

    Madam Secretary, let me ask you about the land conveyance 
issues and legacy wells. As you can tell, not only from my 
discussion here today, but previous conversations we've had, 
this is something that isn't setting well with the people in 
the State of Alaska, and it clearly doesn't set well with me.
    You have indicated in your comments that, with the LWCF, 
the proposal here to include it in terms of mandatory funding 
keeps a commitment of a 50-year promise to the American people. 
And I'm looking at a 54-year-old promise, we've been a State 
now for 54 years, where we have yet to receive our full land 
conveyances under that statehood act, a 42-year legal 
obligation to the native people of the State under Alaska 
Native Claims Settlement Act (ANCSA).
    And then I look at the budget, and it's like, ``Well, wait 
a minute. We're making a new promise here to mandatory funding 
for the LWCF. But we've got some outstanding obligations that 
are very serious.'' And so I appreciate what you have said in 
that these decisions were made prior to your arrival here. 
You're defending a budget that you're tasked to defend.
    But I need to have some assurance going forward that we're 
going to be able to deal with this. Because my assessment is 
that if we continue at the level of funding that we have been 
for the land conveyances, again we're decades, we're another 50 
years out. That's not acceptable.
    Can you give me some assurance that you will look to 
revising the spending priorities and attempt to finish these 
interim conveyances and the surveying and patenting that needs 
to go forward? My goal was that we would have this done by 
statehood. When I came into office 10 years ago, everybody 
thought that that was reasonable. Now it looks like it's not 
only another decade, it may be a decade beyond that.
    I need to have some assurance that we're going to finish 
this, because in the meantime, the people of the State of 
Alaska and the native people under ANCSA can't move. They can't 
move on their lands. What assurances can you give me that we're 
going to see some forward motion in this in a positive way 
that's not going to be another two to three decades from now?
    Secretary Jewell. Thank you, Ranking Member Murkowski. I 
have had briefings on this topic and can reassure you there is 
a commitment to move forward on the part of the BLM and my 
colleagues.
    I gather that 63 percent of the area has been surveyed and 
mapped and about 33 percent has had interim conveyances so far. 
There is a requirement, as I understand it, in the legislation 
about actually physically putting a stake every 2 miles. The 
use of mapping technologies, which weren't available at the 
time those things were written, gives us an opportunity to be 
able to move forward in a more expeditious way on conveyances 
and do it using technology that's a lot more efficient and 
effective.
    I would be happy to get into more detail with you and have 
my teammates that are steeped in this talk with you about how 
the budget supports moving that forward.
    Senator Murkowski. Well, and I'm going to be meeting later 
today to review the schedule, apparently, that has been 
proposed. I don't know whether or not that is a schedule that 
you all have agreed to. But we need to have greater assurance 
here.

                          ALASKA LEGACY WELLS

    Let me ask you on the legacy wells. The concern that I have 
is, you know, Federal Government comes in, does an assessment, 
drills, leaves, doesn't clean up the mess. Decades later says, 
when we are screaming about, ``You need to clean up your 
mess,'' the idea is, ``Well, the State of Alaska can do that. 
We'll take it from the State of Alaska's funding.''
    I guess the simple question is whether or not you feel that 
the State should be held financially responsible for the 
Federal Government's responsibility to take care of the legacy 
wells.
    Secretary Jewell. Senator, as we discussed, legacy wells 
are a significant problem, and I appreciate your bringing it up 
to me in the past. We need to find a way to fund it in a budget 
that doesn't have enough funding for everything we want to do. 
I appreciate the reaction to the suggestion that the revenues 
generated from the development on the NPRA on the State side go 
to pay for that. If not that suggestion, we need to work 
together to figure out how we prioritize in the budget the best 
way to move forward in a comprehensive way to deal with this 
issue. I share your concern.
    Senator Murkowski. Well, I guess I need to hear from you 
that you would agree that it's not the State of Alaska's 
responsibility to clean up the Federal Government's mess. Are 
we in agreement there?
    Secretary Jewell. I would say that the wells were drilled 
to assess the petroleum reserve up in Alaska, and as it's 
developed, it will benefit both the Federal Government and the 
State. So revenues from that development seem to be a 
reasonable source to help address the issue on the legacy 
wells. We can talk further on what that looks like: What is 
State, what is Federal, and how do we do that in a constrained 
budget environment?
    Senator Murkowski. Well, and I will allow you greater 
opportunity to learn more about this, hopefully see what we're 
dealing with here. But there is no doubt in my mind but that 
when the Federal Government comes into land that has been 
federally designated, drills wells, walks away from it, leaves 
a mess, that that is the Federal Government's responsibility 
and that it should not then be on the shoulders of the State of 
Alaska to do that cleanup.
    So I just want to make sure that when you're talking about 
prioritizing it within the budget, that it is prioritizing 
within the Federal budget and not taking revenues that would 
have otherwise come to the State.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Murkowski. And again, we 
are using the early bird rule, going from side to side.
    Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. I want to 
thank everybody for being here today. It's good to see you, and 
thank you for putting yourself up for this position. I know 
you're going to do a great job. Rhea and Pam, thank you for 
your service. David Hayes, thank you for what you've done 
during your tenure in the Department of the Interior. I very 
much appreciate it. I even more appreciate your friendship. So, 
thank you, thank you very, very much for your service.

                            RENEWABLE ENERGY

    As far as the budget goes, I would just like to say I'm 
very encouraged to see the administration is putting some 
additional funding into renewable energy on public lands. We 
all know what's going on in eastern Montana and in North Dakota 
with conventional oil production, and it is--that's a very good 
thing. But we cannot forget about other ways to become energy 
independent, too. So I want to thank you for that.
    I've got a bipartisan bill that I've introduced, the Public 
Lands Renewable Energy Development Act, to hopefully promote 
more such development. And I look forward to working with your 
department on that. Is there anything else we can do?
    Secretary Jewell. Senator, your support is very much 
appreciated and valued. I think, in a balanced approach to 
energy, renewables play an important role. I've been really 
pleased to see the science behind the assessment of where the 
resources are, the work going on collectively on transmission, 
which is also important, because where the energy is, is not 
necessarily where the energy is used.
    Senator Tester. That's right.
    Secretary Jewell. I hear a lot of enthusiasm in the 
Department to continue doing that work, but also supporting 
conventional development, as you referenced.
    Senator Tester. As we move forth here, if there are other 
things we can do to help facilitate that, let us know. I think 
it's really important. I think your budget puts it forth as a 
priority, and hopefully, we can indeed make it that.

                             WILDLAND FIRE

    I want to talk a little bit about wildfires. And I know 
when we talk about wildfires, everybody talks about the forest 
service, which isn't in your area. But BLM is. And very 
similarly, BLM has forested land, they have range land, and 
they're being impacted by wildfires, too.
    Given our current fiscal situation where a lot of the money 
is being diverted toward fighting fires, I understand the 
forest service is beginning to work out and collect data on the 
effectiveness of their firefighting efforts by certain 
aircraft.
    I do not believe the BLM has started on this. And that's 
okay, from my perspective. I don't know if they can use 
information that comes from the USFS work or not. But I need to 
know what your plans are. We've got a lot of public lands. A 
lot of it, more than 1 million acres burned up in Montana alone 
last year, BLM and USFS. What's your plans? Is it to collect 
what the forest service gets? Or is the BLM going to do their 
own thing? And if that's the case, when is that going to 
happen? Or is it going to be a combination of the two?
    Secretary Jewell. Thank you, Senator. As a Westerner 
myself, I certainly am well aware of the impacts of wildfires, 
and we've certainly got fires right now, a wildfire burning in 
California, and it's only May. It's pretty scary.
    The firefighting is coordinated between the Departments of 
Agriculture and the Interior. Agriculture takes the primary 
position, but we work hand in hand. I will be going out with 
Secretary Vilsack to the fire center in Boise, Idaho, to talk 
specifically about this.
    As I mentioned, of the increase to the budget, 40 percent 
is to fight wildland fires and it cuts back the hazardous fuels 
reduction program, just to make sure we had funds available for 
suppression.
    Senator Tester. Yes.
    Secretary Jewell. I think things you could do to help over 
time are for those spikes in fires, to have that funded out of 
emergency money, because it hits the operations and it's very, 
very difficult to manage, for both Department of Agriculture 
and the Interior.
    Senator Tester. Well, fuel reduction is critically 
important. We can talk about that at another time, and I'm sure 
we will.
    I guess the issue is, I mean, you addressed it in your 
opening, we're in tight money times.
    Secretary Jewell. Yes.

                         FIREFIGHTING AIRCRAFT

    Senator Tester. Is the assessment that's being done by USFS 
on which aircraft are most effective to fight the fires, is BLM 
doing the same thing? Are they going to do the same thing? Or 
are they just going to use USFS numbers?
    Secretary Jewell. I'm going to have to defer to Rhea on 
that.
    Senator Tester. Okay.
    Ms. Suh. Senator, we are working hand-in-hand with the 
Forest Service. As you know, we have a cohesive strategy across 
the Federal Government on aircraft in particular. The Forest 
Service has the lead on large air tankers.
    Senator Tester. Sure. Yes, that's correct.
    Ms. Suh. We have been working very collaboratively with 
them to come up with a strategy that can put large air tankers 
on the ground for fires this season.
    When it comes to smaller aircraft tankers, we have the lead 
and we have been working, again, collaboratively with the 
Forest Service to determine effectiveness and efficiency 
throughout all of the aviation we have.
    Senator Tester. Okay, good. Well, I would just encourage 
you to do that. I think ``effectiveness'' is the key word here, 
and ``efficiency''. We need to make sure that we're hiring the 
right groups to fight the right fires with the right equipment, 
okay? So thank you very much for that.

                    SEQUESTRATION IN INDIAN COUNTRY

    I want to talk about Indian country for just a second. 
Sequestration has negative impacted them in a big, big way. And 
the main reason is because they are under funded to begin with. 
And that's the problem with the sequester, and we all know 
that, sitting around this dias, that when you make across-the-
board cuts, the programs that are fat and sassy don't really 
care, and the ones that are cut to the bone really get whacked. 
And hopefully, we can find the solution to this.
    But in any case, the Indians, American Indians are, I 
think, least equipped to absorb this loss. And could you detail 
specifically or in general how your budget will help either 
restore that money or remediate the potential impacts of the 
sequester?
    Secretary Jewell. Senator, I get a relatively short period 
of time to answer. I would say, we are as frustrated and 
worried about the impacts of the sequester. There's no question 
in Indian country we've got needs that far exceed the ability 
to meet them. We're trying to prioritize.
    On Indian education, we're trying to pick model schools to 
work on to try and find a path forward. Law enforcement, 
domestic violence issues, self-determination, working with 
tribes on a Government-to-government basis to help support 
their ability to determine the ways they want to govern 
themselves. These are all topics of critical discussion.
    I know there's not enough money to go around, but we're 
certainly working with tribes to do the best job we can.
    David, do you want to add anything to that?
    Mr. Hayes. I would just say, Senator, we feel this hurt 
very hard because of the indiscriminate way in which the cuts 
have to occur. Many of the tribes that operate under 638 
grants, the self-determination tribes, are particularly hurt 
because they're getting effectively a 9-percent cut for the 
remainder of the year. There's nothing we can do about it.
    Our BIA folks who work with them, likewise, are feeling 
that cut. We're having to furlough BIA staff. Tribes are having 
to furlough folks. That's why our fiscal year 2014 budget is so 
important. It would restore and increase and get us back to 
where we need to be with the tribes.
    Senator Tester. Well, that's what I wanted to hear. And so, 
thank you, thank you, thank you for that. And I'm sure there 
will be further debate on that.
    If I might, just 15 seconds, Mr. Chairman.
    You talked about Asian carp. And it's too bad the ranking 
member isn't here. And you talked about the impacts it's going 
to have as it heads toward the Great Lakes, and it's negative. 
I hope other folks are paying attention to things like 
genetically modified organisms (GMO) salmon and noxious weeds 
versus GMO crops. Thank you very much.
    Senator Reed. Thank you, Senator Tester. Before I recognize 
Senator Blunt, let me review the order of arrival just to give 
people sort of sense of where we are. On the Democratic side, 
Senator Feinstein, Senator Udall, Senator Merkley. On the 
Republican side, Senator Blunt, Senator Johanns, Senator 
Alexander, and Senator Hoeven.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman. Secretary, welcome to 
the subcommittee. I've always thought that your job may be the 
best job in the Federal Government. I hope for your sake I'm 
right. It's a challenging job with great opportunities.

                             ST. LOUIS ARCH

    We haven't had a chance to visit yet, so I'm going to 
actually spend my time talking to you a little bit about a big 
project in Missouri, the Arch project. A lot of cooperative 
effort has gone into that so far. Your predecessor, Mr. 
Salazar, was there three times, two times there with Mr. 
LaHood, who was there in relation to a TIGER grant.
    I don't know if you're familiar with how the Arch sits, but 
it's separated from the rest of sort of the downtown mall by 
Interstate 70. The TIGER grant seems to be in place that will 
actually connect the park to the rest, to the old Federal 
courthouse where the Dred Scott case was and a lot of other 
public land in town that's not necessarily Federal land.
    This, I'm told, maybe has the potential, already is 
possibly, the biggest joint partnership project that the Park 
Service has ever done. The city just voted a $10 million annual 
tax for the next 20 years that would support this project. I 
think there are $220 million of private funds that have already 
been pledged.
    And the Arch is 50 years old in October 2015. So, you know, 
every 50 years, you've got to look at these things and see what 
needs to be done to be sure they can last another 50 years. And 
that 50th anniversary was one that Secretary Salazar mentioned, 
it's October 2015. I think his comment the last time he was 
there was, he would move heaven and Earth to get this done by 
October 28, 2015, which appears it might be easier to move 
heaven and Earth than the Department.
    So right now, there does seem to be a tendency for delay 
that I'd like you to look at. You don't have to necessarily 
comment on it today. These things are getting siloed again. The 
one big request from Mayor Slay and others in St. Louis is if 
you could put somebody in charge of this, one person that 
really tries to be sure that all of this stays on focus, on 
time, that the private and public elements of this that aren't 
Federal continue to move forward in a way that all works.
    I know there's one contract with Bi-State transportation 
that's run the trams in the Arch since the beginning. And that 
contract runs out, it actually expired December 31, 2012. There 
was a 6-month extension that expires in 54 days, and it needs 
some attention pretty quickly.
    They need the contract for bonding and other purposes to 
update the equipment that I think Bi-State does, I don't think 
we, the Federal Government, even does that, but they have to 
have a contract that allows them to do what they need to do. 
And I think the Park Service has come in with some amendments 
that have never been in the contract before that they're 
concerned about.
    So, I guess one thing I'd like to ask you to do is make a 
commitment to come and visit us at the Arch and get personally 
involved in this project, as your predecessor was. And then any 
comments you want to make about how public park-private 
relationships are going to be viewed by your department and by 
the Park Service would be appreciated.
    Secretary Jewell. Thank you, Senator. I do look forward to 
meeting with you directly and also visiting the Arch. I 
certainly would be delighted to do that.
    There is a point of contact, Peggy O'Dell, who is the 
number two person in NPS. You can look to her as the focal 
point on this.
    Senator Blunt. Okay.
    Secretary Jewell. And I was briefed on it. I can't promise 
the heaven-and-Earth thing. I think that may be beyond my pay 
grade.
    Senator Blunt. Well, the guy that did promise that left. So 
maybe it was a bigger promise than he thought.
    Secretary Jewell. Yes, maybe. To your comment about public-
private partnerships, and I think the St. Louis Arch is a great 
example, from the private side, which is where I've been for my 
35-year career. There's no question the ability of private 
enterprise to work closely with our Federal land management 
agencies, whether it's the Park Service or the USFS, other 
elements of Interior, is really important. To leverage our 
resources, to get buy-in from those communities so you have an 
asset like the St. Louis Arch that's not just a national 
treasure, but it is locally embraced and taken care of, helps 
make our Federal dollars go further.
    I think it's a great illustration of public-private 
partnerships in action, and I think there are going to be many 
more opportunities to do that kind of work as we think about 
these assets we care a lot about, and we want to protect. There 
are examples of them in other States as well.
    Senator Blunt. You know, this is a case, too, where there 
is significant adjacent public property that obviously is 
visually part of this whole experience.
    Secretary Jewell. Right.
    Senator Blunt. And I think the Park Service, if you're 
going to encourage partners, both public partners and private 
partners, the Park Service has to be willing to look at this in 
a different way than they have before. You know, if the Park 
Service continues like, ``Well, we can't let this happen unless 
it's something we totally control'', that's not really a 
public-private partnership. It's something, but it's not a 
public-private partnership.
    So, yes, I think one of the things as the new leader of 
Interior you can help instill is how partnerships really work.
    Secretary Jewell. Right.
    Senator Blunt. And it's not just one side giving you all 
their money and saying, ``Do whatever you think you ought to do 
with this.'' And so, you know, the community has made a huge 
commitment; individuals are making a huge commitment. And I'd 
like for you and I to be able to work together to make this a 
model project of what these partnerships can be, moving 
forward.
    Not every time a community comes up with $200 million or 
private individuals match that with another $220 million. And 
we need to do the kinds of things that will be a good lesson, 
going forward, to encourage that. And I'll do everything I can 
to help you make that work.
    Secretary Jewell. Sounds great, Senator. If I could just 
have 5 seconds.
    Senator Reed. Yes, ma'am.
    Secretary Jewell. The National Parks Second Century 
Commission that Chairman Reed mentioned in his opening comments 
talked a lot about public-private partnerships. I can tell you 
in my conversations with Director Jarvis of the NPS, he's very 
supportive of this, and I think increasing flexibility on how 
we recognize these kinds of partnerships and encourage them, 
going forward. Thank you.
    Senator Blunt. Thank you, Madam Secretary.
    Senator Reed. Thank you.
    Senator Feinstein. Thank you very much, Mr. Chairman. Madam 
Secretary, I want to add my words of welcome to my colleagues'. 
I've had an opportunity to meet with you, and I look forward to 
working with you.
    But I would like to begin by thanking the gentleman on your 
right. I have known David Hayes now for the 20 years I've been, 
just about, in the Senate. It began with his negotiation of the 
Quantification Settlement Agreement, which weaned California 
off of a lot of Colorado River water and was a very 
controversial, but I think good negotiation that you conducted.
    And since those times, Mr. Hayes has been the point person 
for the most contentious issue in California, which is water. 
And he's been really quite wonderful in terms of moving to see 
that the Department anticipates problems and moves 
administratively to solve them. And I'm very, very grateful for 
that. He's going on to teach law at both of our alma mater, 
Stanford, and serve, I gather, the Hewlett Foundation.
    And, David, I just want to wish you all good things, a 
following sea. You have been just terrific, and your service to 
the country has been remarkable. So I want to thank you for 
that.

                             WILDLAND FIRE

    Madam Secretary, I would like to associate myself with the 
comments of Senator Tester. You mentioned the Ventura fire. 
There have also been five other wildfires burning at the same 
time. And we anticipate a very bad year. Wildfire usually hits 
California in the fall. But the Santa Ana's were rolling, and 
it hit in the spring. And it's really going to be a problem.
    So you're correct: Hazardous fuel mitigation is critical, 
the quick movement of planes, the ability to abate a fire. We 
had 2,200 lightning strikes on one day, which started 1,000 
small fires. So the ability to address them quickly is really 
important before they rage out of control because of, candidly, 
overgrowth that has been allowed to be unabated. That's the 
first thing.

                            CALIFORNIA WATER

    The second this is you are about to get a baptism of water. 
And it's the absence of water. The primary source of 
California's water is the Sierra Nevada snow pack, which is 
drying up. As of May 2, the Sierra Nevada was at 17 percent of 
normal. California is the largest agriculture State in the 
Union. The allocation for farmers is 20 percent of their 
contract amount. It takes 40 to 45 percent of a contract amount 
to be able to plant and do everything that's required to farm 
in California.
    In 2010 when this happened, the unemployment rate in 
Mendota, a farm town, was 40 percent. Farmers were in bread 
lines. We cannot let that happen again. And I think much to the 
credit of your reclamation department, on April 15, the mid-
region put out a press release detailing administrative actions 
that have been taken to date to create an additional 110,000 
acre-feet of water.
    David, I want to salute you for that, and Madam Secretary, 
this is what we had hoped that the Department will anticipate 
and move to do those things with respect to water transfers 
north-south, east-west, using the inner tie, using groundwater 
banking, doing whatever we need to do that is prudent and wise 
to see that water is adequate.
    Beyond this 110,000 acre-feet, I am very interested in what 
other actions can be taken. And this press release describes 
banked groundwater 20,000 acre-feet and water transfers of up 
to 166,620 acre-feet as two sources for additional supplies. 
Essentially, I would like to ask you--I don't know whether you 
know, but if you do, I'd like to know--what is the status of 
reclamation's efforts to secure these additional supplies?
    Secretary Jewell. Senator, I'm going to take a glancing 
blow and then turn it over to my colleague to the right. First, 
I want to say that David Hayes has been an amazing resource on 
these issues. You're fortunate that his big brain is going to 
California. I'm going to miss his big brain next to me, but I 
will have all of his phone numbers and will use them liberally.
    Senator Feinstein. Good.
    Secretary Jewell. I will turn to David to answer 
specifically on the sources topic with the Bureau of 
Reclamation. I know I've had briefings from Mike Connor 
directly, and this is a very, very important issue. David was 
meeting with the Governor, actually, earlier this week, and was 
actually flown in on the red-eye. So if he starts to nod off, 
I'll give him a jab.
    Senator Feinstein. Good. Good.
    Secretary Jewell. The other thing I think we all need to 
work on is conservation. How do we use the water resources we 
have more wisely? Because we are, in fact, seeing these low-
water drought years, and that's the biggest source of the 
challenge. But, David, do you want to add to that?
    Mr. Hayes. Thank you, Senator. Thank you for your warm 
words. It's been a pleasure working with you.
    Senator Feinstein. Thank you.
    Mr. Hayes. This is the driest January-through-April period 
in California's history in the last 100 years, right now, 70 
percent of normal for snow pack. As you noted, we have been 
anticipating this. We are up to the 20-percent allocation for 
south of Delta because of that 110,000 acre-foot increase due 
to water banking, water transfers, et cetera.
    In addition, you mentioned the additional 20,000 acre-feet 
of water banking and water transfers. We are anticipating 
working with the contractors that will have 160,000 acre-feet 
of water transfers, and we're also working closely with them to 
allow liberal rescheduling of water, which will be about 
225,000 acre-feet of water.
    All told, if we are successful in all of these ventures, 
despite the dry water year, Senator, we are hoping to get to 
about a 35 or even 40 percent equivalent amount for the south 
of Delta folks. It's taking all hands on deck. We really 
appreciate the work Westlands and other south of Delta 
irrigators are putting into this, working closely with us.
    Mike Connor is in California as we speak on these issues. I 
was with the Governor yesterday. We're looking forward to 
briefing you as soon as Mike gets back to talk about the Bay 
Delta Conservation Plan, which is the long-term fix for this 
problem that we have to solve.
    Senator Feinstein. Thank you. And Mike Connor is appearing 
before the Energy and Water Development Subcommittee tomorrow.
    Mr. Hayes. That's right.
    Senator Feinstein. And we have a number of questions for 
him.
    Just one last thing. Madam Secretary, you are going to 
receive a letter from five Members of the House, they're 
bipartisan, and me, to ask if you would be willing to come to 
the Central Valley and talk with farmers and understand the 
crisis that we have year after year.
    One last point. For 10 years, your Department has been 
looking at feasibility studies for cost effect of dam raises in 
California. And we have not yet had finality to those 
feasibility studies. I would say that that's a matter of the 
highest priority to get resolved. Because unless we're able to 
hold water from the wet years for the dry years, California 
will end up as a desert State. I really believe that. And it 
will kill agriculture.
    And you speak of conservation. Well, I come from a city 
that's conserving water like mad. And, you know, they're going 
to tertiary treatment of water in Coachella in southern 
California. So that is being done to the greatest extent 
possible. But you have to have some water to start with. So we 
really need your help.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Feinstein.
    Senator Johanns.
    Senator Johanns. Mr. Chairman, thank you. And, Madam 
Secretary, welcome. Glad to have you onboard.

                             SEQUESTRATION

    Let me, if I might, shift focus, if I could, to a couple of 
questions about the sequester. I have a little bit of a unique 
experience here because I was a member of the Cabinet, as you 
probably know, during the Bush administration, the Secretary of 
Agriculture. And I certainly appreciate the fact that the sheet 
of music you sing from comes from an office that's oval in this 
town, if you know what I'm saying. And every Cabinet member has 
talked about the sequester kind of in the same terms you have 
talked about it in your testimony. And I must admit it's got an 
aura of ``The sky is falling, the sky is falling.''
    Now, you're also talking to a former Governor, a former 
mayor, balanced budgets during good times and bad times. When 
times were good and the revenues were good, you could do some 
more things. When times were bad, for example, post-9/11, you 
just kind of had to deal with it.
    When I came here in 2005 and somebody said to me, ``You 
could get somewhere around a 5-percent cut, and the best you 
can hope for us a flat budget,'' I thought, ``Hallelujah! You 
know? This is a breeze.'' After what we had been through post-
9/11 at the State level, that didn't seem to be too big a 
challenge. And yet, I hear Deputy Secretary Hayes, I hear you, 
I hear other Cabinet members talking about how dire this 
situation is.
    So let me ask a couple of very specific questions. And 
either one of you can answer these questions. I appreciate the 
sequester's less-than-artful, across-the-board cuts tend to be 
less than artful. And I've done it all. I've done across-the-
board cuts, I've done focused cuts. Anything that was necessary 
to get the budget balanced, we did.
    But if the Congress were to give your Department and other 
Departments greater flexibility to make judgments about where 
you would allocate resources from one area to another, would 
you find that to be helpful?
    Secretary Jewell. Thanks for the question. Short answer, 
absolutely we'd find that to be helpful. I am not quite 4 weeks 
into Government service, and north of 35 years as a private 
businessperson. I have certainly dealt with tough budget years, 
as you referenced. I have never, ever implemented those on a 
line-item by line-item basis. So when you see the comments that 
come from me and others about the impact of the sequester, it 
is the nature by which these cuts have been required of us.
    The fiscal year 2014 budget reflects prioritization. It is 
cutting some areas. It is investing in other areas. And no 
question there is a desire to develop resources in this 
country, both conventional and renewable. It costs money to do 
that. But there is a return on that investment. We have a trust 
obligation to tribes across this country. We need money to do 
that.
    We are reflecting in the fiscal year 2014 budget a set of 
priorities that are in fact scaling back some areas and growing 
others. And that's the big problem with the sequester.
    Senator Johanns. So your issue with us is more along the 
lines of, ``Look. It's not the cuts so much as the forced way 
of implementing them. If we could get flexibility there, I 
could manage this budget,'' I think is what you're saying. And 
I suspect you could.
    Secretary Jewell. We would appreciate all flexibility that 
could be given to us, and predictability. A 5-percent cut 
that's implemented partway through the year is in fact a 9-
percent cut. And then applied across every line item is very 
difficult.

                          AFFORDABLE CARE ACT

    Senator Johanns. Yes. Let me ask you another question, 
admittedly a more sensitive question, but I think it's an 
important one to ask. One of the things that came about as a 
result of the Affordable Care Act was that a certain select 
group of Federal employees were targeted to go from the Federal 
health plan into the exchanges. And that's the way the health 
care law was passed. And it's basically our staff. 
Congressional staff now will go to the exchanges. Some would 
argue that's a good thing, some would argue it's a bad thing, 
whatever.
    Would you support an approach that basically said, ``If it 
can save money, we'll take every Federal employee''--your 
employees at Interior and wherever else--``and instead of 
providing them that Federal plan, we will put them into the 
exchanges''? Would you support that?
    Secretary Jewell. Senator, I can speak from a perspective 
of a businessperson. In the business I ran right before coming 
here, we felt that it was important to provide our full-time 
employees with a comprehensive plan. For our part-time 
employees who had a limited plan, the exchange was going to be 
a better option. So I think I would need to look broadly at how 
it might be applied to the Federal Government. That's how we 
chose to do it in private industry. It was a blend of both, as 
you're suggesting was done here.
    Senator Johanns. So, no, my employees are full time. I 
don't think it had anything to do with them being part time. 
They are full-time employees. But for the fact that I'm not 
going to seek reelection, I'm certain that they're hoping for a 
long, long career here on Capitol Hill.
    Secretary Jewell. Yes. I'm not familiar with the 
circumstance. I'd have to look into that.
    Senator Johanns. Deputy Secretary Hayes, what's your sense 
of all that? Would you be comfortable in all Interior employees 
going to the exchange?
    Mr. Hayes. Senator, I apologize, but I'm not an expert in 
this area. Obviously, the Department of Health and Human 
Services is implementing ACA. And I apologize, but I can't 
respond.
    Senator Johanns. Thank you, Mr. Chair.
    Senator Reed. Thank you, Senator Johanns.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. And let me also 
join the whole group up here in just saying, first of all, 
agreeing and associating myself with the remarks about David 
Hayes. Madam Secretary, great to have you here, and thank you 
for coming in and meeting. And Rhea and Pam, thank you for your 
service to the department.
    But, David, you've been a good friend of mine, and you've 
been an extraordinary friend of the West. And I think it's been 
echoed up here. You heard Senator Feinstein and the chairman 
and many others talk about it.

                                 WATER

    And I think one of the things that's been so key is that 
you have stayed focused on water. And water in the West, as you 
know, is very controversial. And when we have these 3 years of 
drought, in New Mexico it's up to 12 years, we have some very, 
very serious situations.
    And you've been right on top of it by working on 
settlements and have achieved settlements where we're going to 
be able to stretch our water resources. So I very, very much 
appreciate that. And we're going to miss you a lot, and the 
Department is going to miss you. And your students are going to 
gain a lot from you out there at Stanford.

                    SEQUESTRATION IN INDIAN COUNTRY

    Let me just briefly agree, Madam Secretary, with Senator 
Tester on the Indian country and Native Americans and what's 
happening on sequestration. And I'm encouraged to hear Deputy 
Secretary Hayes say this budget will restore those. I don't 
know why we ever got ourselves in this situation. When we 
created the sequester, we tried to protect the most vulnerable. 
And the most vulnerable population in America is the Native 
American population. And we didn't put them in that category. 
And so that's, it's a terrible tragedy, and they're really 
being hit hard now.
    I think the only healthcare that wasn't exempted was the 
Indian Health Service. So I know it's not under your 
jurisdiction, but it seems like an important point to make 
here.

                           MINING LAW REFORM

    I want to applaud the President and you for putting in the 
budget the 1872 mining law reform. I worked with Senator 
Murkowski and Senator Wyden on an amendment to the budget bill 
that brought 1872 mining law reform forward. I know what you're 
doing in the bill is proposing reform, including a new leasing 
program, with royalties, and an abandoned mine land fee to be 
used for reclamation of abandoned hard-rock mines throughout 
the country. And we very, very much appreciate that.

               SEQUESTRATION AND MINERAL REVENUE PAYMENTS

    As you know, the Mineral Leasing Act provides that all 
States shall be paid 50 percent of the revenues resulting from 
the leasing of mineral resources on Federal public domain lands 
within their borders. This revenue is vital to New Mexico, 
where it funds our public education system. New Mexico State 
leaders are very upset by the Department of the Interior's 
Office of Natural Resource Revenue (ONRR) determination that 
these State revenues are subject to sequestration. These are 
State revenues based on mineral development within State 
borders and are not Federal funds.
    In New Mexico alone, we expect to lose $25 million in State 
mineral revenues in fiscal year 2012 to sequestration. I'm 
working with Senators from other mineral revenue-generating 
States to formulate legislation that would address this issue, 
but I hope that you can help resolve this administratively.
    I understand that the decision to subject these State 
shares of revenues was made before your time, and so I hope it 
will get a fresh look from you. These State royalties are part 
of the bargain between Western States and the Federal 
Government, which owns so much land within our States. Altering 
that bargain risks increasing conflict between the State and 
the Federal Government.
    Will you and your team review the Department's decision to 
consider States' shares of mineral royalties as subject to 
sequestration?
    Secretary Jewell. Senator, thanks for raising my awareness 
of this issue. I have a couple of notes here that my colleagues 
have been bringing me up to speed that it's not ONRR, but it's 
the Budget Control Act itself that governs this. It affects all 
revenues and payments. So I'm unclear as to what kind of 
jurisdiction we'd have over this.
    Rhea or Pam, do you want to provide a little more detail?
    Ms. Haze. Senator, we actually made determinations based on 
BCA's evaluation of what things were exempt and were not. It 
is, unfortunately, consistent for revenue and payments, like 
secure rural schools, payments in lieu of taxes, and mineral 
revenue payments. The sequester does impact those. We have 
looked at it at least twice.
    Senator Udall. Well, these are State revenues. I mean, they 
are--what we're going to do in legislation is we're going to 
look at making sure you don't even get your hands on them at 
all so that we don't get in this kind of situation. So, you 
know, that's where we are on that.

                             WILDLAND FIRE

    The last 2 years have seen the largest wildfires in New 
Mexico history. We're in a drought, and we're bracing for the 
worst year yet. And I applaud the President and your Department 
for making full funding of the 10-year suppression average a 
priority and for supporting full funding for the Collaborative 
Forest Landscape Restoration Program at $40 million.
    But I'm very concerned, however, that the President's 
fiscal year 2014 budget request for hazardous fuels reduction 
for the Office of Wildland Fire is reduced by $88.9 million. 
This is a 48-percent cut for the program. And it just seems to 
me that this isn't the area to be cutting. What's the 
justification for this cut? And why are you doing this? Why are 
you headed in this direction on hazardous fuels reduction in 
the Department of the Interior?
    Secretary Jewell. Senator, I'll give a high-level answer, 
and my colleagues may be able to provide more detail.
    There's no question that the sequester, where we run the 
risk of removing the fuels removal budget to go into 
suppression, is not the best way to operate our public lands. 
Removing the fuel to begin with so you don't have the degree of 
suppression makes all the sense in the world. The ounce of 
prevention worth a pound of cure argument, and we agree with 
that.
    There are difficult decisions made in this budget. We don't 
have the capacity to go to emergency funds. When we do have 
wildfires that exceed the 10-year average, it impacts the 
overall operations of Interior. We've made difficult choices 
trying to balance what goes into suppression versus what goes 
into fuels reduction.
    Rhea or David, do you want to add anymore to that? Is there 
more to add?
    Ms. Suh. Senator, I certainly appreciate your concern. We 
recognize the deep importance of hazardous fuels reduction and 
the balance between the suppression and the prevention sides of 
our fire program. We are, as the Secretary noted, dealing with 
very difficult choices in the budget, and in particular, fire 
is perennially a very difficult thing for us to budget in 
whole. We are very committed to having the adequate funds for 
suppression, particularly as we move into very complex fire 
seasons, and we look forward to working with you to try to come 
up with long-term sustainability for the budget overall.
    Senator Udall. Thank you. Thank you.
    Senator Reed. Senator Alexander, please.

                  GREAT SMOKY MOUNTAINS NATIONAL PARK

    Senator Alexander. Thanks. Madam Secretary, welcome. Great 
Smoky Mountains National Park, where you've been and where 
you're well known and well appreciated, let me go over some 
figures here. The Great Smokies had nearly 10 million visitors 
in 2012, and they received $19 million in Federal 
appropriations. Grand Canyon had 4.4 million visitors, half as 
many, and received $21 million, $2 million more, in Federal 
appropriations. Yosemite had 3.8 million, that's less than one-
half as many visitors as the Smokies, and received $29 million 
in Federal appropriations.
    Now, in the case of Grand Canyon, there were another $14 
million from entrance fees; in the case of Yosemite, another 
$15 million from entrance fees. There's a great inequality 
here.
    Taking the entrance fees first, the Great Smokies, as you 
well know, was given to the United States by the people of 
Tennessee and North Carolina and schoolchildren who collected 
dollars, all this in the 1930s. And one of the agreements was 
there wouldn't be an entrance fee. The Western parks were all 
carved out of land owned by the United States.
    And so, the Smokies are already penalized because they 
don't get the $14 million Grand Canyon gets and the $15 million 
Yosemite gets in entrance fees. But why should the most visited 
national park, with twice as many visitors as these two great 
western parks, Grand Canyon and Yosemite, receive less 
appropriated funding every year than the Western parks?
    Secretary Jewell. Senator, I appreciate your question. I 
appreciate your park. I'm a lot closer to it, so I'll be 
spending a lot more time there than I have been able to in the 
past.
    I will say that the fiscal year 2014 budget requests $19 
million for Great Smoky Mountains, which is about level with 
fiscal year 2012 funding. I think it's very difficult to 
compare. I appreciate the visitation for the park and the road 
that goes through and the number of people that come through 
and the entrance-fee issue. The management of the parks has to 
do with their acreage, with their threats. There are just a lot 
of factors that go into the budget. I think it's very difficult 
to say it's a function of the number of visitors versus, you 
know, a broader view of what all----
    Senator Alexander. But what I'd like to ask you to do is to 
review the formula you use for this. Because, number one, I 
think you ought to take into account the fact that the park 
can't, by law, collect an entrance fee. And so it loses $14 
million or $15 million right there, which is, you know, 75 
percent as much as the entire Federal appropriation. And then, 
second, for it also to be funded less than the Western parks at 
a time when it has a lot more visitors, the wear and tear on 
the parks is substantially a product of visitors.
    You can't re-litigate the whole formula right here. But as 
you begin your study, I would hope that you would take a fresh 
look at that funding formula in light of what I think is the 
persistent under-funding of the Smokies.
    I mean, we love the Grand Canyon. I've been down it. In 
fact, I went with Senator Udall's cousin. He took me down it 20 
years ago. I'd like to go again. We love Yosemite. We want them 
to be properly funded. But we don't want our park to be--so 
will you take a look at that as part of your review of 
policies?
    Secretary Jewell. Absolutely. Yes, I'm happy to take a look 
at it and see if there's something we can do.

                      WHITE-NOSE SYNDROME IN BATS

    Senator Alexander. I have two other questions. One is, have 
you been asked about the bats, the white-nose syndrome, at all? 
Senator Leahy has talked about that before. If you hear a 
Senator asking about bats, you may wonder, ``Well, why is he 
talking about bats?'' But it's a big problem all through the 
Eastern United States. And it costs about $74 per acre for the 
insects they don't eat. I mean, the pest suppression is a big 
part of it. It's a real concern in our area.
    What's the status of research that you're working on to 
deal with white-nose syndrome?
    Secretary Jewell. Yes. I have been briefed on the white-
nose syndrome. The budget for fiscal year 2014 does include 
increases in the USGS and the Fish and Wildlife Service budgets 
to address that. For example, USGS is working on long-term 
fixes like the vaccine to try and address it. FWS is addressing 
the resource issue, and there's no question it's a huge 
potential economic impact on agriculture. That is part of our 
science budget that we're requesting for fiscal year 2014.

                  GREAT SMOKY MOUNTAINS NATIONAL PARK

    Senator Alexander. Thank you. On the question of funding, 
again back to the Smokies, one of the things we're proudest of 
is our volunteers in the park. And you're aware of that. That 
might be a good thing for you to visit there, it's a good 
example for other parks, when you come. There are over 3,000 
volunteers, and the estimated value of their service is $3.5 
million a year. Friends of the Smokies adds another million, 
but that still doesn't make up for the funding loss.
    [The information follows:]
                  Great Smoky Mountains National Park
    Operational funding for park units, such as Great Smoky Mountains 
National Park, is appropriated through the Operation of the National 
Park System (ONPS) account. This annual appropriation funds the day-to-
day operations at all park units, commonly referred to as park base 
funding, as well as competitively awarded project funding for needs at 
parks such as facility repair or rehabilitation and resource 
stewardship needs. The ONPS account also funds the operations of 
regional offices and the Washington, DC headquarters office. In 2014, 
the President's budget requests $19.1 million for operations at Great 
Smoky Mountains National Park, level with 2012 funding.
    Visitation is not the only cost driver for operational 
requirements; acreage, resource protection needs, and types of services 
available to visitors are some examples of factors that influence the 
cost to operate parks. Each year, the parks, regions, and headquarters 
identify new or expanding operational needs. Funding proposals 
submitted by park units are evaluated on a competitive, national basis. 
The highest priority activities are reflected in the President's budget 
request.
    However, the NPS, like other bureaus, must operate within the 
framework of constrained budgets. In 2014, the only park base 
operational increases proposed total $6.7 million and are for start-up 
activities at recently authorized units and critical management needs 
such as combating invasive species. The budget also proposes $18.4 
million reduction to park base operations.

                        WIND ENERGY AND BONDING

    Senator Alexander. I have one other question that I'd like 
to ask you. There is obvious enthusiasm for renewable energy 
here and in the administration. And I've been puzzled by this 
obsession with building these gigantic, grotesque, you know, 
wind towers all over the scenic America. You know, most of our 
great environmental groups were founded by people who admired 
Ansel Adams's photographs and loved the beautiful vistas. And 
then here we come along and turn whole stretches.
    We destroy the environment in the name of saving the 
environment by putting these Cuisinarts in the sky that kill 
golden eagles and adopt an energy policy that is sort of the 
energy equivalent of going to war in sailboats. So that's my 
view on these giant windmills.
    But my question is this. We have thousands of abandoned 
mines across the country that people mined and left. And now we 
are looking for money to clean those things up. What are we 
going to do when these windmills blow down or when they wear 
out after 20 years or when the big tax subsidies for the rich 
people that fund them run out? And we decide we don't want to 
spend $12 billion a year subsidizing them, who's going to clean 
them up? There are thousands of them.
    And my question is simple: Is there a bond that you require 
of developers of wind turbines on public lands so that if at 
any time they are abandoned by the developer, is there a bond 
that the developer has to put up to make sure that the 
landscape is returned to its former pristine beauty?
    Secretary Jewell. Senator, I'm going to have to defer to 
Deputy Secretary Hayes on that.
    Mr. Hayes. Senator, I know there's a lease requirement for 
the owner to take down those turbines at the end of their 
useful life, much like we require for conventional oil and gas, 
and return the land to its previous condition.
    I don't know if there's a bond requirement. We will look 
into it and get back to you.
    [The information follows:]
                        Wind Energy and Bonding
    BLM requires bonds for all wind projects on its public lands. The 
bond is determined on a project-by-project basis to cover the 
reclamation costs for a project and the removal of improvements on the 
public land. However, the terms and conditions of a wind energy 
authorization require the holder of the right-of-way to remove all 
improvements. The bond is required to ensure compliance with the terms 
and conditions of the authorization and to cover BLM's expenses if an 
operator fails to fulfill the lease requirements.

    Senator Alexander. Does it require it or just allow it?
    Mr. Hayes. It requires it. There is a requirement by the 
developer to take down--this is on public lands, obviously.
    Senator Alexander. Yes.
    Mr. Hayes. To take down the turbines at the end of their 
useful life. But whether there's a specific bond requirement or 
not, I don't know right now. But we will get that information 
to you.
    Senator Alexander. Thanks, David. I'd appreciate it very 
much. And I'll add my compliments to your work here. Thank you, 
Mr. Chairman.
    Senator Reed. Thank you, sir. Thank you, Senator Alexander.
    Senator Merkley.

                            HAZARDOUS FUELS

    Senator Merkley. Thank you, Mr. Chair. And thank you all 
very much. I wanted to start by echoing Senator Udall's 
comments in regard to the proposed reduction in funding for 
hazardous fuels reduction. We had this last summer in Oregon, 
the largest forest fires we've had in 100 years, including one 
forest fire the size of Rhode Island. And largely, partly, the 
forest was dry, but the other big factor was the accumulation 
of fuels from fire suppression in the past, combined with the 
absence of forest management.
    And it's kind of a very hazardous combination, those 
factors. And in page BH106 on the conversation on this, it 
notes, ``The President's budget proposes reducing the program 
to $96 million, a reduction of $89 million''--I'm rounding it 
off--``from 2012.'' And it presents, and it puts it in kind of 
the silver lining, that ``the program presents an opportunity 
to reevaluate and recalibrate the focus of hazardous fuels 
reduction to align and support the direction of the National 
Cohesive Wildland Fire Management Strategy.''
    I am doubtful that there's anything in that strategy which 
says that the accumulation of fuels is not a problem and that 
we should cut the funding by one-half. So I think this is 
probably just kind of nice language to dress up the fact that 
this didn't make the list of higher priority operation.
    But I guess my question is, is there some type of 
fundamental insight that hazardous fuels reduction no longer 
merits the funding that it's had? And if so, I'd like to 
understand that.
    Secretary Jewell. Senator, I'll take a high-level crack at 
the question. Fuels reduction is very important in reducing the 
risk of wildland fires; no question about it. We have very 
difficult budget choices to make. This budget reflects a 
balance of what we expect to have to spend on suppression, 
based on the 10-year average. And putting some money aside, 
which has been removed, actually, in the sequester, putting it 
back in to reduce the fuel load.
    There are ways we fight fires that would be much better put 
on the emergency funding side so we had a predictable annual 
way to continue to reduce the fuel load and fight the sort of 
normal fires without the spikes that inevitably occur in terms 
of how it impacts our funding. We made some hard choices. 
There's nothing I'm aware of or have been told that there's a 
relation.
    Senator Merkley. Okay. Well, I appreciate the hard choices, 
and I just want to reiterate concern. A lot of our private 
landholders are very concerned about forest fires that are 
moving from public land onto their private land, their private 
range land, their private timberland. And a good share of the 
fires that occurred last year were on both public land leased, 
so it operates as an income generator for our ranchers, and 
also the private land, including private timber stands.
    And when your private timber stand is burned up as a result 
of a fire that initiated on a poorly managed public tract, you 
can imagine how angry you become about that poor management. 
And that's my concern, that we need to do more, not less.

                  KLAMATH BASIN RESTORATION AGREEMENT

    I wanted to turn to the Klamath Basin Restoration 
Agreement. This is an agreement that I discussed with you 
earlier that I just wanted to engage you on. This is an effort 
to address a significant area in southern Oregon, where you 
have a complicated set of rivers and dams and species, 
including a freshwater sucker fish and then the salmon, both of 
which have provisions to effect their survival that sometimes 
are in conflict with how much water stays in the lake versus 
how much water goes into the river, and so on and so forth.
    Stakeholders have been fighting over this water forever. 
They came together and forced the Klamath Basin Restoration 
Agreement. Your predecessor flew in to be there for the signing 
of this agreement. The Department worked very closely to try to 
support these concepts to turn what's been a lose-lose 
proposition into a win-win.
    Nothing about this is simple. But I again wanted to raise 
your attention to it and ask for your help in trying to take 
this long-term water war and convert it into something that's 
more reliable for the irrigators, better for the fish, both the 
in-lake fish and then the downstream fish.
    Secretary Jewell. Senator, thanks for your support, and I 
am aware of how extensive, how important, how complex this is, 
and I absolutely look forward to working with you on it.

                        RESOURCE MANAGEMENT PLAN

    Senator Merkley. Thank you, Madam Secretary. And then I 
wanted to turn to the issue of the O&C lands in Oregon, the 
Oregon and California Railroad grant lands. These lands have 
gone through various management plans, and there is a pending 
rewrite of the Resource Management Plans for six different 
districts.
    And one of the concerns, just as the concern that, if you 
will, fire suppression or response will take away the funding 
for fuels reduction, the concern here is that the resources 
that are necessary to do these plans might come at the expense 
of the planning for timber cuts. These are lands that were 
dedicated for our counties to essentially have a timber supply 
to feed the local mills. And part of the revenues from the 
sales go to the local counties. And if the planning isn't done 
for the sale of the timber, then nothing happens. Nothing gets 
cut, nothing gets managed. We have second-growth forests that 
continue to be good for fires and disease, but not for either 
ecosystems or for timber sales.
    And so, I wanted to raise this issue and ask whether the 
dedication of the effort on the Resource Management Plans is 
going to divert funds necessary to plan the sales on these 
lands.
    Secretary Jewell. I'll answer at a high level and then ask 
my colleagues here to chime in with more. What I've heard from 
the BLM is a commitment to provide a steady source of timber 
for the mills in Oregon. I know it's very critical to funding 
the Secure Rural Schools Program. I have not heard that the 
Resource Management Plan takes away from the ongoing commitment 
to provide a steady supply of timber.
    My colleagues, would you like--Rhea?
    Ms. Suh. Senator, we fully expect to meet our cut target of 
197 board-feet that is expected in 2013.
    Senator Merkley. Well, throw a million or something into 
there.
    Ms. Suh. I'm sorry. 197?
    Secretary Jewell. Million.
    Ms. Suh. 197 million; I'm sorry. What we were asking for in 
the budget is an additional $1.7 million that will obviously go 
into the Resource Management Plans. We do not think these 
things are mutually exclusive. We think both of them are 
equally important to the communities you represent.
    Senator Merkley. Thank you. I appreciate that, and I'll 
just close by saying 2 weeks ago we lost the Rough & Ready 
mill, the last mill that we had in that particular county. And 
the owner of the mill said, and I believe I have this right, 
that it's like a person starving to death in a room full of 
food. That essentially that, because of the scarcity of the 
sales off the nearby timberland, they just couldn't get the 
logs to feed the mill.
    In the small town of Cave Junction, this was 85 living-wage 
jobs, which of course, will affect that payroll being spent in 
Cave Junction, will affect every other retail operation in this 
mill town. And certainly, kind of that snapshot reflects the 
frustration and challenge of working out a sustainable timber 
supply strategy off these lands. Thank you.
    Senator Reed. Before I recognize Senator Hoeven, a vote has 
just started. I will depart to vote. I'll ask the vice chair, 
Senator Murkowski, to preside so that we can finish the first 
round. And we anticipate a second round.
    Senator Hoeven, thank you.

                 RED RIVER VALLEY WATER SUPPLY PROJECT

    Senator Hoeven. Thank you, Mr. Chairman. Madam Secretary, 
good to see you again. Thank you for being here. A project that 
we had submitted for a record of decision some years ago, we're 
still waiting for a final record of decision, it's the Red 
River Valley Water Supply Project. Would you be willing to 
commit to me that we can get together and you could give us a 
final decision one way or the other on that record of decision?
    Secretary Jewell. Happy to meet with you on it and learn 
more about it.
    Deputy Secretary, do you know the status of the record of 
decision?
    Mr. Hayes. I do not, but we certainly will get back to you 
on that.
    Senator Hoeven. Yes. We need to get a decision from you. 
And so could we agree to schedule something, get together and 
get a frank discussion and a final decision?
    Secretary Jewell. Sure. Absolutely.
    [The information follows:]
                 Red River Valley Water Supply Project
    The Bureau of Reclamation and the State of North Dakota completed 
the Red River Valley Water Supply Project Final Environmental Impact 
Statement in 2007. The preferred alternative identified in the EIS 
would import water from the Missouri River basin for release into the 
Red River through the Garrison Diversion Unit water supply facilities. 
A report on the project was transmitted to Congress in 2008, consistent 
with the Dakota Water Resources Act of 2008, Public Law 106-554. A 
Record of Decision has not been signed and that decision has not been 
revisited.
    The Dakota Water Resources Act requires that if the selected option 
includes the importation of Missouri River water, the project must be 
expressly authorized by Congress. No legislation has been enacted. We 
would be pleased to discuss the status of the Red River Valley Project 
further with the North Dakota delegation.

              SPIRIT LAKE NATION CHILD PROTECTIVE SERVICES

    Senator Hoeven. That would be great. Second, I want to 
thank you for your willingness to come visit us in North 
Dakota. I appreciate it very much. One of the stops that we've 
got to make is at the Spirit Lake Nation. And I think it's very 
important. There's a situation where the Bureau of Indian 
Affairs has taken over the Child Protective Services. Their 
problems on the reservations need to be addressed.
    Your presence there, I think could be a big help in terms 
of making sure the job gets done and getting a good progress 
report. And I'd like your thoughts and, hopefully, a commitment 
from you to do that.
    Secretary Jewell. I'm very happy to work with your office 
on my visit to see how we can prioritize working that in with 
the other things that you'd like me to see in North Dakota.

                  NORTH DAKOTA OIL RESERVE ASSESSMENT

    Senator Hoeven. Good. The third point is I want to thank 
you again for the USGS study that came out updating the 
recoverable oil reserves in North Dakota between double and 
triple, 7.4 billion to 11.4 billion barrels recoverable. The 
industry thinks it's going to be even higher than that. Natural 
gas, almost 7 trillion cubic feet.
    Your study is very important because it's going to help us. 
We've got the oil companies in there, but we're growing so fast 
we need private investors and private developers in there 
building stores and housing and, you know, all of the different 
things that go with quality of life, restaurants, in addition 
to the public investment we're making in roads and bridges and 
water supply and all that.
    So it's very helpful. I want to thank you for that. I 
worked with your predecessor, Secretary Salazar, very closely 
to get USGS to do that study. We thank you for it. It's going 
to have a real impact in terms of jobs and energy; tax revenues 
at local, State, Federal level without raising taxes; and of 
course, energy security, energy independence for our country. 
It's a great example of what we can do together.

                          HYDRAULIC FRACTURING

    So, now you're working on hydraulic fracturing. We can't 
produce oil and gas without hydraulic fracturing. So I need 
your commitment to work with us on that. That's one.

                         OIL AND GAS PERMITTING

    At the same time, we're working on permitting wells, for 
example, on BLM lands. Right now it takes 10 to 14 days to 
permit a well in our State, but it takes 270 days on BLM lands. 
We've got energy legislation in, our BLM Streamlining Act, 
which I think we got bipartisan support. I think you guys are 
onboard with it. We actually worked with some of your people to 
develop it.
    The point is this: We need your help streamlining the 
regulatory burden. And that's one of the things we're going to 
show you. For example, we're going to show you hydraulic 
fracturing, that we're transparent and that we're open. We do 
it right, we do it well. But we create a lot of jobs and a lot 
of energy doing it right and well.

                          HYDRAULIC FRACTURING

    So, specifically, where are you at with the hydraulic 
fracturing rules? Are you going to work with the States to make 
sure they work? And can we continue this model of the BLM 
Streamlining Act, where we work together to streamline this 
regulatory burden? This is a win-win in a big way.
    So I know that's kind of a long question. But it goes to a 
big point here and a real opportunity. And I'd love your 
response.
    Secretary Jewell. I'm happy to respond. And as I'm sure you 
recall from my confirmation hearing, I actually have fracked a 
well before.
    Senator Hoeven. Yes, I do.
    Secretary Jewell. Having been a petroleum engineer earlier 
in my career, I understand the process, I understand the risks, 
I understand the rewards. It's essential and has been for 
decades, in economically extracting the resource, it can be 
done safely and responsibly. I do understand that.
    Fracking rules, we're very close to releasing them. So I've 
said that it's a matter of weeks, not months. So you won't have 
long to wait.
    In terms of streamlining the regulatory burden, we agree, 
and the BLM agrees. Yesterday I had an opportunity to meet with 
the Western Energy Alliance, which is small operators from 
throughout the West. We talked about this.
    I hate to keep bringing up sequestration, but we have a 
movement afoot to streamline and automate the process. When we 
do a line-item by line-item cut, it makes it difficult to do 
that because we don't have the flexibility on where we cut. 
People are necessary to process permit applications, and they 
are being scaled back. We're actually prioritizing 
authorizations for permits to drill, and our inspections over 
additional leases.
    But the BLM is very committed to being more streamlined. 
There's some legislation that's had pilot offices that don't 
allow us to go beyond those pilot regions.
    Senator Hoeven. Exactly.
    Secretary Jewell. We're asking for a fix to that. I think 
the BLM is very much on the same page with you, Senator, in 
where we need to go to be responsive.
    Senator Hoeven. That's it. I mean, that's the legislation 
I'm talking about. We're going to get you authority so that you 
have flexibility to do some of these things. I think we can 
leverage your resources. We can do much more together even 
with, you know, the challenges of sequestration because, with 
some flexibility, we're going to bring you State and local 
resources, private resources in a way that will help us do 
these things.
    It really just comes back to your willingness to engage 
with us and do it. And this is where your leadership, I think, 
can be critical and make a big difference.
    Secretary Jewell. Yes. Appreciate that.
    Senator Leahy. First off, Madam Secretary, congratulations 
being here. I was proud to vote for your confirmation. I think 
your diversity of experience is going to be very good for us.
    You've heard from a lot of the western Senators up here, 
and I just want you know, as important as the Department of the 
Interior is to the West, we have some interest in Vermont, in 
the East. We take pride in our own stewardship. We appreciate 
the value the Department of the Interior brings to Vermont, to 
our two national wildlife refuges, two units of the National 
Park System, two national fish hatcheries. And I was glad when 
the Connecticut River and Vermont neighbor in the New England 
States become the first National Blueway. So these are all 
things that we're very interested in.

                              SEA LAMPREY

    Since 1998, FWS has led the effort to control parasitic sea 
lamprey in Lake Champlain in Vermont and New York. That's what 
this ugly-looking thing is, which attaches itself to fish, lake 
salmon, trout, and so on. It's critical to the restoration of 
native fish species in Lake Champlain. They have a devastating 
impact on the ecosystem if they're left unchecked.
    The program to get rid of it has been a huge success. In 
2011, your predecessor and former colleague, Ken Salazar, 
joined me in Vermont to say FWS was accepting full 
responsibility of the management of it. But they've yet to 
budget money for this work.
    When will FWS bidding plan begin to honor your 
predecessor's commitment in 25 years of leadership by the Fish 
and Wildlife Service and put money in to eradicate sea lampreys 
in Lake Champlain, without sounding too parochial?
    Secretary Jewell. Well, it's a great illustration of the 
challenge we have in balancing the resources, particularly with 
invasive species.
    Specific to the sea lamprey, I'm looking at Pam to see if 
she's got a number. She's scrambling to come up with a number.
    Ms. Haze. The fiscal year 2014 budget, sir, maintains FWS 
funding at the fiscal year 2012 level. It's at $1 million. This 
supports FWS's efforts in Marquette, Ludington field stations 
in Michigan, and the Lake Champlain Fish and Wildlife Resource 
Office in Vermont.
    Senator Leahy. So how much is going to be budgeted for 
Vermont?
    Ms. Haze. I'm not sure. We can get you that information, 
sir.
    Senator Leahy. Could you get it this week?
    Ms. Haze. We can.
    [The information follows:]
                              Sea Lamprey
    The Department's efforts to control sea lamprey in Vermont and Lake 
Champlain remains strong. The fiscal year 2014 budget maintains funding 
in the Fish and Wildlife Service at the fiscal year 2012 level of $1 
million. In addition, funding for sea lamprey control is provided by 
the Great Lakes Fishery Commission through reimbursable support 
agreements with the Service. In fiscal year 2012, the Commission 
provided $9.8 million; $8.7 million in 2013; and the Service 
anticipates receiving approximately $8.4 million in 2014, although 
exact allocations are as yet unavailable.
    The Fish and Wildlife Service supports sea lamprey control efforts 
from field stations in Michigan and the Lake Champlain Fish and 
Wildlife Resources Office in Vermont. Funding for sea lamprey control 
efforts in Vermont is stable at approximately $1 million in 2012, 2013 
and 2014. A portion of this funding is provided by the Great Lakes 
Fishery Commission. The Service works in close coordination with both 
Vermont and New York resource management agencies to support sea 
lamprey control efforts and together they are making progress.
    The U.S. Geologic Survey also provides scientific and technical 
support to sea lamprey control efforts which has informed more 
effective efforts. USGS provides support from facilities in Michigan 
and Wisconsin.

                      WHITE-NOSE SYNDROME IN BATS

    Senator Leahy. Thank you. I know that the Senator from 
Tennessee has mentioned white-nose syndrome, something I raised 
here several years ago. It is a matter of huge import, not only 
to farmers that use pesticides, but also to those who are 
involved in organic farming without pesticides.

                            FISH HATCHERIES

    And then native fish populations, ever-increasing risks. 
We've seen firsthand in Vermont FWS through the Federal Fish 
Hatchery System is critical to preventing that. Vermont's two 
Federal fish hatcheries support native fish restoration as far 
west as Lake Ontario, as far east as Maine. The 
administration's spending request is a significant drawback 
from freshwater fish restoration.
    Are you going to be able to continue a strong network of 
Federal fish hatcheries?

                      WHITE-NOSE SYNDROME IN BATS

    Secretary Jewell. Senator, I'm going to address white-nose 
syndrome in bats, as well as the question on the fish 
hatcheries. I do have information. We have $11.5 million for 
programs in the fiscal year 2014 budget for the white-nose 
syndrome in bats, and that's a $5 million increase above 2012, 
so the budget recognizes the huge economic impact of that.
    Senator Leahy. Good.

                            FISH HATCHERIES

    Secretary Jewell. In terms of fish hatcheries, I know that 
there is support for fish hatcheries in general. I don't know 
specifically about Vermont.
    Rhea.
    Ms. Suh. Senator, we believe strongly that the Light River 
National Fish Hatchery is one of the best examples of our work 
in this realm. As you know, the hurricane in 2011 caused 
significant damage to this facility. We have been undergoing 
two separate construction projects to try to repair and rebuild 
the fish-tagging building. In 2014, we have a total of $4.7 
million budgeted for the operations of this program. We're 
working on both the ongoing regular operations, as well as the 
restoring, the rebuilding of the actual infrastructure.
    Senator Leahy. Good. Well, thank you very much. And 
finally, Madam Secretary, if you go online and pick up ``The 
Onion,'' the satirical newsmagazine, you've probably seen this, 
how you became President when the President, the Vice 
President, the Speaker, myself, and those of us who are in line 
to accession to the presidency took a hot-air balloon ride. 
Trust me, we're not going to. Thank you.
    Senator Murkowski. Senator Cochran.
    Senator Cochran. Madam Chairman, I'm pleased to join you 
and others on the subcommittee in welcoming our distinguished 
panel of witnesses today. We thank you for your leadership at 
the Department of the Interior.

                       MISSISSIPPI NATIONAL PARKS

    Two of the most important activities in my area of the 
country involve the Gulf Islands National Seashore and the 
Natchez Trace Parkway, both of which are very important for 
visitation and appreciation of the beauty of that part of our 
country. And I just want to put in a plug for adequate funding 
to continue to carry out the activities that the Department has 
in supervising and helping maintain the integrity and beauty 
and enjoyability of that part of the country.
    I think our time has run out on our vote over on the floor. 
So I'm prepared to yield back my time without really asking you 
for any commitments except your best efforts.
    Secretary Jewell. Thanks, Senator. I do want to reference 
that it looks like funding is equivalent to the fiscal year 
2012 levels for the three parks in Mississippi. I look forward 
to visiting Vicksburg, which is coming up, I think in a week or 
two. So thank you.
    Senator Reed. Thank you very much, Senator Cochran. And as 
I indicated before, Senator Murkowski is now going to vote and 
we will begin a second round.

                             OFFSHORE WIND

    One of the major issues that's upcoming is the auctions for 
offshore wind. This is particularly important to Rhode Island. 
Can you give us a detailed timeline? There was a commitment, I 
think, that all this process would be completed by the end of 
the year. But perhaps either you, Madam Secretary, or Deputy 
Secretary Hayes could comment.
    Mr. Hayes. Be happy to, Senator. I want to compliment your 
leadership here and the State's leadership. Rhode Island really 
has invested from the very beginning in good studies and good 
analysis to enable Rhode Island now to move forward as our 
first competitive offshore lease sale with the combined Rhode 
Island-Massachusetts wind energy area.
    We are looking to have a notice of the sale to come out 
within a matter of weeks and to have the actual sale occur 
before the end of the year. That's our current timetable. As we 
get closer, we will give your office, and I've enjoyed working 
with Rachael directly on this, more precise information.
    Senator Reed. Right.
    Mr. Hayes. But we are on track to get it done this year.
    Senator Reed. Thank you very much, Deputy Secretary Hayes.

                             SEQUESTRATION

    Madam Secretary, the issue of sequester keeps, obviously, 
coming up in many different contexts. Let me just ask, for the 
record and also to sort of, I think, provide a good basis for 
further discussion. First of all, your budget does not assume 
the sequester; is that correct?
    Secretary Jewell. The fiscal year 2014 budget does not 
assume the sequester. We're making comparisons typically to the 
fiscal year 2012 budget because that's the last enacted budget 
that we had.
    Senator Reed. Right. Right. So the budget we're talking 
about, if the sequester continues into this 2014 fiscal year, 
it will be further complicated. Right now you're looking at, 
you're assuming no sequester?
    Secretary Jewell. That's correct.
    Senator Reed. Thank you. Now, and all of my colleagues, I 
think, because, first of all, they're extremely effective and 
thoughtful people, have suggested ways in which we could make 
further investments not only in their States, but in national 
programs. But even with the flexibility some people have spoken 
about, these additional investments would be difficult to do in 
the context of the budget with or without the sequester; is 
that fair also?
    Secretary Jewell. That's correct.
    Senator Reed. And again, one of the issues is that--and I 
think all of my colleagues would make the same point I would. 
When we do these investments, they actually generate economic 
activity, provide jobs, leverage the economy forward. So this 
is not just spending for the sake of spending. Yet could these 
critical investments--you know, you have a list of things you 
had to leave on the cutting-room floor, as they say on the west 
coast, that you probably believe would be hugely valuable for 
jobs, for economic growth, and for the future of the country. 
Is that a fair assessment, too?
    Secretary Jewell. Yes. And just to put a few numbers behind 
it, I come out of the active outdoor-recreation industry, $600 
billion of revenue that is generated because of people's 
recreation on public lands. The lion's share of those lands are 
managed by the Departments of the Interior and Agriculture.
    On the energy side, I think we get a 26-to-1 return on 
investment for every dollar we invest. We generate $26 of 
revenue for both States and the Federal Government. So, yes, I 
mean, as we scale back, as I referenced on the sequester, it's 
about $200 million of lost revenue that we associate with just 
the cuts we've had to make from the sequester alone.
    Senator Reed. Well, thank you very much. That adds, I 
think, some context and some real value to what has been so far 
a very valuable discussion in and of itself.

               URBAN PARK AND RECREATION RECOVERY PROGRAM

    Let me turn to another issue. It was very encouraging to 
see this budget include $10 million to revive the Urban Park 
And Recreation Recovery Program. You know, again, my colleagues 
are from larger States and more rural States, have parks, et 
cetera. But there's a need everywhere for access to nature, 
conservation, and the services that parks provide.
    Can you explain some of the specific activities that you 
see funded under these grants? Who would be eligible as an 
allocation formula? Any details would be helpful.
    Secretary Jewell. Let me give the high level, and then I'll 
encourage my colleague, Rhea, to weigh in.
    Senator Reed. Thank you.
    Secretary Jewell. First, there is a significant, scary 
growing disconnect between children and nature. It's something 
that I have worked hard on before coming into this role. Urban 
parks are frequently the best opportunity children have to have 
any kind of a connection to the natural world at all. If we 
want people sitting around this dias in the future that care 
about these resources, which I think are vital for many 
reasons, we need to connect them to parks today.
    The UPARR program, which has been around for a long time, 
but not funded consistently, is really vital. As a former 
urbanite from the Seattle area, these kinds of funds are 
desperately needed by local cities and counties to support the 
parks that are necessary in the region. That's why we're asking 
for it to come back. The Rivers, Trails and Conservation 
Assistance Program that NPS administers is another critical 
resource that is leveraged by local money.
    So, Rhea, do you want to provide any more detail on the 
program itself?
    Ms. Suh. Mr. Chairman, we can certainly provide you 
extensive detail on how the program will be operated. It is, 
obviously, operated by NPS. It's our understanding that the 
funds would go to local municipalities that have urban 
populations, in a competitive process. So again, we would be 
happy to get back to you with more details on the program.
    This is a program, as you know, that used to exist several 
years ago. We are resurrecting it because we believe strongly 
and agree with you that the need, particularly in urban places 
around the country, is great.
    Senator Reed. Well, I concur, obviously. And in one point, 
I would echo the Secretary, so that if we want the next 
generation to be custodians of the environment and not just in 
certain areas, but throughout this country, we have to expose 
them to environmental education and issues. And again, we have 
been pushing through the Department of Education for a 
curriculum that has a recognition of getting kids outside. In 
fact, we've got legislation, the No Child Left Inside Act.
    But this is not just Department of the Interior, but across 
the Federal Government engaging the next generation of young 
people in environmental education. And the best education is 
actually going in and seeing firsthand a park or, in our case, 
going out on the bay, Narragansett Bay, and participating in 
places like Seattle, going up into the mountains and hiking or 
climbing, et cetera. So it's absolutely critical.
    [The information follows:]
                  Urban Parks and Recreation Recovery
    Established by the Urban Park and Recreation Recovery Act of 1978, 
the Urban Park and Recreation Recovery grant program was designed to 
provide matching grants to a prioritized list of urban cities and 
counties that represent the most physically and economically distressed 
communities Nationwide. The program provides direct Federal grants to 
local governments to rehabilitate existing indoor and outdoor 
recreation facilities; to demonstrate innovative ways to enhance park 
and recreation opportunities; and to develop local Recovery Action 
Programs to identify needs, priorities and strategies for 
revitalization of the total recreation system.
    Rehabilitation and innovation grants are awarded through a national 
competition among the detailed project proposals submitted to the 
National Park Service (NPS). These are evaluated and ranked by a 
national panel and recommendations made to the Director of the National 
Park Service for selection. The project selection criteria address the 
goals of the UPARR program and are outlined in the UPARR Act. For 
example, project selection criteria for rehabilitation projects include 
but are not limited to:
  --Maximizing project costs per capita in the community served.
  --The degree of service to minority and low to moderate-income 
        residents, special populations, and distressed neighborhoods.
  --The degree of State participation in the proposal, including 
        financial and technical assistance.
  --The degree of private sector participation in the proposal, 
        including contributions of financial assistance.
  --The degree to which the project is clearly a priority for action 
        listed in the Recovery Action Program and the jurisdiction's 
        commitment to improving its recreation system.
  --The scope of whether the proposed project will serve neighborhood 
        recreation needs.
  --The condition of existing recreation properties to be rehabilitated 
        and the need to maintain existing services.
  --The level of improvement in the quality and quantity of recreation 
        services as a result of rehabilitation, including improvements 
        at specific sites and overall enhancement of the recreation 
        system.
  --The degree of the projects consistency with local government 
        objectives and priorities for overall community revitalization.
  --The degree of neighborhood employment opportunities created.

                                 YOUTH

    Senator Reed. And let me ask a broader question, which is, 
this is one aspect of youth programs in the budget. Madam 
Secretary, could you comment generally about other areas of the 
budget that emphasizes sort of youth engagement?
    Secretary Jewell. Yes, and I hate to keep hearkening back 
to the sequester, but one of the biggest impacts we've had is 
the reduction in youth hiring. When I go around the BLM or the 
Park Service, or even USGS, a lot of the folks that work for 
the Department of the Interior started as young people. They 
might have been in college, and they did a summer job. My son 
worked for 3 years as a volunteer ranger in a national park. It 
connected him to place in a way that will change his life 
forever
    These opportunities are enormously critical in making sure 
we have people that are interested in the jobs that take care 
of these lands. I want to compliment Assistant Secretary Suh on 
her commitment to youth hiring in Interior, because we've had 
tens of thousands--how many thousands?
    Ms. Suh. 84,000.
    Secretary Jewell. 84,000 young people, looking in the rear-
view mirror, have been hired by Interior. These will be the 
people that will be our park rangers, our wildlife biologists, 
and our oil and gas lessees of the future.
    We also have a very scary situation with the maturation, I 
would say, of our workforce.
    Senator Reed. You mean they're getting to be our age?
    Secretary Jewell. I resemble that remark, yes.
    Senator Reed. They're getting to be my age. I understand.
    Secretary Jewell. Well, they're my age, and they will be 
eligible for retirement in a 5-year period of time. You know, 
will we have the people necessary with the skills set 
necessary? We have a commitment to that, but it is difficult in 
this budgetary time. And that's certainly something that's 
reinstated in this budget.
    Senator Reed. Well, you make another excellent point, which 
is, there's, going forward, a capacity issue, because as you 
lose these very valuable, very experienced personnel, for the 
last several years we have not been hiring at the level we need 
to keep the entry-level and middle ranks sustained so that 
there's a natural progression upwards. And we could find 
ourselves with a situation where we, you know, don't have the 
capacity, the expertise. And that doesn't help anyone, because 
you still have the mission, but you still have the capacity.

                    LAND AND WATER CONSERVATION FUND

    But let me change to another topic that you've mentioned, 
then I've mentioned, and that's the LWCF. We have, and I think 
this is strong bipartisan support over the years for the LWCF. 
We're fully funding it, et cetera.
    The proposal in this budget is to make part of it 
mandatory, and I think, the longer term, to transition to an 
entirely mandatory program.
    Secretary Jewell. That's correct.
    Senator Reed. Which the value, obviously, is it tends to 
lock in the money. But what it doesn't do is allow sort of the 
not only just oversight, but, you know, members to be able to 
indicate the local preferences, what's an important project in 
Alaska or Nebraska or Rhode Island, which is part of what we 
do, and also, the oversight of the program on specific issues, 
accountability, et cetera.
    So how are you planning to continue to involve Congress in 
this process, first for this at least proposed, and not yet 
adopted mandatory portion, and certainly at the point if this 
ever got to be completely a mandatory program?
    Secretary Jewell. Senator, as a businessperson, I spoke at 
length with many members of this body about the importance of 
full funding of the LWCF to fulfill its intended purpose. It 
has been under threat consistently, and that is why we are 
proposing mandatory funding.
    I think there's an example in the Migratory Bird 
Commission. There's another word in there, isn't there?
    The Migratory Bird Conservation Commission. Where there is 
engagement on the part of the Congress in prioritizing where 
those funds are spent. I would welcome the opportunity to work 
with you and this committee on establishing something similar 
so there is insight and input from Congress on prioritizing 
those projects. Because it's certainly not something that needs 
to be driven by us. It's something I think we could drive 
collaboratively.
    Senator Reed. And again, one of the concerns is that it's 
this balance between smaller areas of the country, larger areas 
that might have, you know, just a bigger footprint, if you 
will, where you have to deal with that. And without, I think, 
healthy dialog within the Congress and the administration, 
we're not going to be as effective as we should be. So I thank 
you for that, going forward.
    I'm going to recognize Senator Murkowski and ask her, at 
the conclusion of her questions, because I do not believe any 
of our colleagues will return, if you could gavel us out. I 
would indicate that the record will remain open until Thursday, 
May 16. So, Madam Secretary, you could get some written 
questions from any of my colleagues. And we'd ask you to 
respond as quickly as possible. Those questions have to be in 
by May 16, and we ask again for your rapid response.
    With that, let me turn the gavel over to Senator Murkowski 
to ask a question and to conclude the hearing. Thank you.
    Senator Murkowski [presiding]. Thank you, Mr. Chairman. 
Appreciate that. And sorry for the Jack-in-the-box routine, but 
this is what happens. And thank you for an opportunity to just 
ask a couple more questions; I won't keep you too long because 
it's been a long morning for you as well.

                         ARCTIC OCS REGULATIONS

    Let me ask first about where we are in the process of 
developing these Arctic-specific regulations within BOEM for 
the exploration and development in the OCS areas out there. As 
you know, exploration has been delayed going forward this next 
season, in part because of what's gone on with the regulatory 
uncertainty.
    Can you give me some sense as to the timeline we're looking 
at here for these regulations and whether or not it's your 
intent to have those regs in place in time for the 2014 
drilling season?
    Secretary Jewell. Senator, I have had meetings with both 
Shell and ConocoPhillips, who are the principals involved in 
this. I've not yet met with Statoil; that may come up. I sense 
a strong commitment to safe and responsible development of the 
Arctic by the operators and by the regulators.
    I don't believe that, in my conversations, that either 
Shell or ConocoPhillips feels that it is regulations that are 
getting in their way. It is ensuring that the technology is 
available to be able to respond in the event of an incident, a 
spill incident up there, that is of paramount importance to us 
and I'm sure to you, as well. We certainly don't want a 
situation in the Arctic like we experienced in the gulf.
    Shell has been ahead of the game in working on particularly 
the oil spill response. As you know, their response didn't pass 
the test. They would acknowledge that, and certainly, the 
Bureau of Ocean Energy Management agreed that the test was not 
passed. Shell is back working on developing a strategy to make 
that happen, and they're going to continue to test until they 
get it right.
    There is a requirement that the ability to drill a relief 
well be there, because unlike other parts of the world, where 
you've got the ability to rapidly respond with other units that 
might be in the area, that's not true. Both Shell and 
ConocoPhillips, and Statoil if they proceed with their 
development, will look to share resources to be able to drill a 
relief well should there be a problem. That's another factor.
    But I don't sense that there is any disconnect between 
industry and the regulator in terms of what needs to be done or 
the timing.
    Senator Murkowski. Well, let me ask for clarification on 
that because, as we know, when Shell was moving forward as the 
only entity, the only producer up there, the plans were very 
specific as to Shell's operations. Conoco is looking at a 
different process using a jack-up rig. So in terms of ensuring 
that the regulations are out there, that they are clear and 
understandable, that allow for a level of certainty, there are, 
as I understand, still regulations that need to be defined.
    So the question is, will that be clearly mapped out far 
enough in advance so that Conoco can advance in 2014, or Shell 
can advance in 2014? Actually, excuse me, Conoco has already 
said that they won't go in 2014. They're putting it off an 
additional year. But will that regulatory certainty be there 
for Shell should they decide to move forward in 2014?
    And then a secondary question is as it relates to the air 
quality programs. As you know, in the 2012 appropriations bill, 
we transferred the authority from EPA to DOI. And so, same 
question: Will you be prepared within BOEM to have finalized 
these regulations, not only on the exploration and the 
development side, but on the air-quality side, in time for the 
2014 season?
    Secretary Jewell. I'm going to ask Deputy Secretary Hayes 
to weigh in with more detail.
    Mr. Hayes. Thank you, Secretary and Senator. First on the 
question of Arctic-specific standards, we are going to move 
forward and put in regulations. The requirements that Shell was 
required to do under the exploration plan, we are looking to 
have performance standards so any company working the Arctic 
will be expected to meet a performance standard, for example, 
to deal with the containment for a spill, but with the 
flexibility for companies to figure out how they want to meet 
that standard.
    We do expect to have proposed regulations out by the end of 
this year so there will be clarity going forward. They will be 
based on the kinds of requirements we've worked on together and 
that were used in the field last summer. So there should not be 
significant concern about what's in them, but we do believe 
it's appropriate to put them in regulations now that we have 
more than one operator moving up there, and that's our intent.
    With regard to the air side, we are working hard at 
developing the regulations to implement the addition of the 
jurisdiction to BOEM to handle air requirements in Alaska as 
they do in the gulf. And we expect forward movement on those 
this year as well.
    Senator Murkowski. Do you expect that there will be any 
difference between how the department regulates the air quality 
in the gulf and up north?
    Mr. Hayes. I think it will be the same approach, Senator, 
which is what I believe is required under the law that you 
helped to instigate and pass.
    Senator Murkowski. Good. I appreciate that. And I think it 
was important to hear the word ``flexibility'' used in your 
response when you're talking about the performance standards, 
because recognizing that you may have different technologies, 
different approaches there, yes, it's important to have that 
backup, if you will, that standby system. But the designs might 
be different, given what the different operators are utilizing.
    So it is important, again, that we have those regulations 
that are clearly defined in advance, well in advance, 
hopefully, of this season so that that level of certainty, 
moving forward, is there.

                         CONTRACT SUPPORT COSTS

    Let me ask one final question to you, Madam Secretary. And 
this relates to BIA and IHS contract support costs. Last year, 
the Supreme Court, in the Ramah case, held that tribes are 
entitled to full contract support costs under their agreements 
with the Federal Government.
    What we're seeing, though, with the budget requests for 
both BIA and IHS, they have proposed this separate 
appropriations account solely for contract support costs that 
also includes some statutory language that, in my view, 
circumvents the court's holding there. The language would 
effectively prevent the tribes from bringing claims for the 
full amount of contract support costs if inadequate funding is 
not appropriated to cover these costs.
    I don't know what kind of feedback you have heard, but I 
can tell you, the outcry from tribes from folks back home on 
this particular issue is really loud. It's quite intense. The 
tribes have spent so many years getting to this point, 
significant legal costs. They get the Ramah decision and are 
very optimistic that they will finally see some equity within 
the budget here. And now this proposal, again, really kind of 
undercuts where they have come from.
    One of the questions that they asked me to ask you was 
whether or not there had been any tribal consultation prior to 
putting forth the proposal in the budget. And recognizing that 
you weren't in that situation to do that, I don't know if any 
of your staff has information in terms of what actually went on 
prior to this decision or this proposal that is now in the 
budget.
    Secretary Jewell. Let me give a high-level on the contract 
support cost dollars.
    Senator Murkowski. Okay.
    Secretary Jewell. And then I'll turn to my colleagues in 
terms of the process. We've got $231 million in the budget for 
contract support costs, which is about 91 percent of the need. 
So it is not fully funded. It would require about $253 million 
to fully fund. It is an increase of nearly $10 million. I 
understand that the court provided some different options in 
terms of how it might be administered.
    The President and the Department of the Interior really 
want to fulfill our obligations under this. And of course, it's 
a function of money. We would very much like to resolve this, 
working with Congress to come up with a mechanism to address 
the conflict that we have in funding and, I think, in terms of 
some legal conflicts as well in how the laws are administered.
    David, do you want to provide more?
    Mr. Hayes. Yes, thank you, Secretary. And, Senator, this is 
a very important issue to us. As you know, this is an issue 
that also affects the Department of Health and Human Services 
with the Indian Health Service. In putting together the 
President's budget, it was really a function of the 
administration as a whole that had to deal with this issue, at 
the same time that we're trying to now settle the class action 
case as well, based on the Supreme Court decision.
    The consultation is occurring now. And I know that within 
the last----
    Senator Murkowski. So after the fact? How is that going?
    Mr. Hayes. Well, I think it was going pretty rough, 
Senator. I know that Charlie Galbraith on behalf of the White 
House and Kevin Washburn and Ms. Roubideaux and others have met 
with the tribes about this. We very much view this budget as 
the beginning of a discussion. We need to solve this problem, 
working with you and the Congress, to ensure that full support 
costs are available.
    As the Secretary said, we're committed to it. We've found 
some additional money. We have to solve this problem. This is 
an interim step, and what we care most about, and I'm sure you 
do as well, is that this not be a recurring issue year in and 
year out and become an open sore.
    I know that Kevin Washburn, in particular, the Assistant 
Secretary for Indian Affairs, is committed to deal with this. 
I've engaged with my colleagues at the Department of Health and 
Human Services and the Attorney General's Office to see if we 
can't both get the retrospective litigation completed and then 
have a solution going forward that works for you as 
appropriators, as well, to fund the support costs and honor the 
Supreme Court's decision.
    Senator Murkowski. Well, and honor the Supreme Court's 
decision, but also honor that trust responsibility to our first 
peoples. It seems to me that the solution really here is to do 
what the Ramah decision laid out, which is to pay the tribes 
the full amount of their contract support costs, and the 
President should include that full amount in his budget.
    I am sure that the consultation right now, or I guess it's 
not really consultation if it's after the fact, but I'm sure 
it's difficult. And we do need to figure out how we're going to 
do right, again, not only by the court decision, but just the 
right thing when it comes to these obligations that our native 
people have incurred when it comes to operation of our 
hospitals, of our schools.
    So this is an important one. And we've talked a little bit 
about the impact of sequestration and what it may bring. But 
this is not brought on by sequestration. This is just us 
dealing with our responsibility, our obligation. And how we 
make good on it is hugely important. So I appreciate the work 
that's going into it, and I know that we stand ready to work 
with you on this end.

                     ADDITIONAL COMMITTEE QUESTIONS

    With that, we have held you here in the subcommittee for 
some time. I appreciate, Madam Secretary, your willingness to 
step forward and serve, working with good staff. Deputy 
Secretary Hayes, we appreciate the service that you have given 
for many years now. And Secretary Jewell, my free advice is, 
take full advantage of him until June and tap into the resource 
that he clearly has made available to the Department of the 
Interior.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
                        national heritage areas
    Question. Your fiscal year 2014 budget request proposes a change in 
the distribution formula for national heritage areas (NHAs) including 
the John H. Chafee Blackstone River Valley National Heritage Area in 
Rhode Island that includes a new tiered and ``performance-based'' 
system of funding. Please describe, in detail, how and when the 
Department plans to implement this formula change and provide the 
proposed allocation of funds for each authorized heritage area as 
provided by your fiscal year 2014 budget.
    Specifically, how does your fiscal year 2014 budget request 
continue to provide funding for mature national heritage areas like 
Blackstone? At what level do you propose to fund these areas, and how 
does that level compare with the funding that these areas will receive 
in fiscal year 2013?
    Answer. The National Park Service will initiate phase-in of a 
revised funding formula as funding levels allow. The revised formula is 
a merit-based system for allocating heritage areas funding that 
considers a variety of factors based upon criteria related to program 
goals, accountability, and organizational sustainability.
    The revised Heritage Partnership Program (HPP) funding formula uses 
three sequential tiers. The amount of funding available to each 
heritage area coordinating entity depends upon the total annual HPP 
appropriation and the number of coordinating entities authorized to 
receive funds. Tier increases for each coordinating entity are 
dependent upon meeting eligibility requirements and attaining 
performance measures.
    First the tier 1 allocation of $150,000 would be provided to all 
NHAs that are authorized to receive HPP funding, able to meet any 
Federal/non-Federal match requirements contained in their authorizing 
legislation, and are able to expend funds obligated under their 
cooperative agreement within a reasonable period of time.
    Next, each NHA coordinating entity that meets the tier 2 
requirements would receive an additional amount of funding up to 
$250,000 or if sufficient funding is not available an equal share of 
the available funds. To be eligible for tier 2 funding the coordinating 
entity must meet additional eligibility requirements regarding 
management plan approval, and have at least one full-time, paid staff 
person in place to assume financial and administrative responsibility 
of heritage area funds.
    Last, if funds remain available after awarding tier 1 and tier 2 
funds, then tier 3 funds will be allocated among those coordinating 
entities that have already met the tier 1 and 2 requirements, have 
long-term sustainability plans, and can match HPP funds at a 1:2 ratio, 
or provide an all-cash match at a 1:1 ratio or the ratio specified in 
the Area's authorizing legislation.
    There are currently 48 National Heritage Areas authorized to 
receive funds through the NPS HPP budget activity. If the appropriated 
amount is equal to the request of $8,014,000 for Heritage Partnership 
Commissions and Grants, the fiscal year 2014 allocations will range 
between $150,000 and $170,872, which will constitute a dramatic 
decrease for mature areas.
    The following table shows the actual fiscal year 2013 allocations 
and the planned allocation for fiscal year 2014. In fiscal year 2013, 
$15,533,000 was available, post-sequestration, for Heritage Partnership 
Commissions and Grants, or nearly twice as much as planned for fiscal 
year 2014. Due to the significantly higher level of overall funding, 
direct comparisons of the allocations between the 2 years are not very 
descriptive, but overall the individual allocations ranged between 
$150,000 and $628,000. The draft fiscal year 2014 allocation is 
predicated on each of the 48 coordinating entities receiving 
authorization through fiscal year 2014 and obtaining eligibility for 
tier 1 funding. A subset of the NHAs is expected to have approved 
management plans in place and thus be eligible for tier 2 funding. 
These NHAs would be funded at $170,872.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year 2013         Fiscal Year 2014
                    National Heritage Areas                          Enacted (Post-         President's Budget
                                                                     Sequestration)              Request
----------------------------------------------------------------------------------------------------------------
Abraham Lincoln National Heritage Area........................                 $150,000                 $170,872
America's Agricultural Heritage Partnership (Silos)...........                  628,000                  170,872
Arabia Mountain National Heritage Area........................                  288,000                  170,872
Atchafalaya National Heritage Area............................                  288,000                  170,872
Augusta Canal National Heritage Area..........................                  288,000                  170,872
Baltimore National Heritage Area..............................                  150,000                  170,872
Blue Ridge National Heritage Area.............................                  610,000                  170,872
Cache La Poudre River Corridor................................                  150,000                  150,000
Cane River National Heritage Area.............................                  523,000                  170,872
Champlain Valley National Heritage Partnership................                  288,000                  170,872
Crossroads of the American Revolution National Heritage Area..                  288,000                  170,872
Delaware & Lehigh National Heritage Corridor..................                  540,000                  170,872
Erie Canalway National Heritage Corridor......................                  627,000                  170,872
Essex National Heritage Area..................................                  556,000                  170,872
Freedom's Frontier National Heritage Area.....................                  288,000                  170,872
Freedom's Way National Heritage Area..........................                  150,000                  150,000
Great Basin National Heritage Route...........................                  150,000                  170,872
Gullah/Geechee Heritage Corridor..............................                  150,000                  170,872
Hudson River Valley National Heritage Area....................                  435,000                  170,872
Illinois and Michigan Canal National Heritage Corridor........                  288,000                  170,872
John H. Chafee Blackstone River Valley National Heritage                        575,000                  170,872
 Corridor.....................................................
Journey Through Hallowed Ground National Heritage Area........                  150,000                  150,000
Kenai Turnagain Arm National Heritage Area....................                  150,000                  170,872
Lackawanna Valley National Heritage Area......................                  378,000                  170,872
Mississippi Delta National Heritage Area......................                  150,000                  150,000
Mississippi Gulf Coast National Heritage Area.................  .......................                  170,872
Mississippi Hills National Heritage Area......................                  150,000                  150,000
Mormon Pioneer National Heritage Area.........................                  288,000                  170,872
MotorCities-Automobile National Heritage Area.................                  435,000                  170,872
Muscle Shoals National Heritage Area..........................                  150,000                  150,000
National Aviation Heritage Area...............................                  288,000                  170,872
National Coal Heritage Area...................................                  288,000                  170,872
Niagara Falls National Heritage Area..........................                  288,000                  170,872
Northern Plains National Heritage Area........................                  150,000                  150,000
Northern Rio Grande National Heritage Area....................                  150,000                  150,000
Ohio and Erie Canal National Heritage Area....................                  567,000                  170,872
Oil Region National Heritage Area.............................                  288,000                  170,872
Quinebaug-Shetucket Rivers Valley National Heritage Corridor..                  590,000                  170,872
Rivers of Steel National Heritage Area........................                  588,000                  170,872
Sangre de Cristo National Heritage Area.......................                  150,000                  170,872
Schuylkill River Heritage Area................................                  435,000                  170,872
Shenandoah River Valley Battlefields National Historic                          385,000                  170,872
 District.....................................................
South Carolina National Heritage Corridor.....................                  587,000                  170,872
South Park National Heritage Area.............................                  150,000                  170,872
Tennessee Civil War Heritage Area.............................                  386,000                  170,872
Upper Housatonic Valley National Heritage Area................                  150,000                  150,000
Wheeling National Heritage Area...............................                  528,000                  170,872
Yuma Crossing National Heritage Area..........................                  304,000                  170,872
                                                               -------------------------------------------------
      Total...................................................               15,533,000            \1\ 8,014,000
----------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add due to rounding.

              urban parks and recreation recovery program
    Question. As member from an urban State, I was encouraged to see 
that your budget request includes a $10 million investment to revive 
the Urban Parks and Recreation Recovery Program, which has not been 
funded in several years. Can you please explain what specific 
activities are funded by these grants, and who is eligible? How will 
you allocate these funds?
    Answer. Established in 1978 by the Urban Park and Recreation 
Recovery Act of 1978, the Urban Park and Recreation Recovery (UPARR) 
grant program was designed to provide matching grants to a prioritized 
list of urban cities and counties that represent the most physically 
and economically distressed communities nationwide.
    The program provides direct Federal grants to local governments 
for:
  --Rehabilitation grants, to rehabilitate, expand or developing 
        existing neighborhood oriented outdoor or indoor recreation 
        areas and facilities existing indoor and outdoor recreation 
        facilities;
  --Innovation grants, to cover the cost of personnel, facilities, 
        equipment, supplies or services associated with the development 
        of innovative, cost-effective ideas, concepts, and approaches 
        toward improved facility design, operations or programming for 
        the delivery of recreation services at the local level; and
  --Recovery Action Program Planning grants, to develop local Recovery 
        Action Programs to identify needs, priorities and strategies 
        for revitalization of the total recreation system.
    Grants are available directly to a predetermined list of eligible 
urban cities and counties. This list currently includes over 400 
jurisdictions and was determined through a comprehensive study and 
analysis conducted by the U.S. Census Bureau in conjunction with the 
Department of the Interior. If funding is provided by Congress, this 
analysis would be updated. Additionally, up to 15 percent of the annual 
appropriation is available to cities not on the list but which are in 
Census Bureau defined Metropolitan Statistical Areas and meet other 
eligibility criteria. In order for jurisdictions to be able to apply 
for Rehabilitation or Innovation grants, they must have an National 
Park Service approved Recovery Action Program Plan that demonstrates 
the jurisdiction's commitment to revitalizing its park and recreation 
system.
    Rehabilitation and innovation grants are awarded through a national 
competition among the detailed project proposals submitted to the NPS. 
These are evaluated and ranked by a national panel and recommendations 
made to the Director of the National Park Service for selection.
    Question. The request proposes funding these urban recreation 
grants in lieu of the existing $5 million Stateside Competitive Grant 
program, while it continues to fund $40 million for Stateside formula 
grants. Can you please explain what is different about this urban parks 
program compared to the Stateside competitive grant program? What is 
the administration hoping to achieve with this proposal?
    Answer. There are a number of key differences between the UPARR 
program and the previously proposed, but never enacted, Land and Water 
Conservation Fund (LWCF) State Competitive program. Chief among them is 
that the LWCF State Competitive program proposal focused on the three 
core America's Great Outdoors (AGO) priorities which included 
increasing and improving recreation access and opportunities in urban 
parks and community green spaces, increasing public access to rivers, 
and catalyzing large landscape partnership projects. The UPARR program 
is consistent with the AGO priorities, but has a more targeted approach 
in that it focuses exclusively on rehabilitating existing facilities in 
core urban areas. Last, LWCF competitive grants were intended to be 
available to States and through States to any local unit of government 
whereas UPARR grants are specifically targeted to the most economically 
distressed urban cities and counties across the country.
    With regard to the goals that the administration hopes to achieve, 
the UPARR program is intended to help stimulate the revitalization of 
urban park and recreation opportunities by promoting a unified approach 
to addressing urban recreation through coordination and partnership 
among different levels of government and the private sector. By doing 
so the administration hopes to create a robust system of urban parks 
that can contribute to the accomplishment of high priority national 
goals to improve and encourage health living, redevelop economically 
depressed urban cores, and revitalize and create livable urban 
communities.
    The President's budget request includes $10 million for the UPARR 
program; additionally a proposal to fund a portion of recreation grants 
from the LWCF as a permanent appropriation will provide an additional 
$5 million for UPARR grants. The budget also requests $40 million for 
the Stateside program with an additional $20 million included in the 
permanent LWCF appropriation proposal. Competitive Stateside grants are 
not proposed for funding in the President's budget request.
                             sequestration
    Question. Secretary Jewell, can you give us more detail about what 
visitors to the parks and other Federal lands should expect this summer 
as a result of sequestration? What are some specific examples of the 
tough choices that you have already been forced to make?
    Answer. As a result of the sequester, many parks are not filling 
vacancies and are retaining fewer seasonal employees. Consequently, 
these parks will experience reduced visitor services and hours of 
operation, shortened seasons, and closing of park areas when there is 
insufficient staff to ensure the protection of visitors, employees, 
resources and Government assets. Some specific examples include:
  --Great Smoky Mountains National Park (NP) will close three remote 
        campgrounds and two picnic areas, affecting 54,000 visitors;
  --Mount Rainier NP will close the Ohanapecosh Visitor Center, 
        affecting 60,000-85,000 visitors;
  --Catoctin Mountain Park will close its only visitor center 50 
        percent of the time;
  --Blue Ridge Parkway will cut 21 seasonal interpretive ranger 
        positions, affecting 584,000 visitors and resulting in the 
        closure of 10 developed areas, which is nearly a third of its 
        developed areas and creates a 50-mile distance between open 
        facilities which limits contacts with park staff;
  --Jewel Cave National Monument and Wind Cave NP, both located in 
        southwestern South Dakota, will each discontinue approximately 
        35 percent of cave tours daily in the high season;
  --Natchez Trace Parkway will close 14 comfort stations two days per 
        week, and four comfort stations for the entire 2013 season, 
        affecting more than 200,000 visitors. Colbert Ferry Visitor 
        Center and Rocky Springs Visitor Center will remain closed for 
        the 2013 season; and
  --Yosemite NP will do less frequent trash pickup, have fewer 
        campground staff, and place a reduced focus on food storage 
        violations, all of which contribute to visitor safety concerns 
        and increased bear mortality rates. This will reverse the 
        progress the park has made since 2000 to reduce bear incidents 
        by 90 percent as well as the cost of damage from bear incidents 
        by 42 percent.
                              ellis island
    Question. The National Park Service has announced that the Statue 
of Liberty will reopen on July 4 this year, but it does not appear that 
the Service has established any timeframes for the reopening of Ellis 
Island. Does the National Park Service have a specific plan, including 
a timetable, for the public reopening of Ellis Island National 
Monument? If so, will you please share that plan with the committee and 
please tell the committee whether or not the public has access to the 
plan? If the Service has not yet settled on a plan, when will such a 
plan be developed? When will the public be able to participate in its 
development?
    Answer. Plans to reopen Ellis Island to the pre-Sandy visitor 
experience depends upon the re-establishment of utilities, primarily 
electricity, and replacement of building systems, including HVAC, 
plumbing, telecommunications, as well as the re-installation of 
artifacts in exhibits at Immigration hall. Engineers have been 
developing plans to provide a sustainable long term solution for 
utilities that are vulnerable to flooding and water damage from future 
storm events. We anticipate concepts of the engineering plans to be 
complete within the next month; when the engineering plans are final, a 
firm timetable to re-open Ellis Island to visitors can be considered.
    Question. Complicating the matter for both the Statue of Liberty 
and Ellis Island is the issue of security. The main security screening 
facility, which was located in Battery Park in Manhattan, was lost in 
the hurricane. I understand that there is some discussion of erecting a 
``temporary'' facility on Ellis Island, similar to the ``temporary'' 
facility that was used in Battery Park for a decade. Does the Service 
currently have a plan for building a security screening facility on 
Ellis Island? If so, please tell the committee the location and nature 
of the structure. If such facility is considered temporary, what is the 
Service's current thinking is with respect to a long-term option for 
security screening at the Statue of Liberty and Ellis Island?
    Answer. Earlier plans to conduct security screening on Ellis Island 
have been superseded by new plans to return security screening to 
temporary facilities at both Battery Park and Liberty State Park. The 
National Park Service continues to work with our partners to find and 
commit to a long term, permanent option for security screening.
    Question. Will any of the Ellis Island funding provided in the 
recent Sandy supplemental bill (113-6) be used to re-stabilize the 
buildings on the ``south side''? If so, please provide the details of 
those expenditures.
    Answer. Supplemental funding will be used to repair and 
rehabilitate all visitor facilities that were operating prior to 
Superstorm Sandy. The NPS has planned $75.5 million for projects at the 
Statue of Liberty National Monument, which includes Ellis Island. The 
specific projects, and the individual cost estimates, are included in 
the table below. Funding levels for projects will be refined as 
planning and design gets underway and sequestration reductions are 
applied.

                HURRICANE SANDY NPS CONSTRUCTION PROJECTS
                    Statue of Liberty National Monument
------------------------------------------------------------------------
                                                          Amount   ($ in
                      Project Title                          millions)
------------------------------------------------------------------------
Demolish Three Houses and Rehabilitate Two Structures                0.6
 for Mission Critical Support Requirements..............
Remove Estimated 3.3 Tons of Hazardous Debris from the               3.1
 Main Buildings.........................................
Repair Storm Damage at Liberty Island Dock, Pier and                22.3
 Ferry Slip.............................................
Restore Concrete Foundation for Office Trailer Marina                0.1
 Unit for Park Police...................................
Repair Flood Damage in Basement at Concession Building               1.7
 #38....................................................
Repair Damage to Heat, Utilities, Mechanical, and                   19.2
 Electrical Systems at Main Immigration Building........
Repair Storm Damage to Liberty Island Temporary Retail               0.2
 Pavilion...............................................
Repair Storm Damage to Heat and Utilities at Liberty                 4.6
 Island.................................................
Ellis Island Emergency and Long Term Museum Collections              1.7
 Protection Conservation and Storage....................
Replace Destroyed Administrative Equipment, Furnishings              0.5
 and Data Systems.......................................
Repair Storm Damages on Ellis Island and to the Statue               0.1
 Mall and Plaza.........................................
Repair Sections of Brick Paved Walkway, Handrail System              2.7
 and Granite Seawall at Liberty Island..................
Repair Damages to the Administrative, Maintenance and                3.7
 Support Buildings......................................
Replace Flood Destroyed Equipment and Security Screening             9.3
 Tents With Temporary Facilities at  Ellis Island.......
Replace Diesel Generators and Restore Interim Emergency              1.8
 Utility and Heating System.............................
Replace Equipment and Ancillary Attachments.............             0.8
Replace Damaged Fuel Oil System With Natural Gas Main at             3.1
 Liberty Island.........................................
                                                         ---------------
      Total.............................................            75.5
------------------------------------------------------------------------

    Question. Does the Service currently have any plans to open the 
assets on the south side of Ellis Island to the public?
    Answer. The buildings and grounds on the south side of Ellis Island 
are not suitable for public visitation due to their condition. The 
National Park Service continues to work with its partners to produce a 
long term plan for the rehabilitation of the south side and access by 
the visiting public.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                              fire funding
    Question. It is my understanding that the President's fiscal year 
2014 budget request for Hazardous Fuels Reduction for the Department of 
the Interior (DOI) Office of Wildland Fire is reduced by $88.9 million. 
This is a 48 percent cut in funding for the program. The DOI Office of 
Wildland Fire supports fire programs within the Bureau of Land 
Management, National Park Service, Fish and Wildlife Service, and 
Bureau of Indian Affairs, which represent a huge amount of Federal 
lands across the country.
    Could I get some examples or description as to how the four bureaus 
successfully used this funding in previous years?
    Answer. Hazardous Fuels Reduction (HFR) funding is used to plan, 
implement, and monitor fuels reduction treatments and conduct community 
assistance activities. Hazardous fuels treatments remove or modify 
wildland fuels (both living and dead vegetation) to reduce the risk of 
wildfire to communities and their values. Community assistance is 
provided in the form of community education, collaborative planning, 
and activities to reduce human-caused ignitions.
    From fiscal year 2002 through fiscal year 2012, DOI treated on 
average approximately 1.3 million acres of hazardous fuels annually 
across the four Bureaus. The Bureaus design and implement fuels 
treatment activities that are aimed at reducing fire severity, 
modifying fire behavior, and/or restoring ecosystem health. Examples of 
treatments that have achieved one or more of these objectives are 
numerous and evident across the Nation.
    Below are some specific examples and recent activities:
  --Between 2002 and 2009, the Bureau of Indian Affairs implemented a 
        series of prescribed fire treatments located on the boundary of 
        the Fort Apache Indian Reservation that proved effective in 
        controlling the spread of the 2011 Wallow Fire.
  --Fuel breaks established since 2005 have either stopped or helped 
        suppress several past large fires in southeastern Oregon, 
        particularly around the towns of Rome and Arock.
  --In fall 2012, fire crews completed the 22-acre Lodge prescribed 
        fire adjacent to the John Muir Lodge in Sequoia-Kings Canyon 
        National Park. The project provided critical fuels reduction 
        next to the lodge and for the Grant Grove area.
  --Nevada Bureau of Land Management's (BLM's) recently completed the 
        1,080-acre Upper Colony II Fuels Treatment Project, on the 
        eastern slope of the Pine Nut Mountains, moderated fire 
        intensity and slowed the rate-of-spread of the 2012 Burbank 
        fire.
  --In 2012, the Tract G Fuel Break prevented community and wildfire 
        risks by stopping a wildfire from burning on to refuge land and 
        neighboring private property in the vicinity of the Sacramento 
        National Wildlife Refuge.
  --Also in 2012, two prescribed fires at the Grand Canyon National 
        Park reduced the heavy build-up of dead and down vegetation in 
        both burn units, decreasing the risk of extreme fire behavior 
        in the future, especially along Highway 67, the North Rim's 
        primary exit route.
    Question. Will this reduction in funding for Hazardous Fuels 
Reduction make communities more at risk?
    Answer. The Department's commitment to fully fund the 10-year 
suppression average, which required a $205.1 million increase over the 
2012 enacted level, and other priority investments, impacted the 
funding available for other important programs. The Department's 2014 
budget decisions were made in the context of a challenging fiscal 
environment.
    The Wildland Fire Management program's primary objective is to 
protect life and property, and this is achieved by fully funding the 
suppression 10-year average and maintaining our initial and extended 
attack firefighting capability at current levels. The 2014 request does 
this by funding Preparedness at the 2012 enacted level, as adjusted for 
fixed costs.
    The planned Hazardous Fuels Reduction program for fiscal year 2014 
represents the most effective use of available funds. High priority 
projects will be completed in high priority areas with the goal of 
mitigating wildfire risks to communities.
                    land and water conservation fund
    Question. I want to commend your administration's continued 
commitment to the Land and Water Conservation Fund (LWCF) and to 
ensuring that it is used for its intended purposes. I applaud you and 
the President for your foresight and strong support for LWCF funding in 
the fiscal year 2014 budget.
    In New Mexico, our experience is that our public lands are enormous 
economic engines with substantial local community support. LWCF plays a 
key role in ensuring the viability of our public lands--by securing 
access to hunting, fishing and other recreation lands, protecting 
important historic and cultural sites, and ensuring water supply and 
watershed restoration.
    As you seek to address the many pressing needs of the Department of 
the Interior, how do you see the role of LWCF funds in supporting local 
economic needs, in addressing agency management challenges, and in 
providing a conservation solution to community needs?
    Answer. The 2014 budget represents an unprecedented commitment to 
America's natural heritage by proposing $200 million in mandatory funds 
out of $600 million overall for LWCF programs in 2014. Starting in 
2015, the budget proposes $900 million annually in mandatory funding, 
which is equal to the amount of oil and gas receipts deposited in the 
LWCF each year. This funding will provide stability needed for agencies 
and States to make strategic, long-term investments in our natural 
infrastructure and outdoor economy to support jobs, preserve natural 
and cultural resources, bolster outdoor recreation opportunities, and 
protect wildlife. The Land and Water Conservation Fund is an important 
tool for supporting conservation and recreation priorities in 
communities throughout the country. Through direct Federal investments 
and grants to States and local governments, LWCF supports a wide range 
of community needs related to conservation, recreation, and strong 
rural economies and working lands. The fund also enables bureaus to 
address land management challenges through strategic acquisition of 
inholdings or parcels that solve resource management challenges. The 
Department's LWCF programs work in cooperation with local governments 
and communities, rely on willing sellers for acquisitions, and maximize 
opportunities to partner with private landowners on conservation 
easements. The Department and bureaus use rigorous merit-based 
selection processes to identify projects that will make the greatest 
contribution to meeting outcome-based goals. All of these factors help 
ensure that LWCF funds are targeted to high priority projects and are 
aligned with and supportive of community priorities, including local 
economic needs.
    A total of $243.8 million, 41 percent of the administration's 2014 
LWCF request, would fund grants to States for conservation and 
recreation through grant programs run by the Forest Service, the 
National Park Service, and the Fish and Wildlife Service. The LWCF 
State Grants Program provides matching grants to States and local 
governments for the acquisition and development of public outdoor 
recreation areas and facilities. The program helps to create and 
maintain a nationwide legacy of high quality recreation areas and 
facilities and to stimulate non-Federal investments in the protection 
and maintenance of recreation resources across the country. The 
Cooperative Endangered Species Conservation Fund (CESCF) grants provide 
funds to States to work with private landowners, conservation 
organizations, and other partners to protect and conserve the habitat 
of threatened and endangered species. The Urban Park Recreation and 
Recovery Program (UPARR) provides matching grants to select physically 
and economically distressed urban communities to revitalize and improve 
recreation opportunities.
    A total of $356.2 million, accounting for the other 59 percent of 
the administration's LWCF request, would support land acquisition. Land 
acquisition funds are used to secure access for the American public to 
their Federal lands. These funds invest in acquisitions to better meet 
recreation access needs by working with willing landowners to secure 
rights-of-way, easements or fee simple lands that provide access or 
consolidate Federal ownership so that the public has unbroken spaces to 
hike, hunt, and fish. The administration's highly strategic approach to 
using LWCF land acquisition funds includes the Collaborative LWCF 
initiative. This new program brings Federal agency staff together with 
local stakeholders to identify opportunities where LWCF funds can be 
used to achieve the most important shared conservation outcome goals in 
the highest priority landscapes. Conserving large scale landscapes 
provides multiple resource and economic benefits to the public 
including cleaner drinking water, recreational opportunities, reduced 
wildlife risks, protected habitat for at-risk and game species and jobs 
generated on and off these lands. The Collaborative LWCF program seeks 
to fund the best opportunities to leverage other Federal resources, 
along with those of non-Federal partners, to support conservation goals 
driven by the best science and a shared community vision for the 
landscape.
    The Department has worked to identify LWCF investments which would: 
support simpler, more efficient land management; create access for 
hunters and anglers; create long-term cost savings; address urgent 
threats to some of America's most special places; and support 
conservation priorities that are set at the State and local level.
Reduced Costs for Land Management
    LWCF funds would be used to acquire parcels that make it easier and 
less costly to manage existing public lands. Far from raising operating 
costs, the acquisition of inholdings can reduce maintenance and 
manpower costs by reducing boundary conflicts, simplifying resource 
management activities, and easing access to and through public lands 
for agency employees and the public.
Access for Hunting and Fishing and Recreation
    Participants in the America's Great Outdoors listening sessions 
made it clear that access to our Nation's lands for all kinds of 
recreation--in particular hunting and angling--is a national priority. 
This LWCF request would fund strategic acquisitions that improve access 
to public lands for sportsmen and women.
Economic Benefits for Communities
    Investing in healthy ecosystems pays off for the Federal 
Government, local communities and taxpayers. Timely acquisition of 
important natural areas today can help avoid much higher costs to 
taxpayers in future years by protecting water supplies, important 
species habitat, recreational and cultural sites, and other natural 
resources with economic value to the public.
Protection From Urgent Threats
    LWCF funds are used to acquire lands that are in imminent danger 
from industrial or residential development. Civil War and Revolutionary 
War battlefields, for example, are the hallowed ground of our Nation's 
history; preserving these lands as parks for the American public 
prevents an irreparable loss.
Supporting Local Priorities
    Federal acquisition projects are planned collaboratively with local 
stakeholders, and often depend on significant support of State or local 
government, or of locally based nonprofit partners. These partners 
sometimes act as intermediary landowners, holding land temporarily to 
protect it from development until the Federal Government can secure the 
funds to assume ownership.
         price's dairy (valle del oro national wildlife refuge)
    Question. I know that you are a strong advocate of ensuring that 
residents of our cities and urbanized counties have access to outdoor 
recreation close to home and opportunities for healthy lifestyle.
    With that in mind, I wanted to make sure you are aware of an 
ongoing Departmental priority project underway in the Albuquerque area 
that hits all those marks. I am referring to the Price's Dairy project 
at Valle de Oro National Wildlife Refuge, the first urban refuge in the 
Fish and Wildlife Service's southwest region and one of the 50-State 
America's Great Outdoors (AGO) projects. This is a highly leveraged, 
truly locally driven project--one that the community has been working 
on for over 10 years. I am very pleased that the final funding needed 
to complete this project is included as part of the Department's fiscal 
year 2014 budget proposal. However, I would note that the landowner 
agreement expires in July 2014, so it is absolutely critical that the 
Department work with us to ensure that this project is completed along 
that timeline. I note that last year the project was ranked #5 on the 
agency's priority list, but this year it is ranked last at #18. 
Hopefully that is not an indication of flagging enthusiasm or lack of 
desire to get this project done.
    Will you work with me to ensure this AGO project is completed this 
year?
    Answer. Completion of the last phase of the Valle de Oro National 
Wildlife Refuge acquisition remains a Departmental priority project, 
and it is our intention to complete the project providing Congress 
appropriates enough funding for this acquisition. Funds would be used 
to acquire fee title to the final portion of this 570-acre refuge 
located along the El Camino Real de Tierra Adentro National Historic 
Trail, just a few miles from downtown Albuquerque.
    The Valle de Oro refuge has received a huge outpouring of community 
support and the Service has maintained its support for the acquisition. 
To honor commitments made to the landowner, the community, and 
partners, the budget request includes $6 million of Federal funds as 
part of the Collaborative Landscape Planning initiative to complete the 
project in fiscal year 2014.
                           blm pilot offices
    Question. In March I visited the Bureau of Land Management (BLM) 
office in Carlsbad, New Mexico, to learn about the importance of their 
status as a ``Pilot Office.'' As you know, the 2005 Energy bill 
designated several pilot offices to receive extra resources to expedite 
permit processing and conduct much-needed environmental oversight. 
These offices are already understaffed and overworked, so I committed 
to ensure that this program would be reauthorized in 2015 when it 
expires. I am pleased to see in your budget proposal that you are 
proposing to reauthorize this successful authority. I am also pleased 
that you are proposing to build in more flexibility--for example, the 
ability to shift resources to offices like Carlsbad that are in the 
middle of a boom would be helpful. We'd want to be sure that the 
flexibility is fair, but I appreciate this option.
    Can you provide any more details on what you expect to do and how 
we can work to ensure this happens?
    Answer. The BLM would like to work with the Congress on language 
that would allow greater flexibilities nationwide to adjust permitting 
resources based on demand. There are many BLM field offices that are 
not part of the pilot project, but are receiving hundreds of 
Applications for Permit to Drill (APDs) per year. Of the 10 field 
offices that received the most APDs during fiscal year 2012, only 5 are 
currently designated as pilot project offices. For example, in fiscal 
year 2012, the Pinedale Field Office in Pinedale, Wyoming, received 325 
APDs; the Bakersfield Field Office in Bakersfield, California, received 
286 APDs; and the Oklahoma Field Office in Tulsa, Oklahoma, received 
157 APDs. Although these offices have received high volumes of APDs, 
none are currently designated as pilot project offices. At the same 
time, some of the currently designated pilot project offices have 
received relatively few APDs in recent years; for example, the Miles 
City, Montana, Field Office received only 55 APDs in fiscal year 2012.
                       parks and river management
    Question. The Bureau of Reclamation's ``Colorado River Basin Water 
Demand and Supply Study'' does an excellent job of describing the 
challenges in meeting water supply needs, but it does very little to 
describe or assess the needs of the National Park Service to meet its 
obligations to protect its river ecosystems.
    Most park units in the Colorado River basin and other river basins 
lack protection for the waters flowing through park boundaries and that 
in most cases, park units in the Colorado River basin and other river 
basins do not have management plans to provide for sound management of 
water resources within parks.
    Is it possible to create a planning effort to ensure that the 
National Park Service (NPS) can substantively participate in policy 
discussions about water management that may have profound impact on 
national park resources?
    Answer. The Office of the Secretary works collaboratively with the 
bureaus to ensure that water management planning is effective. The NPS 
has made recent strides in this arena in the past few years, but many 
challenges remain to address the major concerns facing the Colorado 
River.
    The NPS provides technical expertise through its Water Resources 
Division (WRD) to park units on water issues. WRD has been instrumental 
in conducting scientific studies and monitoring, participating in 
processes related to dam operations, negotiating tribal water issues, 
and working with States to protect flows in places such as Black Canyon 
of the Gunnison National Park. The NPS also has been active in 
multiagency processes such as the Upper Colorado River Endangered Fish 
Recovery Program. In 2001, the NPS created the Colorado River Basin 
Parks Program to better ensure effective coordination and active 
participation in multiagency and multistate efforts to protect park 
resources. These collaborative, multi-stakeholder efforts are overseen 
by a Steering Committee, Technical Committee, and a Colorado River 
Coordinator.
    Currently, the NPS is working to address the scientific information 
gaps, strategic planning needs, and targeted issues within the basin 
such as aquatic invasive species.
    The NPS regularly engages in planning efforts, such as invasive 
aquatic species management in Lake Mead and Glen Canyon National 
Recreation Areas, partnerships for flow management for Grand Canyon 
National Park, and monitoring of headwaters in Rocky Mountain National 
Park, which are designed to protect natural and cultural resources 
throughout the Colorado River basin, and to ensure continued outdoor 
recreational opportunities that are important to local and regional 
economies in the Western States. Though these plans were sufficient to 
respond to more localized past challenges, they lack the system-wide 
integration and detailed scientific data needed to effectively respond 
to more widespread current challenges. The Colorado River Basin Parks 
Program Steering Committee has identified research needs related to 
stream gaging, sediment transport, riparian vegetation, and aquatic 
communities necessary to inform management decisions that address many 
of these issues. Some of this data collection has begun and other 
projects will be instated as funds become available.
    Question. How can the Department of the Interior ensure that the 
National Park Service is an active partner in water management 
decisions that impact Park Service resources?
    Answer. The NPS has established itself well in the last several 
years as a collaborative partner and an active participant in several 
ongoing multiagency processes, including the WaterSMART program, which 
was established in 2010. WaterSMART allows all bureaus within the 
Department to work with States, Tribes, local governments, and non-
governmental organizations to pursue a sustainable water supply for the 
Nation by establishing a framework to provide Federal leadership and 
assistance on the efficient use of water, integrating water and energy 
policies to support the sustainable use of all natural resources.
    The NPS participates in on-going collaborative efforts regarding 
dam operations, including the development process of the Glen Canyon 
Dam Long Term Experimental and Management Plan, for which it is a co-
lead with the Bureau of Reclamation. In developing the plan, the NPS 
and Bureau of Reclamation are re-operating the dam to achieve better 
compliance with the Grand Canyon Protection Act. The NPS also works 
with the coordination and healthy flows teams to support follow-up 
actions for the Colorado River Basin Water Demand and Supply Study.
    This active participation has worked best when NPS staff has been 
engaged in discussions at the local level as well as at the 
Departmental level. For example, in the High Flow Experiment Planning 
for Glen Canyon Dam in 2010-2011, discussions were successful because 
of input and involvement of both the Assistant Secretary for Water and 
Science, and the Assistant Secretary for Fish and Wildlife and Parks. 
In addition, NPS is an active partner at both the local and Department 
level with respect to aquatic invasive species that impact both park 
resources and water management. As discussed in the response to the 
previous question, the NPS has a Division of Water Resources within the 
Natural Resource Stewardship and Science directorate, which includes 
technical experts on hydrology, wetlands, water rights, and water 
quality. These water resource professionals collaborate with the 
Department and its bureaus to ensure water management decisions include 
protection of National Park resources.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                             king cove road
    Question. I worked with Secretary Salazar on the agreement 
involving the King Cove road reflected in the Secretary's memorandum of 
March 21. The Department, led by the Assistant Secretary for Indian 
Affairs, will take a second look at a land exchange in Izembek National 
Wildlife Refuge with the community of King Cove and the State of 
Alaska. Approval of the land exchange would allow a one-lane, gravel 
road to connect King Cove with the all-weather airport in Cold Bay. 
Under this agreement, the Interior Department will look at whether the 
Environmental Impact Statement (EIS) by the Fish and Wildlife Service 
adequately considered the importance of protecting the human health and 
safety of the residents of King Cove. The review will also include an 
evaluation of the Department's trust responsibilities, and Government-
to-government consultations with local Aleut groups.
    What is the status of this review?
    Answer. Tribal consultation was held in King Cove on Friday, June 
28, 2013, from 5:00-7:00 p.m. at the King Cove Community Center. Kevin 
Washburn, the Assistant Secretary for Indian Affairs, toured the King 
Cove area to assess the medical evacuation benefits of the proposed 
road and will provide the Secretary, following consultation with other 
Federal partners, with a written report that addresses the medical 
evacuation benefits of the proposed road as well as whether and to what 
extent the road is needed to meet the medical emergency requirements of 
King Cove.
    Question. I am glad that you will visit King Cove prior to a final 
decision on this issue. I understand Assistant Secretary Washburn will 
be visiting comparatively soon. Can you tell me when you expect to 
reach a decision?
    Answer. No specific time has been set for the Secretary to issue a 
final decision on the Izembek National Wildlife Refuge, Land Exchange/
Road Corridor. The full Departmental record will be considered in 
rendering a final decision. The Secretary's final decision will be 
informed by:
  --The U.S. Fish and Wildlife Environmental Impact Statement;
  --The Assistant Secretary of Indian Affairs' written report to the 
        Secretary that addresses the medical evacuation benefits and 
        whether and to what extent the proposed road is needed to meet 
        the medical emergency requirements of King Cove; and
  --A site visit to King Cove by Secretary Jewell which is expected 
        later this year.
  bureau of ocean energy management/bureau of safety and environmental 
                   enforcement new arctic regulations
    Question. I understand that the Bureau of Ocean Energy Management 
(BOEM) is in the process of developing Arctic-specific regulations for 
the exploration and development of Alaska's Outer Continental Shelf 
(OCS) oil and gas resources. As you know, exploration has been delayed 
in large part because of the regulatory uncertainty surrounding oil and 
gas projects in the Arctic OCS.
    What is the timeline for the development of these regulations?
    Answer. The Department of the Interior (DOI), Assistant Secretary, 
Land and Minerals Management, directed BOEM and the Bureau of Safety 
and Environmental Enforcement (BSEE) to form a team of subject matter 
experts to improve safety standards for exploration, development, and 
production operations occurring in the Alaska OCS. The Department's 
goal is to have proposed Alaska OCS regulations published in the 
Federal Register by the end of 2013.
    Question. Is it your intent to have these regulations in place in 
time for a 2014 drilling season?
    Answer. We intend to have the regulations finalized before the 2014 
drilling season. As part of the process, DOI held Listening Sessions to 
obtain public comments in Anchorage and Barrow, Alaska, on June 6 and 
7, respectively. We anticipate developing a performance-based approach 
that will fully inform BOEM and BSEE how lessees plan to achieve safe 
operations under the operating conditions likely to be experienced 
while drilling and while transporting equipment into and out of the 
Alaska operating theater.
    Question. Though ConocoPhillips and Statoil have announced that 
they will not pursue exploration programs in 2014, Shell has not made a 
similar announcement. How do you intend the new regulations to impact 
and/or be incorporated into Exploration Plans and Oil Spill Response 
Plans for 2014?
    Answer. The focus of the new regulations is to improve safety 
planning early in the process of developing Exploration Plans (EPs) and 
Development and Production Plans (DPPs). In accordance with 30 CFR 
550.202(b), EPs and DPPs must demonstrate the lessees have planned and 
are prepared to conduct proposed activities in a manner that is safe. 
The regulations will emphasize the need for an integrated, overarching 
safety plan as a condition for approval of Alaska OCS operations. Each 
lessee will need to show BOEM and BSEE they are fully prepared to 
conduct the proposed activities, including mobilization and 
demobilization operations, in a manner that is safe and protective of 
the environment.
    Question. I also understand that the Department is updating its 
regulations for the oil and gas air quality program to incorporate 
their new authority over the Arctic contained in the fiscal year 2012 
Interior Appropriations bill, so I will ask the same questions as I did 
for the pending Arctic-specific regulations.
    What is the timeline for the development of these regulations? Is 
it your intent to have these regulations in place in time for a 2014 
drilling season? How will these regulations impact 2014 Exploration 
Plans?
    Answer. BOEM and BSEE are already engaged in the development of the 
proposed Alaska OCS regulations. Public outreach efforts in the form of 
Listening Sessions were held in Anchorage and Barrow, on June 6 and 7, 
respectively. Public comments are also being accepted through 
Regulations.gov (docket number BOEM-2013-0035). BOEM and BSEE held more 
detailed meetings with industry, non-governmental organizations, the 
State of Alaska, local government, and Native Alaskans and Tribes in 
Anchorage on June 17 through 19. The purpose of these follow-up 
meetings was to obtain a more comprehensive understanding of concerns 
and criteria for consideration in the proposed rules. Comments will be 
used to develop the scope of the Alaska OCS regulations and identify 
appropriate issues applicable for BOEM and BSEE oversight to ensure 
safe and responsible oil and gas exploration, development, and 
production on the Alaskan OCS.
    BOEM and BSEE will develop draft regulation language that addresses 
issues and goals identified during the comment period. The proposed 
Alaska OCS regulations will be published in the Federal Register, and 
stakeholder input will again be solicited. It is anticipated the draft 
rules will be published by the end of the year.
    Question. How will the new regulations differ from the existing 
regulations? Will there be any difference in how the Department 
regulates air quality in the Gulf of Mexico versus in Alaska? If yes, 
why and how will the programs differ?
    Answer. At this time, BOEM is still obtaining stakeholder input and 
reviewing existing regulations. Until this analysis is complete, it is 
not clear what, if any, differences in regulations between the regions 
will be needed. The bureau can provide more details as the draft rule 
is developed.
               national marine fisheries--arctic ocs eis
    Question. BOEM has worked with the National Marine Fisheries 
Service (NMFS) on the EIS for the impacts of oil and gas activities in 
the Beaufort and Chukchi Seas. I continue to believe there are major 
problems with this document, including development alternatives that 
are not realistic and the lack of participation from relevant agencies.
    The Fish and Wildlife Service expressly declined to participate in 
the EIS, yet the EIS still analyzes impacts to polar bears and Pacific 
walruses--species the Service has trust responsibility over. Why was 
this approach taken? Will these species be removed from the next draft? 
If not, please explain why not.
    Answer. The Service declined to be a cooperating agency on the 
Arctic EIS in 2010 because it had recently completed an Environmental 
Assessment (EA) on the effects of oil and gas activities in the Chukchi 
and Beaufort Seas on polar bears and Pacific walruses in conjunction 
with issuing Marine Mammal Protection Act Incidental Take Regulations 
(ITRs). The potential effects of oil and gas activities on polar bears 
and Pacific walruses had been adequately addressed in the ITRs and 
effectively considered in the EAs. Additionally, other existing program 
commitments precluded the degree to which the Service could be 
involved. Instead, the Service offered to provide copies of these EAs 
and informal review and comment on the Draft EIS. Since then, the 
Beaufort Sea EA was updated in 2012 and the Chukchi Sea EA was recently 
updated in conjunction with finalization of the 5-year Chukchi Sea ITRs 
that are to be published in the Federal Register in the near future. 
These EAs are made publically available. In addition, the Service is 
currently reviewing the Draft EIS and, as appropriate, will provide 
feedback to National Marine Fisheries Service.
    Although the Service cannot speak on behalf of NMFS, the National 
Environmental Policy Act's procedures are intended to ensure that 
information about potential environmental impacts of an agency's 
proposed and alternative actions are made available and considered in 
the decisionmaking process and both the polar bear and Pacific walrus 
occur in the area of the Arctic EIS.
    Question. The new draft also appears to cap each company to one 
drilling rig at a time per sea. This is inconsistent with Exploration 
Plans previously submitted and approved by BOEM. Is it BOEM's intent to 
limit exploration in this way? If it is, what is BOEM's rationale for 
the change of course? (This would be extremely problematic given the 
short exploration season and would, at best, severely delay/restrict 
exploration and, at worst, lead to project abandonment.) If it isn't, 
will BOEM clarify this point in the next draft?
    Answer. NMFS served as the lead agency for preparation of the Draft 
Supplemental EIS (SEIS), with BOEM as a formal cooperating agency, 
along with the North Slope Borough of Alaska. The purpose of the Draft 
SEIS is to analyze the potential environmental impacts of seismic and 
exploration activities for the purpose of informing NMFS's decisions 
regarding authorizations for the incidental take of marine mammals 
under the Marine Mammal Protection Act.
    As for BOEM's intended use of the Draft SEIS, the information will 
be used, as appropriate, for environmental analyses to inform BOEM's 
own decisions for specific projects, just as other relevant information 
contained in National Environmental Policy Act (NEPA) documents is 
considered. Moreover, it is important to note that a NEPA document is 
not a decision document; it is merely an analysis of potential 
environmental impacts associated with particular activities.
    The alternatives included in the Draft SEIS were prepared based on 
the best information available at the time for recent Federal and State 
lease planning, and recent industry plans, for both seismic surveys and 
exploratory drilling programs in the Beaufort and Chukchi seas. The 
seismic and exploration activities analyzed in the Draft SEIS are not 
limited to one drilling unit at a time per company. The alternatives 
analyzed in the Draft SEIS consider up to four drilling ``programs'' 
operating in each sea at one time. For analysis in the EIS, one 
``program'' entails however many surveys or exploration wells a 
particular company is planning for that season. Each ``program'' would 
use only one source vessel (or two source vessels working in tandem) or 
drilling unit (i.e. drillship, jackup rig, SDC, etc.) to conduct the 
program and would not survey multiple sites or drill multiple wells 
concurrently.
    Question. I was also surprised to see that the new draft appears to 
have no timeline--for example, the last draft covered a 5-year period, 
this draft does not. Is there precedent for an ``infinite'' 
environmental document? What was the rationale for an open-ended 
document? What would be the result if more operators pursue their 
leases than the alternative selected analyzes? How do you plan to 
ensure that this document is not a back door way to limit exploration 
in the Arctic?
    Answer. A timeline is not relevant to the purpose of the document, 
which is to provide an analysis of the potential environmental impacts 
of a reasonable range of OCS activities.
    Based upon past lease sales, geological and geophysical (G&G) 
permits, ancillary activity notices, exploration drilling exploration 
activities, and requests for incidental take authorizations, NMFS and 
BOEM have determined a reasonable range and level of activities for 
which permits and authorizations may be requested in the foreseeable 
future. While the level of activity proposed may vary from 1 year to 
the next, the action alternatives represent a reasonable range of 
exploration activities for which permits and authorizations may be 
expected. Also, the Draft Supplemental EIS does not serve as a decision 
document but rather is used to analyze possible environmental impacts 
associated with particular activities.
                    oil/gas development public lands
    Question. The budget request includes what it calls ``Federal Oil 
and Gas Reforms.'' These consist of a host of changes in three areas--
royalties, development of oil/gas leases, and improving the revenue 
collection process. They all share one thing in common--they will make 
our Federal lands less competitive to industry, which increasingly has 
other alternatives on State and private lands here in the United 
States, or globally. For example, you are proposing a $6 per acre fee 
on nonproducing leases even though it takes years to bring leases to 
production--usually because of permit or other regulatory delays caused 
by the Federal Government. You also propose ``adjusting royalty rates'' 
which I can only imagine means increasing them since you claim that 
these ``reforms'' will generate $2.5 billion over the next 10 years for 
the Treasury.
    On April 17 the House Resources Committee held a hearing comparing 
oil/gas production on State lands vs. Federal lands. One of the major 
differences they found was that it takes the BLM 307 days on average to 
approve a drilling permit--nearly double the time it took in 2005. On 
State lands, processing times are 12-15 days.
    Won't increasing royalties, charging new inspection fees on top of 
the fee that you already charge for processing a permit, and a new fee 
on so-called ``non-producing leases'' only make our Federal lands less 
competitive compared to the States?
    Answer. Federal oil and gas production is an important component in 
fulfilling our Nation's energy needs and the Department has an 
obligation to the public to ensure a fair return on that production. 
The Department deems the proposed changes necessary to ensure this fair 
return and do not believe they will make Federal lands less competitive 
compared to the States. Onshore Federal oil and gas royalty rates, 
which are currently 12.5 percent, are lower than most States' royalty 
rates. For example, Montana, Wyoming, Utah, and Colorado all have a 
royalty rate of 16.67 percent for State leases. North Dakota has an 
18.75 percent royalty rate, and New Mexico has various rates that are 
as high as 20 percent.
    The administration believes that American taxpayers should get a 
fair return on the development of energy resources on their public 
lands. We feel industry should pay the cost of inspecting and 
monitoring oil and gas activities, as is the case for other industries, 
including offshore oil and gas. This is consistent with the principle 
that the users of the public lands should pay for the cost of both 
authorizing and oversight activities.
    The Department's intent behind the proposed fee on non-producing 
leases is to encourage more timely development of Federal lands. The 
fee will provide an incentive for oil and gas companies to either put 
their leases into production or relinquish them so the Department can 
re-lease those tracts to companies who want to develop them. Many 
States also have similar fees (e.g., escalating rental rates) to 
encourage development. Therefore, the Department does not believe the 
proposed changes will make Federal lands less competitive compared to 
the States.
    Question. The Hill newspaper published an article on March 5 of 
this year where they cited a Congressional Research Service study that 
determined that while overall U.S. oil production has increased since 
2007, oil development on Federal lands has dropped by 7 percent. For 
natural gas, overall U.S. production has increased by 20 percent 
between 2008 and 2012, but on Federal lands it has fallen by one-third. 
Instead of a host of new fees, shouldn't the Department be looking at 
ways to attract companies to Federal lands for oil/gas production? This 
would generate significant revenues to both the States and Federal 
Government.
    Answer. The Congressional Research Service study shows that Federal 
onshore oil production increased by 16.3 percent from 284,900 barrels 
per day in 2008 to 331,500 barrels per day in 2012. Federal onshore gas 
production decreased slightly during that same period. The decrease in 
gas production was a result of lower gas prices and rising supplies of 
natural gas due to the development of unconventional shale gas. The 
largest unconventional shale gas discoveries are primarily on non-
Federal land and are attracting a significant portion of new investment 
for natural gas development. This does not mean that Federal lands are 
no longer competitive for natural gas development. Indeed, companies 
continue to acquire thousands of Federal leases and permits annually 
for new natural gas production projects on Federal lands.
    The Department has an obligation to the public to ensure a fair 
return on Federal oil and gas production. Even with the proposed 
changes, Federal leases will remain competitive with State leases and 
should not result in any significant reduction in interest and 
development of oil and gas on Federal lands. The proposed onshore and 
offshore reforms will generate roughly $2.5 billion in net revenue to 
the Treasury over 10 years. Many States will also benefit from higher 
Federal revenue sharing payments as a result of these reforms.
        national wildlife refuge fund/payments in lieu of taxes
    Question. The National Wildlife Refuge Fund provides funds to local 
counties to offset the loss of tax receipts from Federal land 
ownership. Again this year, your fiscal year 2014 budget proposed to 
eliminate this $14 million discretionary amount available to local 
governments across the country.
    It seems to me that we should be creating fiscal certainty for 
local governments instead of cutting payments to them at a time when 
your Department has placed such a large emphasis on increasing Federal 
land ownership through LWCF.
    I understand that the mandatory portion of this program will 
continue to go to local counties, but why are you proposing to 
eliminate the discretionary portion of the program again this year?
    Answer. The Refuge Revenue Sharing Act, as amended, authorizes 
revenues and direct appropriations to be deposited into a special fund, 
the National Wildlife Refuge Fund (NWRF), and used for payments to 
counties in which lands are acquired in fee (fee title) or reserved 
from the public domain (reserved land) and managed by the Service. 
These revenues are derived from the sale or disposition of (1) products 
(e.g., timber and gravel); (2) other privileges (e.g., right-of-way and 
grazing permits); and/or (3) leases for public accommodations or 
facilities (e.g., oil and gas exploration and development) incidental 
to, and not in conflict with, refuge purposes.
    Refuges have been found to generate tax revenue for communities far 
in excess of that which was lost with Federal acquisition of the land. 
In addition, Refuge lands provide many public services and place few 
demands on local infrastructure such as schools, fire, and police 
services when compared to development that is more intensive. National 
Wildlife Refuges bring a multitude of visitors to nearby communities 
and so provide substantial economic benefits to these communities.
    The Refuge System welcomed more than 47 million visitors in fiscal 
year 2012, according to the Service's Refuge Annual Performance Plan. 
Hunters, birdwatchers, beach goers and others who spend time on refuges 
also bring money into local economies when they stay in local hotels, 
dine at local restaurants, and make purchases from local stores. 
Recreational spending on refuges generates millions of dollars in tax 
revenue at the local, county, State and Federal level. According to a 
report titled Department of the Interior Economic Contributions Fiscal 
Year 2011, in 2011 national wildlife refuges generated more than $4.2 
billion in economic activity and created more than 34,500 private 
sector jobs nationwide. In addition, property values surrounding 
refuges are higher than equivalent properties elsewhere. Importantly, 
in an increasingly urban world, these sanctuaries of natural beauty 
offer Americans priceless opportunities to connect with nature.
    Question. Payments in Lieu of Taxes (PILT) payments, which 
compensate States and counties with large amounts of non-taxable 
Federal land, expire at the end of this fiscal year. While your budget 
proposes to extend the mandatory payments by a year, it does not 
identify any offset. Shouldn't we identify a concrete way to pay for 
this important program?
    Answer. The President's budget proposes an extensive number of 
legislative proposals that result in savings in the next 10 years. Any 
of these proposals could be considered for potential offsets to extend 
the PILT program for fiscal year 2014. These proposals are identified 
on page 200 of the Mandatory and Receipts Proposals section (S-9) of 
the President's budget and a narrative explanation is provided by the 
Department of the Interior. Please refer to the following website 
links: http://www.whitehouse.gov/sites/default/files/omb/budget/fy2014/
assets/tables.pdf and on page DO-20 http://www.doi.gov/budget/
appropriations/2014/highlights/upload/overview.pdf.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Increased production, particularly on the Outer 
Continental Shelf (OCS) in the Gulf of Mexico, would likely reduce our 
reliance on foreign oil and create much needed jobs.
    What is the Department doing to make Federal offshore land 
available for exploration and development?
    Answer. President Obama's call for a sustained, all-of-the-above 
energy strategy includes the expansion of responsible production of our 
domestic oil and gas supplies, including Federal lands. Since the 
President took office, America's dependence on foreign oil has 
decreased every year, and domestic oil and natural gas production has 
risen every year. In 2012, American oil production reached the highest 
level in two decades and natural gas production reached an all-time 
high. Combined with recent declines in oil consumption, foreign oil 
imports now account for less than half of the oil consumed in America.
    The Bureau of Ocean Energy Management (BOEM) held the first two 
sales of the Five Year Program in the Gulf of Mexico in November 2012 
and March 2013, which resulted in over $1.3 billion in high bids on 436 
new leases. A third lease sale, scheduled for this August, will offer 
21 million acres offshore Texas, making all unleased acreage in the 
Western Gulf of Mexico available for leasing. BOEM's lease terms 
encourage prompt development and production and ensure that the 
American public receives fair market value for these shared resources. 
Lease sales conducted under the program include a modified minimum bid 
structure that BOEM has developed, after rigorous economic analysis, to 
encourage operators to invest in the OCS acreage that is most likely to 
lead to discoveries and production and reduce the amount of leased 
acreage that sits idle. BOEM will continue to use lease terms that 
incentivize industry to diligently and promptly operate their leases.
    Question. National Fish Hatcheries across the Southeast generate 
millions of dollars in economic benefits through warm water fish 
production. In my State, we have the Private John Allen National Fish 
Hatchery, located in Tupelo, Mississippi, which is one of eight warm 
water fish hatcheries managed by the U.S. Fish and Wildlife Service. 
Despite the large contribution warm water fisheries have on national 
restoration efforts, the budget for fisheries located in the Southeast 
continues to decline. I have concerns about funding for warm water 
hatcheries.
    What is your plan for these hatcheries in the future? Will a 
disproportionate amount of funding go to cool water fisheries at their 
expense?
    Answer. To meet the needs of the American people in a changing 
social and economic climate, the National Fish Hatchery System (NFHS) 
has been proactive in implementing creative strategies for assessing, 
deploying, and managing its workforce to answer these types and other 
important and pressing questions. In December 2012, the Service 
initiated a review of 70 production hatcheries within the NFHS to 
ensure the Service is positioned to address the current and future 
aquatic resource needs of the United States.
  --Geoffrey Haskett, the Service's Alaska Regional Director and former 
        Chief of the National Wildlife Refuge System (NWRS), led the 
        review. He previously oversaw a similar exercise that helped 
        the NWRS improve workforce and financial management.
  --The NFHS review was precipitated, in part, by staffing and budget 
        challenges at various hatcheries. With tight budgets, the 
        Service must establish production goals for the highest 
        priority species; determine the optimal number of hatcheries 
        and employees to achieve those goals; and strive for a more 
        balanced ratio of payroll to operational costs to achieve NFHS 
        goals and support collaborative recovery and restoration 
        programs.
  --The review team is comprised of Fisheries Program leadership from 
        all Service Regions and Headquarters. The team has collected 
        and examined information about species produced, staffing 
        levels and needs, organizational structure, operational 
        budgets, and assets. The team used data gathered through 
        previous programmatic reviews as the baseline for collecting 
        up-to-date and comparable information.
  --The review team is developing a report with funding scenarios and 
        operations options that is expected to be complete by August 
        2013. The Service will use this information to make informed 
        decisions about where to focus efforts given current, 
        declining, or increasing budgets, and where operations would be 
        reduced or expanded accordingly. The review will also help 
        inform an evaluation of the Service's vision for the future of 
        its fisheries activities that the Sport Fishing and Boating 
        Partnership Council is conducting. The Service will use the 
        review team's report and the Council's recommendations to 
        produce a strategic plan for the future.
  --The Service strongly believes the steps taken now--together as an 
        agency and with our partners--will help focus its efforts, make 
        strategic investments, and better address current and future 
        challenges. Above all, these steps will position the Service to 
        proudly continue America's fisheries legacy.
     Last year, in response to a question I submitted for the record, 
the Department stated that most States and Tribes currently use the 
majority of their Historic Preservation Fund grant funds to carry out 
non-discretionary activities mandated by the National Historic 
Preservation Act.
    Do you believe that the preservation and conservation activities 
previously carried out by the Save America's Treasures (SAT) program 
were an important part of ensuring the protection of our Nation's 
cultural heritage?
    Answer. The National Historic Preservation Act (NHPA) states that 
it is the policy of the Federal Government to ``contribute to the 
preservation of [ . . . ] prehistoric and historic resources and give 
maximum encouragement to organizations and individuals undertaking 
preservation by private means.'' (16 U.S.C. 470-1). There are numerous 
ways in which the Federal Government can contribute to historic 
preservation, and the Save America's Treasures program was one of these 
tools.
    From 1999 to 2010, $319.1 million was appropriated resulting in 
1,287 grant awards. Matched dollar-for-dollar, these funds have 
leveraged approximately $380 million in non-Federal investment and 
added over 16,000 jobs to local and States' economies.
    The SAT grants assisted 295 National Historic Landmarks (NHL), 28 
properties located in and contributing to NHL Districts, over 250 
buildings individually listed in the National Register of Historic 
Places (NRHP), over 70 properties located in and contributing to NRHP-
listed historic districts, and 24 properties eligible for NRHP listing, 
as well as hundreds of nationally significant museum collections.
    Question. Given that most States and Tribes have little funding 
from Historic Preservation Fund grants remaining after completing 
mandated activities, what is the Department doing to support bricks and 
mortar projects to preserve and protect nationally significant historic 
sites?
    Answer. The grants-in-aid to States and Territories and grants-in-
aid to Tribes funded through the NPS Historic Preservation Fund (HPF) 
account can be used for brick and mortar projects, and a small number 
of States do use a portion of the HPF allocation for this. A small 
amount of funding goes to bricks and mortar projects through the Tribal 
Heritage grant program and Japanese-American World War II Confinement 
Site Preservation program. Additionally, through the NPS's Technical 
Preservation Services office, the NPS develops historic preservation 
policy and guidance on preserving and rehabilitating historic 
buildings, administers the Federal Historic Preservation Tax Incentives 
Program for rehabilitating historic buildings, and sets the Secretary 
of the Interior's Standards for the Treatment of Historic Properties.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. Which States, if any, do you believe do not have laws or 
rules regulating hydraulic fracturing?
    Answer. States are free to regulate hydraulic fracturing as 
appropriate, with the exception that State regulations must meet the 
minimum requirements of any applicable Federal regulations. Some States 
have specific rules related to hydraulic fracturing, while others 
regulate the process solely under their general oil and gas permitting 
requirements.
    States are not legally required to meet the stewardship standards 
applying to public lands and do not have trust responsibilities for 
Indian lands under Federal laws. The States that have regulated 
hydraulic fracturing do not uniformly require measures that would 
uphold the BLM's responsibilities for federally managed public 
resources, to protect the environment and human health and safety on 
Federal and Indian lands, and to prevent unnecessary or undue 
degradation of the public lands.
    We would note that BLM is not an expert on the regulatory 
requirements of each State, and we understand that many States are in 
the process of reevaluating their regulatory requirements regarding 
hydraulic fracturing; thus, we recommend that the committee follow up 
with appropriate State officials for the latest information on their 
particular regulatory requirements and standards.
    However, after conducting a search through regulations of various 
States, the BLM believes that the following States do not currently 
have specific hydraulic fracturing regulations in place: Connecticut, 
Delaware, Florida, Georgia, Hawaii, Iowa, Maine, Maryland, 
Massachusetts, Minnesota, Missouri, New Hampshire, North Carolina, 
Rhode Island, South Carolina, Tennessee, Washington, and Wisconsin.
    In addition, our understanding is that the following States have 
banned the practice of hydraulic fracturing: New Jersey, New York, and 
Vermont.

                          SUBCOMMITTEE RECESS

    Senator Murkowski. With that, we stand recessed. Thank you.
    [Whereupon, at 12:44 p.m., Tuesday, May 7, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]

</pre></body></html>
